App. 1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0265p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

STEVIE L. ENGLAND,

)
Petitioner-Appellant, )
)
v.
)
)
DEEDRA HART, Warden,
)
Respondent-Appellee. )

No. 18-6039

Appeal from the United States District Court
for the Western District of Kentucky at Paducah.
No. 5:06-cv-00091—Thomas B. Russell, District Judge.
Argued:

April 28, 2020

Decided and Filed: August 17, 2020
Before:

SILER, MOORE, and NALBANDIAN,
Circuit Judges.
-----------------------------------------------------------------------

COUNSEL
ARGUED: Chanson Chang, COVINGTON & BURLING LLP, Washington, D.C., for Appellant. Emily Bedelle
Lucas, OFFICE OF THE KENTUCKY ATTORNEY
GENERAL, Frankfort, Kentucky, for Appellee. ON
BRIEF: Chanson Chang, Jeffrey Lerner, COVINGTON

App. 2
& BURLING LLP, Washington, D.C., for Appellant.
Emily Bedelle Lucas, OFFICE OF THE KENTUCKY
ATTORNEY GENERAL, Frankfort, Kentucky, for
Appellee.
SILER, J., delivered the opinion of the court in
which NALBANDIAN, J., joined. MOORE, J. (pp. 2223), delivered a separate opinion concurring in part.
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

SILER, Circuit Judge. Stevie L. England, a Kentucky prisoner serving a life sentence, appeals from a
district court’s judgment denying his petition for a writ
of habeas corpus filed pursuant to 28 U.S.C. § 2254. We
granted a certificate of appealability (“COA”) on three
issues raised by England. See Fed. R. App. P. 22(b).
First, England claims that the trial court erroneously
admitted his police confession given that he had invoked his Fifth Amendment right to counsel. Second,
he argues that the trial court’s improper admission of
hearsay statements from the deceased victim was erroneously deemed harmless error. Finally, England argues that the prosecution suppressed evidence in
violation of Brady. Because the state court did not err
in its interpretation or application of federal law, we
AFFIRM the district court’s denial of England’s habeas petition.

App. 3
I.
On July 10, 2000, Lisa Halvorson was found deceased in her driveway. It was later determined that
she had been dead for approximately three days and
that the cause of death was asphyxia. Police immediately began investigating Halvorson’s death as a homicide.
Early in the investigation, the focus was on two
of Halvorson’s romantic partners: Tyrone McCary,
her former boyfriend and father of her child, and Pat
Halvorson, her former husband. While the investigation was ongoing, Karl Woodfork came forward after
hearing of a $10,000 reward for testimony leading to a
conviction. He alleged that McCary had paid him and
England to murder Halvorson and to make it look like
an accident. He claimed that McCary paid them $1,000
each as a down payment, with an understanding that
they were to be paid an additional $10,000 each following the completion of the murder. Woodfork agreed to
wear a wire, allowing the police to obtain a secretly
recorded conversation between him and England. In
this conversation, England complained about McCary’s
not having paid him the owed money and made various
threats that he would cause physical harm to McCary
if he was not paid.
Police subsequently brought England to the station for questioning and informed him that he had
been recorded speaking with Woodfork. After the police accused him of participating in the murder plot,
England responded: “Well, I mean you know, I guess

App. 4
you’ll just have to go on and lock me up then and call
my lawyer, cause I don’t, I don’t know what you’re talking about.” The interrogation continued, and England
ultimately admitted that he was present at the murder
scene with McCary, but claimed only to have punched
Halvorson in the jaw once to “soften her up,” which
knocked her to the ground. England stated that he unsuccessfully attempted to talk McCary out of committing further violence. He also claimed that Halvorson
was still alive when he and McCary departed the
scene.
At trial, the prosecution’s theory of the case was
that England took part in a plan to make it appear that
Halvorson was accidentally run over by her own truck
while exiting her garage. “McCary and/or [England]:
drove to [Halvorson’s] house; knocked her to the
ground in or near the garage; beat her severely; accelerated the truck backward out of the garage, causing
[Halvorson’s] face to be caught in the right bumper and
spinning her into the wheel well; got on top of her and
broke her windpipe, resulting in death by asphyxia.”
The jury convicted England of murder and recommended a sentence of life imprisonment without the
possibility of parole.
In 2005, the Kentucky Supreme Court affirmed
England’s conviction and sentence on direct appeal.
The following year, England filed a petition for a writ
of habeas corpus, alleging twenty-six grounds for relief.
In 2017, the magistrate judge recommended dismissal
of the petition in its entirety, and in 2018 the district

App. 5
court adopted the magistrate’s findings. On appeal, we
granted a COA on three issues.
II.
This habeas petition is governed by 28 U.S.C.
§ 2254(d) (“AEDPA”). It instructs that federal courts
shall not grant a habeas petition filed by a state prisoner with respect to any claim adjudicated on the
merits by a state court, absent applicability of either
of two specific exceptions. The first exception is when
a state court issues a judgment “that was contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court.” 28 U.S.C. § 2254(d)(1); Williams v. Taylor, 529
U.S. 362, 412 (2000). The second exception applies
when a state court decision “was based on an unreasonable determination of the facts” in light of the
record before it. § 2254(d)(2).
AEDPA’s requirements reflect a “ ‘presumption
that state courts know and follow the law,’ ” Woods v.
Donald, 135 S. Ct. 1372, 1376 (2015) (quoting Woodford v. Visciotti, 537 U.S. 19, 24 (2002)), and its “highly
deferential standard for evaluating state-court rulings
. . . demands that state-court decisions be given the
benefit of the doubt,” Cullen v. Pinholster, 563 U.S. 170,
181 (2011) (quoting Visciotti, 537 U.S. at 24). In essence, under § 2254(d), federal habeas review is a
safeguard against “extreme malfunctions in the state
criminal justice systems, not a substitute for ordinary error correction through appeal.” Harrington v.

App. 6
Richter, 562 U.S. 86, 102-03 (2011) (quoting Jackson v.
Virginia, 443 U.S. 307, 332 n.5 (1979)).
We review the district court’s factual findings for
clear error, and its legal conclusions de novo. Railey v.
Webb, 540 F.3d 393, 397 (2008). The state court’s factual findings enjoy a presumption of correctness, and
will only be disturbed upon clear and convincing evidence to the contrary. Id.
III.
A. Fifth Amendment Claim
England’s first claim is that his police station confession should have been suppressed because he had
invoked his Fifth Amendment right to counsel prior
to making the inculpatory statements. The Kentucky
Supreme Court found that England’s statement was
not an unambiguous request for attorney, and that in
any case, the admission of the police confession was
harmless error in light of the other evidence the
Commonwealth presented. Regardless of whether we
believe the state court’s determination to be correct, it
was nevertheless grounded in a reasonable interpretation of clearly established Supreme Court law. As
such, the Kentucky Supreme Court’s determination
must stand under AEDPA’s deferential standard of
review. See 28 U.S.C. § 2254(d); Cullen, 563 U.S. at
181.
In Miranda v. Arizona, 384 U.S. 436 (1966), the
Supreme Court delineated certain safeguards that

App. 7
must be afforded to criminal suspects. These safeguards include the right to consult with an attorney
before speaking to law enforcement officials and to
have an attorney present during a custodial interrogation. Id. at 469-473. These rights must be explained
to a suspect before the questioning begins “to insure
that the individual knows he is free to exercise the
privilege at that point in time.” Id. at 469. In Edwards
v. Arizona, the Supreme Court emphasized that “having expressed his desire to deal with the police only
through counsel,” a suspect must not be “subject to further interrogation by the authorities until counsel has
been made available to him.” 451 U.S. 477, 484-85
(1981). Of particular relevance here, the Edwards
rule is “designed to prevent police from badgering a defendant into waiving his previously asserted Miranda
rights,” Michigan v. Harvey, 494 U.S. 344, 350 (1990),
and to ensure that officers “will not take advantage of
the mounting coercive pressures of ‘prolonged police
custody.’ ” Maryland v. Shatzer, 559 U.S. 98, 105 (2010)
(quoting Arizona v. Roberson, 486 U.S. 675, 676 (1988)).
In Smith v. Illinois, the Court noted that occasionally “an accused’s asserted request for counsel may be
ambiguous or equivocal.” 469 U.S. 91, 95 (1984). And in
Davis v. United States., 512 U.S. 452, 457 (1994), the
Court addressed the question of how police should interpret such a statement. The suspect in Davis stated
“[m]aybe I should talk to a lawyer,” and the Court
found that such a remark was not an unambiguous
request for counsel. Id. at 462. The Court refused
to adopt a rule that would require police to cease

App. 8
questioning just because “a suspect makes a statement
that might be a request for an attorney.” Id. at 461. To
do so would eviscerate the “clarity and ease of application” provided by the Edwards bright-line rule. Id.
Recognizing the argument that this rule might lead to
harsh results for suspects, the Davis Court explained
that “the primary protection afforded suspects is the
Miranda warnings themselves.” Id. at 460.
The inquiry for reviewing courts is whether the
suspect has “articulate[d] his desire to have counsel
present sufficiently clearly that a reasonable police officer in the circumstances would understand the statement to be a request for an attorney.” Id. at 459. The
inquiry is objective. Franklin v. Bradshaw, 545 F.3d
409, 414 (6th Cir. 2008). The suspect must “make some
affirmative ‘statement’ or ‘request’ whose ordinary
meaning shows his desire to deal with the police
through counsel.” United States v. Suarez, 263 F.3d
468, 483 (6th Cir. 2001) (citations omitted); see also
Edwards, 451 U.S. at 484 (the request must show the
suspect’s “desire to deal with the police only through
counsel”).
With Miranda and its progeny in mind, we turn to
England’s arguments. During the police station interrogation, the police officer told England that he knew
he was present when Halvorson was killed and that
England was paid money to participate in her murder.
The officer stated that they had already informed the
prosecutor of these allegations, but that “there’s room
open for some leeway on it.” The officer then advised
England “if you want to cooperate with us, now is the

App. 9
time, but I, I’m not bluffing. I’m not. I’m telling you the
truth. We’ve got you.” England then stated: “Well, I
mean you know, I guess you’ll just have to go on and
lock me up then and call my lawyer, cause I don’t, I
don’t know what you’re talking about.”
England argues that his response contains two
separate declarations: his willingness to cooperate (“I
guess you’ll just have to go on and lock me up then”)
coupled with his assertion of his right to counsel (“call
my lawyer”). But we cannot simply sever his purported
request from the remainder of the sentence in question. Asking us to look at the words “call my lawyer” as
a freestanding declaration would distort the facts. Indeed, this clause was preceded by the coordinating conjunction “and,” which linked “lock me up then” to “call
my lawyer.” As such, the words “call my lawyer” did not
“follow[ ] this statement” as England contends—they
were part of the very same sentence. This distinction
is crucial, as “[h]ad he made . . . [this] simple, unambiguous statement, he would have invoked his right to
cut off questioning.” Berghuis v. Thompkins, 560 U.S.
370, 382 (2010).1
Because we will not view “call my lawyer” in isolation, many of the cases England cites are not quite
analogous. See, e.g., Smith, 469 U.S. at 97 (holding
statement “Uh, yeah, I’d like to do that” upon learning
of the right to counsel was unambiguous); Edwards,
1

The standards for invoking the Fifth Amendment right to
counsel and the right to remain silent are interchangeable because, according to the Thompkins Court, there is no principled
reason to adopt different standards. 560 U.S. at 381.

App. 10
451 U.S. at 479–80 (holding statement “I want an attorney before making a deal” triggered Miranda
rights); Moore v. Berghuis, 700 F.3d 882, 887 (6th Cir.
2012) (“Moore invoked his constitutional right to counsel by requesting that the police officer call his attorney’s phone number.”). The closest comparison that
England cites is Kyger v. Carlton, 146 F.3d 374, 379
(6th Cir. 1998), in which we found that the defendant
invoked his right to counsel by remarking: “I’d just
as soon have an attorney [‘]cause, you know—ya’ll say
there’s been a shooting involved and that’s a serious
charge.” But this phrase is not indicative of sarcasm
the way that “I guess you’ll just have to go on and lock
me up then” is. Although it is “good police practice for
the interviewing officers to clarify whether or not [the
suspect] actually wants an attorney,” the police are
not obligated to clarify or ask follow-up questions to
determine whether the suspect in fact wanted an attorney. Davis, 512 U.S. at 461. Here, the detectives reminded England that he had the right to “lawyer up,”
but England nevertheless responded that he would
talk and tell what he knew. A reasonable police officer
would not take England’s statement literally—that he
was actually requesting to be locked up. And if a questioning officer is reasonably unsure as to whether the
suspect wants a lawyer, to require that questioning immediately stop would impermissibly “transform the
Miranda safeguards” into “irrational obstacles to legitimate police investigative activity.” Michigan v. Mosley,
423 U.S. 96, 102 (1975).

App. 11
Davis’s requirement of a clear, unequivocal request has proved to be fatal to claims like England’s
in our circuit: “I think I should talk to a lawyer, what
do you think?” was not unequivocal, United States v.
Delaney, 443 F. App’x 122, 130 (6th Cir. 2011); nor was
the statement “[i]t would be nice to have an attorney,”
Ledbetter v. Edwards, 35 F.3d 1062, 1070 (6th Cir.
1994). “I really should have a lawyer, huh?” was also
ambiguous. United States v. Mays, 683 F. App’x 427,
433 (6th Cir. 2017). England attempts to differentiate
his statement by noting that his exact words were “call
my lawyer”—suggesting that he was specifically requesting his attorney. True, this court has held that
specificity “corroborate[s] the unequivocal nature of
that request.” Abela v. Martin, 380 F.3d 915, 926 (6th
Cir. 2004) (“nam[ing] the specific individual with whom
he wanted to speak[,] . . . corroborate[d] the unequivocal nature of that request”), abrogated on other
grounds by Guilmette v. Howes, 624 F.3d 286 (6th Cir.
2010). But England’s mere use of the word “my,” when
the officers had no indication that he was represented
by counsel, is far different than giving a specific attorney’s name, Abela, 380 F.3d at 926; phone number, see,
e.g., Moore, 700 F.3d at 887; or business card, Yenawine
v. Motley, 402 F. App’x 997, 998 (6th Cir. 2010) (per curiam). And again, England’s argument is hampered by
the fact that it was not a standalone statement.
England also claims that the Warden’s argument
impermissibly uses his post-request statements to
challenge the clarity of his purported request. Smith
instructs that once a suspect clearly invokes his right

App. 12
to counsel, police may not continue to question him and
use his answers to cast retrospective doubt on the purported request for counsel. Smith, 469 U.S. at 97. That
is, we cannot retroactively glean ambiguity in a suspect’s statement based on “postrequest responses to
further interrogation.” Id. at 100; see also Tolliver v.
Sheets, 594 F.3d 900, 922 (6th Cir. 2010) (“[W]e may
consider what came before the request, but may not
look to [the defendant’s] subsequent statements to determine whether the initial request was ambiguous.”).
But here, at least some of England’s post-request
statements were not in response to further interrogation. In the same breath as his purported request—and
before officers asked him any further questions—England stated “I’ll just be honest with you. Like I said, me
and Tyrone are friends. I’ve never seen that woman in
my life.” Such a statement would indicate to a reasonable officer that England was willing to continue talking to the officers. The situation was far different in
Smith, where the state challenged the clarity of the
suspect’s request based solely on his “responses to
continued police questioning.” 469 U.S. at 97 (emphasis
added).
Next, England argues that the state court contradicted the Supreme Court’s mandate in Davis that a
request for counsel need only be “sufficiently clear[ ]
that a reasonable police officer in the circumstances
would understand the statement to be a request for an
attorney,” 512 U.S. at 459, by stating that his request
“[did] not rise to the level of impressing upon the interrogator that the suspect has requested an attorney

App. 13
before continuing the questioning.” A state-court adjudication is “contrary to” federal law if it reaches a conclusion of law opposite to that reached by the Supreme
Court, or if the state court decides a case with materially indistinguishable facts differently than the Supreme Court. Goodell v. Williams, 643 F.3d 490, 495
(6th Cir. 2011) (citing Williams v. Taylor, 529 U.S. 362,
405-06 (2000)). “Clearly established Federal law” refers
to Supreme Court holdings at the time of the state
court’s decision. Williams, 529 U.S. at 412.
England’s argument is that the court’s use of the
phrase “impress upon” impermissibly transformed the
Supreme Court’s objective standard into a subjective
one. In the order granting England’s COA, we looked
to the dictionary’s definition of the word “impress”:
“to produce or imprint an especially vivid impression
of.” England v. Hart, No. 18-6039, at 5 (6th Cir. Feb.
26, 2019) (order) (quoting Impress, Merriam-Webster
Unabridged Dictionary, http://unabridged.merriamwebster.com/unabridged/impress (last visited Feb. 21,
2019)). But the Warden points us to the definition of
the complete phrase “impress upon,” which means “to
make someone understand or be familiar with the importance or value of something.” Respondent’s Br. at
19 (quoting Impress On/Upon, Cambridge Dictionary,
http://dictionary.cambridge.org/us/dictionary/english/
impress-sth-on-upon-sb (last visited December 28,
2019).
In any event, the state court’s poor phrasing was
not “diametrically different,” “opposite in character
or nature,” or “mutually opposed” from the Davis

App. 14
standard, as required to find that the state court misinterpreted federal law. Williams, 529 U.S. at 405-06.
But the instant case is far different than a court’s stating the wrong burden of proof in an ineffective assistance of counsel claim. Id. Here, “impress upon” is not
so radically different from the court’s pronouncement
in Davis that a suspect must articulate a desire to have
counsel “sufficiently clearly” as contemplated by the
contrary-to prong.
Nor did the district court err in its interpretation
of relevant Supreme Court precedent. England argues
that by comparing England’s statement to a negotiation tactic, the district court impermissibly speculates
about England’s subjective mental state. Davis instructs that whether a suspect invokes his right to
counsel is an “objective inquiry.” 512 U.S. at 458-59.
Here, the district court compared England’s statement
to that in Perreault v. Smith, 874 F.3d 516, 519-20 (6th
Cir. 2017), in which the defendant responded to a police
officer’s accusation that his story was inconsistent by
stating “[w]ell, then let’s call the lawyer then ‘cause I
gave what I could.” In that case, we expressed approval
of the state court’s classification of the suspect’s statement as a negotiation, likening it to “[t]hat’s all I got;
take it or leave it.” Id. at 520. To be sure, we are prohibited from utilizing circuit precedent “to refine or
sharpen a general principle of Supreme Court jurisprudence into a specific legal rule that [the Supreme
Court] has not announced.” Marshall v. Rodgers, 569
U.S. 58, 64 (2013) (per curiam). But the district court’s
use of Perreault is immaterial, as the state court’s

App. 15
decision is supported by sufficient federal law without
looking to Perreault.
The “unreasonable application” prong of 28 U.S.C.
§ 2254(d)(1) applies when the state court identified
the correct legal principle but applied it to the facts of
the petitioner’s case in an objectively unreasonable
way. Goodell, 643 F.3d at 495. The Supreme Court has
stated that to constitute an unreasonable application,
“the state court’s ruling . . . [must be] so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility
for fairminded disagreement.” Harrington, 562 U.S. at
103. Our role is therefore to “determine what arguments or theories supported or . . . could have supported, the state court’s decision.” Id. at 102. We then
turn to the question of whether “fairminded jurists
could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the
Supreme Court].” Id. at 102. We note that “an unreasonable application of federal law is different from an
incorrect application of federal law.” Williams, 529 U.S.
at 410. Accordingly, we may not grant a habeas petition
based solely on our own “independent judgment that
the [state court] applied clearly established federal law
erroneously or incorrectly”; “that application must also
be unreasonable.” Id. at 411.
We undertake this “objective[] unreasonable[ness]”
inquiry, id. at 409, in view of the specificity of the governing rule: “The more general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations,” Yarborough v. Alvarado, 541 U.S. 652,

App. 16
664 (2004). Conversely, “[i]f a legal rule is specific, the
range may be narrow” and “[a]pplications of the rule
may be plainly correct or incorrect.” Id. Here, the relevant Supreme Court precedent comes from Davis,
which we have previously held represented a “general
rule.” McKinney v. Hoffner, 830 F.3d 363, 373. Accordingly, the state court is given some latitude in its application of Davis to the facts of this case.
England argues that the state court materially
changed the meaning of his statement by finding that
“[i]n essence, England merely said that I guess you will
have to call my lawyer and I don’t know if I need my
lawyer because I don’t want to get into trouble.” He directs us to Smith v. Illinois, in which the petitioner remarked “[u]h, yeah. I’d like to do that,” upon learning
that he had a right to consult with an attorney. 469 U.S.
at 93. The Supreme Court found such a statement to
be unambiguous. But Smith is easily distinguishable
from the facts before us. First, England sidesteps the
fact that his statement was not prefaced solely by the
words “I guess.” As discussed previously, it cannot be
viewed separate and apart from the remainder of his
statement. Second, in Smith the Court noted, “with the
possible exception of the word ‘uh’,” there was nothing
to reasonably suggest equivocation in the petitioner’s
statement. Smith, 469 U.S. at 97. The same cannot be
said for England, whose purported request was buried
within a larger statement.
England’s reliance on United States v. Scott, 693
F.3d 715 (6th Cir. 2012), is similarly unpersuasive. In
Scott, we held that the defendant had unambiguously

App. 17
invoked his right to counsel by writing “no” in response
to the following written question: “Having these rights
in mind, do you wish to talk to us now?” Id. at 717. We
noted, “[i]f there is any ambiguity about Scott’s right to
counsel, it is in the form itself, and not in his invocation
of the right.” Id. at 720. The same cannot be said for
England, as his alleged request was not directly in response to a statement advising him of his Miranda
rights, nor was it equivalent to the unequivocal “no”
used by the defendant in Scott.
Nevertheless, England argues that the use of the
phrase “I guess” constituted firmer language than the
petitioner’s “[m]aybe” in Davis. Our precedent, and
that of other circuits, suggests the opposite conclusion.
See, e.g., United States v. Havlik, 710 F.3d 818, 822 (8th
Cir. 2013) (“I guess you better get me a lawyer then”
was not an unambiguous request for counsel); United
States v. Nolan, 443 F. App’x 259, 260 (9th Cir. 2011)
(defendant’s mid-interview statement that “I guess I
have to, you know, get a lawyer or something because
we’re not coming to an understanding here” was not an
unequivocal request for counsel); Luna v. Lamarque,
400 F. App’x 169, 172-73 (9th Cir. 2010) (defendant’s
statements “I should probably get a lawyer, I guess”
and “In other words, I’ll just wait ‘til I get booked and
wait ‘til I’m charged or whatever, you know whatever
or get a lawyer” did not constitute an unambiguous request for counsel).
Whether we ultimately believe there to be a constitutional difference between the statement made in
Davis and the statement here is irrelevant. Under

App. 18
AEDPA, our inquiry focuses not on whether the officers
could have interpreted England’s statement as an unambiguous request for an attorney, but whether it was
objectively unreasonable for the Kentucky Supreme
Court to conclude otherwise. We cannot say that it
was. Indeed, the very fact that many courts have considered this issue and reached differing conclusions—
in other words, “fairminded jurists [ ] disagree[d],”
Yarborough, 541 U.S. at 664—supports our conclusion
that the state court did not unreasonably apply federal
law.
Even if we had found that the admission at trial of
England’s police station confession violated his right to
counsel and that the state court unreasonably applied
or failed to follow clearly established federal law by admitting it, England would still need to demonstrate
that the error was prejudicial to warrant granting his
petition. Davis v. Ayala, 135 S. Ct. 2187, 2197 (2015).
On habeas review, an error is harmless unless it had a
“substantial and injurious effect or influence in determining the jury’s verdict.” Brecht v. Abrahamson, 507
U.S. 619, 637 (1993). To meet this standard there must
be more than the “reasonable possibility” that the error
contributed to the jury’s verdict. Mitzel v. Tate, 267 F.3d
524, 534 (6th Cir. 2001) (quoting Brecht, 507 U.S. at
637). If we harbor “grave doubt” about whether the
state court’s error had a “substantial and injurious
effect or influence in determining the jury’s verdict”
then the error is not harmless, and the petition must
be granted. O’Neal v. McAninch, 513 U.S. 432, 436
(1995)) (internal quotation marks omitted).

App. 19
England argues that his confession to police was
inextricably woven throughout the Commonwealth’s
case, tainting the jury’s view of other evidence.2 To be
sure, a confession is prejudicial—“the defendant’s
own confession is probably the most probative and
damaging evidence that can be admitted against him.”
Arizona v. Fulminante, 499 U.S. 279, 296 (1991) (alteration in original) (quoting Bruton v. United States, 391
U.S. 123, 139-140) (White, J., dissenting)). But even if
the police station confession were suppressed, the
Commonwealth had the taped conversation between
England and Woodfork—which was entirely independent of the police station confession—to build its case
around.3

2

England did not confess to murdering Halvorson. Rather,
he admitted that he struck her and knocked her to the ground.
England maintains that McCary actually killed Halvorson. Nevertheless, the actions England admitted to were sufficient to be
found guilty of the crime of conviction—complicity to murder. See
Kentucky Revised Statutes (KRS) 502.020(1)(b) (“A person is
guilty of an offense committed by another person when, with the
intention of promoting or facilitating the commission of the offense, he . . . [a]ids, counsels, or attempts to aid such person in
planning or committing the offense[.]”).
3
The parties dispute whether the tape of the police interview
was played to the jury. The Warden states that it was not played,
while England claims that the “entirety of the interrogation,
which lasted nearly two hours” was played to the jury at trial,
citing the Virtual Record of the trial. “[T]he Commonwealth presented two audio tapes to the jury: in one England confessed to
the crime at the police station, and in the other England made
inculpatory statements to Woodfork.” The record indicates England is correct.

App. 20
In the Woodfork recording, England makes numerous inculpatory statements. He told Woodfork that he
waited in Halvorson’s garage, and when he saw her, he
“came out like a running forward and pop[,]” he hit her,
knocking her out. England stated that he “should have
just shot the bitch.” He continued to complain about
McCary’s failure to pay him the promised money, “[y]ou
wanted her dead; you’re going to pay. . . . I want the . . .
money.” He compared McCary’s actions in the case to
his own. “He knows I’m bad. He didn’t do anything. He
ran the truck around in a circle. . . . I did all the work
and didn’t get shit. . . . He should know who he’s fucking with. He see what I done. He think I won’t do that
to him?”
To be certain, England is not required to show that
but for the error he would have been acquitted. Kyger,
146 F.3d at 382. But unlike Moore—a case England
cites in which the stricken confession left only circumstantial eyewitness evidence—the prosecution had
England’s inculpatory statements to Woodfork. 700
F.3d at 889. Given this, we cannot conclude that the
police station confession—even if we had found it to be
erroneously admitted—had a “substantial and injurious effect or influence in determining the jury’s verdict.” Brecht, 507 U.S. at 637 (citation omitted).
B. Confrontation Clause Violation
The trial court allowed the Commonwealth to introduce Halvorson’s affidavit in support of an emergency protective order (“EPO”) against McCary—filed

App. 21
just a month prior to her death—in which she stated
that McCary had threatened to kill her or have someone else kill her. The Kentucky Supreme Court found
that this affidavit was erroneously admitted in violation of the Confrontation Clause, and neither party
disputes this finding before this court. Rather, England
disputes the state court’s finding that the improper
admission constituted harmless error.
The “starting point” for a § 2254 case is to identify
the clearly established federal law that governs the
habeas petitioner’s claims. Marshall v. Rodgers, 569
U.S. 58, 61 (2013). In Crawford v. Washington, the Supreme Court announced that “[w]here testimonial evidence is at issue, . . . the Sixth Amendment demands
what the common law required: unavailability and a
prior opportunity for cross-examination.” 541 U.S. 36,
68 (2004). In Davis v. Washington, the Court clarified
that statements “are testimonial when the circumstances objectively indicate . . . that the primary purpose of the interrogation is to establish or prove past
events potentially relevant to later criminal prosecution,” rather than to enable the assistance of law enforcement to respond to an ongoing emergency. 547
U.S. 813, 822 (2006) (footnote omitted).
The Kentucky Supreme Court made it “abundantly clear that statements made for the purpose of
obtaining a restraining order are not admissible at
trial.” Although the state court failed to cite Crawford
in its analysis, the district court found that it nevertheless properly reviewed England’s claim. Indeed, the
state court decision need not refer to relevant Supreme

App. 22
Court cases or even demonstrate an awareness of
them. Early v. Packer, 537 U.S. 3, 8 (2002) (per curiam).
Rather, it is sufficient that the result and reasoning
are consistent with Supreme Court precedent. Id. That
was the case here: the Kentucky Supreme Court’s decision encompassed the Supreme Court’s prohibition
against admission of a testimonial statement by a nontestifying witness to the deceased Halvorson’s testimonial affidavit in support of an EPO.
To grant England’s petition, we would need to find
that the affidavit’s admission was prejudicial to England’s case. Confrontation Clause violations are subject to harmless-error analysis. McCarley v. Kelly, 801
F.3d 652, 665 (6th Cir. 2015). Depending on the procedural stage of a criminal defendant’s conviction challenge, different harmless error tests apply. O’Neal v.
Balcarcel, 933 F.3d 618, 624 (6th Cir. 2019). On direct
appeal in state court, the defendant-friendly harmless
error formulation announced in Chapman v. California, 386 U.S. 18, 24 (1967), applies—error is harmless
only if the court can “declare a belief that [the error]
was harmless beyond a reasonable doubt.”
However, “the test is different” on collateral review. Ayala, 135 S. Ct. at 2197. Determining whether
to grant a habeas petition based on a Confrontation
Clause challenge requires us to ask whether the error
“had [a] substantial and injurious effect or influence
in determining the jury’s verdict.” Brecht, 507 U.S. at

App. 23
623.4 Building on this standard, in McAninch, the Supreme Court instructed federal courts “to ask directly,
‘Do I, the judge, think that the error substantially influenced the jury’s decision?’ ” 513 U.S. at 436. “The inquiry cannot be merely whether there was enough to
support the result, apart from the phase affected by
the error. It is rather, even so, whether the error itself
had substantial influence. If so, or if one is left in grave
doubt, the conviction cannot stand.” Id. at 438 (quoting
Kotteakos v. United States, 328 U.S. 750, 765 (1946)).
Grave doubt means that “in the judge’s mind, the matter is so evenly balanced that he feels himself in virtual
equipoise as to the harmlessness of the error.” Id. at
435.
The Kentucky Supreme Court asked only whether
there was a “reasonable possibility that absent error
the verdict would have been different.” It proceeded to
apply this standard when analyzing the facts. “If ever
failed to satisfy the ‘verdict would be different’ standard required for reversal, it is here.” there were evidence that . . . failed to satisfy the ‘verdict would be
different’ standard required for reversal, it is here.”
But for the purposes of habeas review, we assess the
prejudicial impact of constitutional trial errors under
4

Although Crawford and Brecht spell out different standards
for harmless error analysis in habeas petitions under AEDPA,
this court has held that “in this Circuit[,] . . . Brecht is always the
test, and there is no reason to ask both whether the state court
‘unreasonably’ applied Chapman under AEDPA and, further,
whether the constitutional error had a ‘substantial and injurious’
effect on the jury’s verdict.” Ruelas v. Wolfenbarger, 580 F.3d 403,
412 (6th Cir. 2009).

App. 24
the “substantial and injurious effect” standard set
forth in Brecht, examining the error by applying the
factors announced in Delaware v. Van Arsdall to the
facts in the case. 475 U.S. 673 (1986). These include:
(1) the importance of the witness’s testimony in the
prosecution’s case; (2) whether the testimony was
cumulative; (3) the presence or absence of evidence
corroborating or contradicting the testimony of the
witness on material points; (4) the extent of crossexamination otherwise permitted, and . . . (5) the overall strength of the prosecution’s case. Id. at 684. The
district court properly considered these factors in finding that the state court’s harmless error analysis was
reasonable.
The Importance of the Witness’s Testimony in the
Prosecution’s Case. England argues that the hearsay
statements contained in the affidavit were used to
prove McCary’s intent to commit murder (a necessary
element of the complicity to commit murder charge
for which England was convicted). According to England, because the prosecution’s theory of the case was
that McCary hired England to commit the murder, the
affidavit’s reference to a third party who could kill
Halvorson (“if he didn’t do it, he knew someone that
could”) provided the necessary context for England’s
involvement. The Warden downplays the potentially
damaging role of the affidavit, arguing that it was
only discussed for two minutes of four days of testimony. But this ignores the fact that a highly inflammatory statement could be deeply influential on the
jury’s verdict no matter how briefly it is mentioned.

App. 25
Nevertheless, we find persuasive the Warden’s characterization of the prosecution’s use of the affidavit—as
merely background information to explain why McCary
became the prime suspect in the investigation. Indeed,
the affidavit’s passing reference to a hypothetical third
party did not directly implicate England. More importantly, the affidavit was not absolutely necessary to
the prosecution, as it could still put forward England’s
statements to Woodfork to provide the necessary context for England’s involvement.
Cumulative Evidence. Next, England argues that
the affidavit was corroborative, rather than cumulative, of the aspects of the Woodfork statements that the
prosecution relied on. “[E]vidence that is merely cumulative of that already presented does not . . . establish
prejudice.” Getsy v. Mitchell, 495 F.3d 295, 313 (6th Cir.
2007) (en banc) (quoting Broom v. Mitchell, 441 F.3d
392, 410 (6th Cir. 2006)). Determining what constitutes
cumulative evidence can be difficult, as “[o]ur cases . . .
do not tell us clearly when evidence becomes sufficiently different to no longer be ‘cumulative’ or at what
level of generality one must compare the evidence.”
Vasquez v. Bradshaw, 345 F. App’x 104, 120 (6th Cir.
2009). Our most frequent formulation of the standard
is that “new evidence” is not cumulative if it “differs
both in strength and subject matter from the evidence
actually presented at [trial].” Goodwin v. Johnson, 632
F.3d 301, 327 (6th Cir. 2011).
The affidavit’s inference—that England was the
person McCary hired to kill Halvorson—was presented
in graphic detail through the Woodfork confession. “He

App. 26
wanted me to do it. Kill her.” “He had, he did approach
me about paying me.” “He offered me a thousand then
he told me, first, and then he told me ten thousand,
what he said.” England also stated that McCary had
given him $1,000.00 in a white envelope containing
hundred-dollar bills, which was consistent with Woodfork’s trial testimony that McCary had handed both
him and England white envelopes containing $1000.00
each. And England alluded to the fact that McCary
had failed to pay him the full amount: “You wanted
her dead; you’re going to pay. . . . I want the fucking
money.”
Corroborating or Conflicting Evidence. To show
corroboration of the substance of the affidavit (that
McCary threatened to kill Halvorson), the Warden
points to the testimony of Cori Poindexter—the last
person to see Halvorson alive—who claimed to have
overheard a conversation in which McCary threatened
to “end it” with Halvorson and stated that if he could
not have her, no one would. However, England posits
that these statements have an innocuous meaning:
simply that McCary intended to break up with her or
otherwise terminate their relationship. But even without the affidavit, the Woodfork testimony provides sufficient corroboration, as England himself implied that
McCary had recruited him to kill Halvorson. Given
this additional support, this Van Arsdall factor weighs
in the Warden’s favor.
Extent of Cross-Examination Otherwise Permitted.
England provides no counter to the Warden’s assertion
that he could have cross-examined Detective Walker

App. 27
about the affidavit. That he chose not to do so—instead
focusing his defense on other elements of the case—
does not mean he was deprived of the opportunity.
Strength of Prosecution’s Case. The final, and most
critical factor in harmless error analysis is the overall
strength of the prosecution’s case. Perkins v. Herbert,
596 F.3d 161, 177 (2d Cir. 2010). In McCarley, we likened the erroneously admitted testimony at issue “to a
keystone holding the arch of the State’s case together”
which, when removed, caused the State’s case to “collapse[ ] into disjointed pieces.” 801 F.3d at 667. We reasoned that the untainted evidence “paint[ed] a clear
picture of the crime, but only when considered in light
of [the hearsay testimony].” Id. That is not the case
here. The Warden argues the affidavit was “extraneous
and, frankly, unnecessary in light of all the evidence.”
Indeed, “[t]hough it is impossible to speculate how the
trial may have played out under different circumstances,” Jensen v. Romanowski, 590 F.3d 373, 381 (6th
Cir. 2009), the prosecution’s case was supported by
competent evidence: the police confession, the Woodfork confessions, and the corroborating circumstances
found at the crime scene. As such, the affidavit was far
from the “linchpin of the government’s case, connecting
[the defendant] to the fruits of the crime in a way no
other evidence, testimonial or physical, could.” Reiner
v. Woods, 955 F.3d 549, 551 (6th Cir. 2020).
Accordingly, we cannot say that we harbor grave
doubt as to the effect or influence the affidavit might
have had on the jury’s verdict. The state court’s harmless error determination must stand.

App. 28
C. Brady Claims
England’s final claim is that the trial court erred
by denying England’s motion for a new trial despite his
showing that the Commonwealth withheld exculpatory forensic evidence. Specifically, this evidence refers
to (1) Caucasian head hair found in Halvorson’s underwear; (2) Caucasian head hair found in Halvorson’s
hands; and (3) semen found in Halvorson’s vagina,
which was determined to belong to her then-boyfriend
Shannon Jenkins. Both England and McCary are
African-American. England contends that had he been
permitted to present this evidence, there was a reasonable probability that he would not have been convicted.
Accordingly, he argues the Kentucky Supreme Court
unreasonably applied federal law in concluding otherwise. See 28 U.S.C. § 2254(d)(1); Williams, 529 U.S. at
405.
Under Brady v. Maryland, “suppression by the
prosecution of evidence favorable to an accused . . . violates due process where the evidence is material, either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution.” 373 U.S. 83, 87
(1963). The Supreme Court has stated that “[t]here are
three components of a true Brady violation: [t]he evidence at issue must be favorable to the accused, either
because it is exculpatory, or because it is impeaching;
that evidence must have been suppressed by the State,
either willfully or inadvertently; and prejudice must
have ensued.” Strickler v. Greene, 527 U.S. 263, 281-82
(1999). The defendant has the burden of proving a

App. 29
Brady violation. See id. at 291, 296; see also Carter v.
Bell, 218 F.3d 581, 601 (6th Cir. 2000).
Because significant time elapsed from when England claims he left Halvorson’s house and the discovery
of her body, he argues that the presence of foreign
Caucasian hairs would have supported an argument
that another person struck the final blow against
Halvorson. Halvorson had a Caucasian boyfriend,
Jenkins, at the time of her death and also had a Caucasian ex-husband, Pat Halvorson, who was originally
investigated as a suspect in her murder prior to the
emergence of Woodfork. Additionally, Pat Halvorson
had a life insurance policy on Lisa at the time of her
death, and he had made a statement to police indicating that he and Lisa had separated on bad terms. Accordingly, England theorizes that the evidence at issue
would have bolstered an argument that a disgruntled
romantic partner committed Halvorson’s murder.
Confusion arises from the Kentucky Supreme
Court’s failure to definitively explain if—or how—the
prosecution suppressed evidence. Its vague reasoning
includes the following curious statement:
[England] contends that he was not informed
that the sperm found in Lisa’s vagina was
from her boyfriend, Shannon Jenkins, that
there was a Caucasian head hair found in
Lisa’s panties, and that there were Caucasian
head hairs in her hands. However, England
was aware of the crucial parts of this information prior to trial. For instance, he was
aware that the hair in Lisa’s hand was

App. 30
probably from a cat. As to the sperm found,
England argued that the sperm taken from
Lisa did not match either England or McCary.
Also, England was aware that Jenkins stated
that he recently had sexual intercourse with
Lisa.
England appears to argue that because he was aware
of “crucial parts” of the information, there were other
parts that he was erroneously not made aware of. But
a review of the record belies this claim.
As to the hair found in Halvorson’s hand, a trace
evidence analyst told the jury that the hair had Caucasian characteristics, and England’s trial counsel
cross-examined this analyst, and emphasized this
finding in his closing argument. The jury was also
informed that the hair in Halvorson’s underwear was
from a Caucasian person.5
As to the sperm evidence, England contends that
the prosecution’s failure to affirmatively identify
Jenkins as the sperm contributor was an evidentiary
suppression. However, the jury was informed that the
sperm DNA was not a match to either England or
McCary. Indeed, Brady does not require a prosecutor
5

Another wrinkle to add to the dispute: the Warden argues
that the state court erroneously held that England knew prior to
trial that the hair in Halvorson’s hand was from a cat. Unfortunately, the Supreme Court of Kentucky made the inaccurate
observation that England knew it was cat hair prior to trial. The
Warden is unable to find where it has been corrected throughout
England’s appeals. The Warden has relied upon the video record.
Confusingly, England apparently argues that he was aware prior
to trial that the hair was from a cat.

App. 31
to “deliver his entire file to defense counsel,” but only
to disclose those items which are material to the defendant’s guilt or punishment. United States v. Bagley,
473 U.S. 667, 675 (1985); see also Kyles v. Whitley, 514
U.S. 419, 437 (1995) (“We have never held that the
Constitution demands an open file policy.”). But when
“evidence is obviously of such substantial value to
the defense . . . elementary fairness requires it to be
disclosed even without a specific request.” United
States v. Agurs, 427 U.S. 97, 110 (1976). England contends that knowing that the sperm DNA was a match
to Jenkins would have allowed him to better focus his
defense on a theory that Jenkins was the killer. And to
be sure, it is one thing to present an argument, but
something entirely different to be provided the evidence to support that argument.
Yet even if we found that evidence was suppressed,
England fails to establish that it prejudiced his defense. Prejudice (and materiality) is established by
showing that “there is a reasonable probability that,
had the evidence been disclosed to the defense, the result of the proceeding would have been different.”
Bagley, 473 U.S. at 682; see also Cone v. Bell, 556 U.S.
449, 469 (2009). A reasonable probability is shown
“when the . . . suppression undermines confidence in
the outcome of the trial.” Kyles, 514 U.S. at 434 (1995)
(quoting Bagley, 473 U.S. at 678). To make this showing, England need only clear the “lower than the moreprobable-than-not standard.” LaMar v. Houk, 798 F.3d
405, 416 (6th Cir. 2015). But “[t]he likelihood of a different result must be substantial, not just conceivable.”

App. 32
Harrington, 562 U.S. at 112 (internal quotation marks
and citation omitted). In determining whether a reasonable probability exists, we consider the undisclosed
evidence collectively. See Kyles, 514 U.S. at 435 (explaining that a Brady violation is shown through “favorable evidence [that] could reasonably be taken to
put the whole case in such a different light as to undermine confidence in the verdict”).
England argues that the presence of Caucasian
head hair in Halvorson’s hand and underwear would
have supported his theory that another individual—
perhaps one of the Caucasian suspects—was responsible for her death. At the very least, he argues, it would
have allowed the jury to infer that a Caucasian individual was in close contact with Halvorson shortly before her death. While this is “conceivable,” it does not
present a substantial likelihood of a different result.
Harrington, 562 U.S. at 112 (internal quotation marks
and citation omitted).
Disclosing the source of the sperm found in the
victim’s vagina would have shown that Jenkins had
recently had sexual intercourse with Halvorson. But
England provides no support for the contention that a
woman’s most recent sex partner should automatically
be considered a suspect for her murder—especially
when no evidence of sexual assault was found. Moreover, the prejudice inquiry “does not extend to assessments of the impact that the suppression may have
had on [Defendants’] subsequent trial strategy.”
United States v. Fields, 763 F.3d 443, 461 (6th Cir.
2014) (quoting Smith v. Metrish, 436 F. App’x 554, 564

App. 33
(6th Cir. 2011)); see also Joseph v. Coyle, 469 F.3d 441,
473 n.23 (6th Cir. 2006) (“Rather, we have expressly
recognized the Supreme Court’s explicit rejection of
the argument that ‘the [materiality] standard should
focus on the impact of the undisclosed evidence on
the defendant’s ability to prepare for trial.’ ”) (alterations in original) (quoting Agurs, 427 U.S. at 112
n.20).
Nevertheless, England directs us to Mills v. Barnard, in which we found that—at least at the motionto-dismiss stage—a petitioner’s claim that suppressed
DNA evidence in a sexual assault case would have
shown conclusively that it was contributed by another
individual satisfied the elements of a Brady violation.
869 F.3d 473, 485-86 (6th Cir. 2017). But that case
involved a sexual assault in which the defendant was
found guilty based solely on the victim’s testimony coupled with DNA evidence from her underwear; as such,
it is easily distinguishable from the instant case. Here,
the medical examiner testified that she found no indication a sexual assault had occurred. And, England’s
trial counsel did not challenge the medical examiner’s
conclusion on cross examination. Thus, the identity of
the DNA evidence was far from crucial to the Commonwealth’s case.
In sum, even if all the evidence were as England
wishes, it does not persuade us that there is a reasonable probability the result of the trial would have
been different. Strickler, 527 U.S. at 281. We therefore
cannot conclude that the state court unreasonably

App. 34
applied federal law in rejecting England’s Brady
claims.
AFFIRMED.

-----------------------------------------------------------------------

CONCURRING IN PART
-----------------------------------------------------------------------

KAREN NELSON MOORE, Circuit Judge, concurring in part. We need not address the potential Fifth
Amendment problem in admitting Stevie England’s
police-interrogation confession, because England made
an independent, recorded confession to Karl Woodfork
about his involvement in Lisa Halvorson’s murder. The
critical question is what England said on those recordings. Were his statements as inculpatory as his policeinterrogation confession? Based on England’s counsel’s
concession at oral argument that England is heard admitting to violence against Halvorson in the Woodfork
recordings, the answer is yes, and the potentially erroneous admission of England’s police-interrogation confession was therefore not prejudicial.
Counsel’s concession clarifies what is otherwise a
confusing trial record. We were unable to review the
actual content of the Woodfork recordings, because
the recordings are unintelligible in the trial record.
The only relevant item we could review was a trialrecord video of the prosecutor, during his closing argument, purporting to relay direct quotes from England

App. 35
in these recordings, involving admissions of violent
acts against Halvorson. On the one hand, if true, these
statements are highly inculpatory. On the other hand,
neither the state court, the magistrate judge, nor the
district court found that the jury heard England
confess to involvement in Lisa’s murder in the Woodfork recordings. In fact, the three courts all describe
the Woodfork recordings as containing less directly
inculpatory content, namely England stating that
McCary owes him money and considering ways to
get McCary to pay. See England v. Kentucky, No. 2003SC-0328-MR, 2005 WL 1185204, at *5 (Ky. May 19,
2005) (“In those conversations, which were played for
the jury, England said McCary had not paid money
owed to him and considered ways to coerce McCary
to pay him the money.”); England v. Simpson, No.
506CV00091GNSLLK, 2017 WL 10238035, at *2 (W.D.
Ky. Mar. 6, 2017) (“Woodfork agreed to be wired for
sound, and authorities obtained secretly-recorded
conversations with Petitioner in which Petitioner complained about McCary’s not having paid him some
owed money (the inference being that it was the
$10,000 owed for having assisted McCary commit the
murder).”); id. at *7 n.11 (“Petitioner told Woodfork
that McCary had not paid money owed to him and considered ways to get McCary to pay.”); England v. White,
No. 5:06-CV-091-TBR-LLK, 2018 WL 4353692, at *2
(W.D. Ky. Sept. 11, 2018) (“Before the trial, Woodfork
agreed to be wired for sound, and the police secretly
recorded conversations between Woodfork and England, in which England complained about McCary
owing him money.”).

App. 36
We sought clarity on this issue at oral argument,
asking counsel for England whether he disputed that
his client could be heard, in the Woodfork recordings,
admitting to hitting Halvorson and knocking her out,
and stating that he should have just shot her. Oral Arg.
Audio at 11:25-11:35. Counsel replied, “We don’t dispute that those statements were made on the tape with
the informant [Karl Woodfork].” Id. at 11:48-11:53.
Therefore, even excluding the police-interrogation
confession, the jury heard England confess, in explicit
detail, to his involvement in Lisa Halvorson’s murder.
Indeed, these statements mirror the most incriminating portion of his police-interrogation confession, in
which he stated that he struck Halvorson in the jaw.
In light of this separate confession, the admission of
England’s police-interrogation confession cannot be
deemed prejudicial. For this reason, as to the majority’s analysis of England’s Fifth Amendment claim, I
concur only in its conclusion regarding the lack of
prejudice to England. I further concur in the remainder of the majority’s opinion on the Confrontation
Clause and Brady claims.

App. 37
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-6039
STEVIE L. ENGLAND,
Petitioner - Appellant,
v.
DEEDRA HART, Warden,
Respondent - Appellee.
Before:

SILER, MOORE, and NALBANDIAN,
Circuit Judges.
JUDGMENT
(Filed Aug. 17, 2020)

On Appeal from the United States District Court
for the Western District of Kentucky at Paducah.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s denial of Stevie L. England’s
petition for a writ of habeas corpus is AFFIRMED.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 38
No. 18-6039
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STEVIE L. ENGLAND,
Petitioner-Appellant,
v.
DEEDRA HART, Warden,
Respondent-Appellee.

)
)
) ORDER
) (Filed Feb. 26, 2019)
)
)

Stevie L. England, a pro se Kentucky prisoner, appeals a district court’s judgment denying his petition
for a writ of habeas corpus filed pursuant to 28 U.S.C.
§ 2254. He has applied for a certificate of appealability
(“COA”). See Fed. R. App. P. 22(b). He also moves to proceed in forma pauperis on appeal and for the appointment of counsel. See Fed. R. App. P. 24(a)(5).
A grand jury indicted England on a charge of capital murder in the death of Lisa Halvorson, and the
trial court thereafter granted the Commonwealth’s
motion to add a charge of complicity to commit murder.
In 2002, England was convicted at a jury trial of complicity and was sentenced to life in prison without parole. The Kentucky Supreme Court affirmed England’s
conviction on direct appeal. England v. Commonwealth,
Nos. 2003-SC-0328-MR, 2004-SC-0506-TG, 2005 WL
1185204 (Ky. May 19, 2005) (unpublished opinion).
In 2006, England filed his § 2254 petition, reasserting the claims that counsel raised on direct appeal:
(1) England’s statement to police should not have been

App. 39
admitted because police continued to question him
after he invoked his right to counsel and (2) because
police coerced his statement; (3) the Commonwealth
improperly pursued the death penalty after police
had told England that it would not be pursued if he
confessed; (4) Halvorson’s affidavit in support of an
Emergency Protective Order against his co-defendant
(Tyrone McCary) should not have been admitted; (5) the
trial court erred by granting the Commonwealth’s motion to sever the trials of England and McCary; (6) the
trial court erred by denying England’s motion to appoint a criminologist; (7) Cori Poindexter, a friend of
Halvorson, was improperly allowed to testify about
statements that she heard Halvorson make during her
telephone conversation with McCary; (8) the jury panel
did not include a fair representation of African-Americans; (9) prospective jurors who were opposed to the
death penalty should not have been dismissed; (10) the
trial court wrongfully allowed the Commonwealth during its closing argument to display enlarged transcripts of portions of audio tapes between England and
a confidential informant, Karl Woodfork; (11) England
was prejudiced when the Commonwealth misstated
part of the jury instruction for murder; (12) the Commonwealth did not file timely notice of aggravating circumstances that triggered the death penalty; (13) the
aggravating circumstances were not included in the indictment; (14) the tapes between England and Woodfork should not have been admitted because they were
obtained without a warrant; (15) the trial court erred
by denying England’s motion for a new trial despite his
showing that the Commonwealth withheld exculpatory

App. 40
evidence; and (16) the trial court erred by refusing to
order DNA testing on the exculpatory evidence. The
district court granted England’s contemporaneously
filed motion to hold the habeas proceedings in abeyance while he pursued post-conviction remedies in
state court.
England returned to state court and filed a motion
to vacate that contained ten claims of ineffective assistance of trial counsel. See Ky. R. Crim. P. 11.42. The
trial court denied the motion in a summary order. The
Kentucky Court of Appeals affirmed the trial court’s
decision as to nine claims, but vacated and remanded
the action for an evidentiary hearing with respect to a
claim that trial counsel had failed to present mitigating evidence during the sentencing phase. England
v. Commonwealth, No. 2007-CA-000935-MR, 2008 WL
4182027 (Ky. Ct. App. Sept. 12, 2008) (unpublished
opinion). Ultimately, by agreement of the parties, the
trial court entered an amended judgment that reduced
England’s sentence to life in prison. The district court
subsequently lifted the stay.
England next filed a supplemental § 2254 petition,
asserting that trial counsel rendered ineffective assistance by failing to: (17) object to a fatal variance and
constructive amendment to the indictment; (18) object
to the complicity instruction on the ground that the
Commonwealth did not present evidence that McCary
had been convicted of murder; (19) present mitigating evidence at his sentencing hearing; (20) object
to a prosecutor’s comment during closing argument;
(21) object to Poindexter’s testimony about Halvorson’s

App. 41
statements; (22) object to the systematic exclusion of
African-Americans from the grand jury; (23) present a
defense version of the transcripts of the taped conversations with Woodfork; (24) file a pre-trial motion contesting the indictment’s failure to list aggravating
circumstances; (25) move for a change of venue due to
pretrial publicity; and (26) move to suppress the taped
conversations as prohibited by 18 U.S.C. § 2511. England immediately withdrew Claim 19 and thereafter
withdrew Claims 5, 7, 8, 10, 12, 13, 14, and 24.
A magistrate judge recommended denying all of
England’s claims. England filed objections only as to
those claims that he had not previously withdrawn.
Upon de novo review, the district court overruled England’s objections and denied the § 2254 petition. The
court concluded that most claims lacked merit, that
Claim 11 was procedurally defaulted, and that Claim
21 lacked merit even if it survived a possible procedural default. The court declined to issue a COA.
In his COA application, England reasserts Claims
1, 4, 6, 11, 15, 17, 18, 21, 22, and 25.
An individual seeking a COA is required to make
a substantial showing of the denial of a federal constitutional right. See 28 U.S.C. § 2253(c)(2). “A petitioner
satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). When the appeal concerns a

App. 42
district court’s procedural ruling, a COA should issue
when the petitioner demonstrates “that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
In Claim 1, England contended that his statement
to police should not have been admitted because police
continued to question him after he invoked his right to
counsel. During the interrogation, England stated, “I
guess you’ll just have to go on and lock me up then and
call my lawyer, cause I don’t, I don’t know what you’re
talking about. I’ll be honest with you. Like I said, me
and Tyrone are friends. I’ve never seen that woman.”
England, 2005 WL 1185204, at *2. England later said,
“I don’t want to get in no trouble. I mean my lawyer. I
don’t know.” Id.
“In determining whether a suspect has invoked
his right to counsel, we apply an objective standard,
asking whether a reasonable police officer would have
understood the suspect to be asking for an attorney.
The request must be unequivocal.” Perreault v. Smith,
874 F.3d 516, 51920 (6th Cir. 2017) cert. denied, 138
S. Ct. 1299 (2018), (citing Davis v. United States, 512
U.S. 452, 458-59 (1994)).
The Kentucky Supreme Court cited the Supreme
Court’s conclusion in Davis “that the words ‘maybe I
should talk to a lawyer’ are insufficient to invoke the
right to counsel because the statement is equivocal.”

App. 43
England, 2005 WL 1185204, at *2. The Kentucky Supreme Court also cited precedent stating that “the
mere hint that a defendant has an attorney in another
matter does not constitute a request for counsel in the
present issue.” Id. (citing Delap v. Dugger, 890 F.2d 285
(11th Cir. 1989)). It concluded that England’s “statements do not rise to the level of impressing upon the
interrogator that the suspect has requested an attorney before continuing the questioning.” Id.
Jurists of reason could find this analysis to be an
unreasonable application of Supreme Court precedent.
First, England’s statement, “I guess you’ll just have to
go on and lock me up then and call my lawyer, cause I
don’t, I don’t know what you’re talking about,” is firmer
than the statement “maybe I should talk to a lawyer,”
which the Supreme Court deemed an equivocal invocation in Davis. 512 U.S. at 462. Second, the content of
England’s statement was not “the mere hint that [he
had] an attorney in another matter.” England, 2005
WL 1185204, at *2. Third, the Supreme Court’s standard for what it takes to invoke the right to counsel does
not require “impressing upon the interrogator that the
suspect has requested an attorney.” Id. (emphasis
added). To impress means “to produce or imprint an
especially vivid impression of something. MerriamWebster Unabridged Dictionary, http://unabridged.
merriamwebster.com/unabridged/impress (last visited
Feb. 21, 2019). The Supreme Court’s invocation precedent requires only that a reasonable police officer
would have understood the suspect to be asking for an

App. 44
attorney, not that a reasonable police officer receive an
especially vivid impression of that request.
The district court found England’s statement
“extremely similar” to the petitioner’s statement in
Perreault, which the Sixth Circuit found could be reasonably interpreted to be “a negotiation tactic, not an
unequivocal request for counsel.” Case No. 06-91, R. 97
(Mem. Op. at 6) (Page ID #844). Based on this comparison with Perreault, the district court concluded that
the Kentucky Supreme Court had faithfully applied
Supreme Court precedent. Id. Yet in the context of habeas review “ ‘[c]learly established Federal law’ refers
to Supreme Court holdings at the time of the state
court’s decision.” McCarley v. Kelly, 801 F.3d 652, 661
(6th Cir. 2015) (quoting Williams v. Taylor, 529 U.S.
362, 412 (2000)). “We may not employ circuit precedent
‘to refine or sharpen a general principle of Supreme
Court jurisprudence into a specific legal rule that the
Supreme Court has not announced.’ ” Id. (quoting Marshall v. Rodgers, 569 U.S. 58, 64 (2013)). The district
court arguably over-relied on the Sixth Circuit’s
“sharpen[ing]” of general Supreme Court invocation
jurisprudence in Perreault in determining that England’s statement could reasonably be interpreted as a
negotiation tactic, and that such statements are not
unequivocal invocations of the right to counsel. The
court therefore grants England’s motion for a COA on
this claim.
In Claim 4, England asserted that Halvorson’s affidavit in support of an Emergency Protective Order
against McCary should not have been admitted at

App. 45
trial. Halvorson stated in the affidavit that McCary
“threatened to kill me and said if he didn’t do it, he
knew someone that could. He said I was as good as
gone.” Jurists of reason could disagree with the district
court’s analysis of this issue and denial of England’s
claim.
The Confrontation Clause generally prohibits the
admission of a testimonial statement such as this by a
non-testifying witness. See Crawford v. Washington,
541 U.S. 36, 53-54 (2004). When the Confrontation
Clause is violated, as the Kentucky Supreme Court
agreed it was in this case, the Supreme Court has prescribed the Brecht harmless error standard to evaluate
whether relief is warranted, requiring the reviewing
court to ask whether the violation had a “substantial
and injurious effect or influence in determining the
jury’s verdict.” McCarley, 801 F.3d at 665-66 (quoting
Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)); see
also Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986).
In conducting its harmless error analysis of this Confrontation Clause violation, the Kentucky Supreme
Court merely asked whether there was a “reasonable
possibility that absent error the verdict would have
been different.” England, 2005 WL 1185204, at *5
(quoting Crane v. Commonwealth, 726 S.W.2d 302, 307
(Ky. 1987)). Jurists of reason could find that the Kentucky Supreme Court applied an incorrect harmlesserror standard. In analyzing this issue, the Kentucky
Supreme Court observed:
The prosecution had a taped confession with
England admitting participation in this crime.

App. 46
This evidence is corroborated by both the circumstances of the murder and the crime
scene, and is enough to deem the admission of
the affidavit against England’s co-conspirator
harmless. But there is more. The prosecution
also introduced competent evidence of a taped
conversation between England and Karl
Woodfork. In March 2000, Woodfork contacted
the police and informed it that he had information regarding Lisa’s murder. After telling
the police that McCary had sought to hire him
and England to murder Lisa, Woodfork agreed
to record conversations with England. In
those conversations, which were played for
the jury, England said McCary had not paid
money owed to him and considered ways to coerce McCary to pay him the money.
England, 2005 WL 1185204, at *5. Several of these
pieces of evidence highlighted by the Kentucky Supreme Court as supporting England’s guilt are themselves problematic. For example, a significant period of
time passed between the attack on Halvorson and the
discovery of her body, potentially undermining the
strength of any crime scene evidence. Woodfork’s credibility was forcefully impeached at trial, and the recordings he made of his conversations with England
did not include a discussion of the murder itself. England confessed to striking Halvorson and witnessing
McCary injure her further but maintained that she
was alive at the time they left her. Cori Poindexter’s
testimony did provide proof of McCary’s motive or intent somewhat similar to that contained in Halvorson’s
challenged affidavit, which would support a finding of

App. 47
harmless error. However, jurists of reason could find
that, given the weaknesses of some of the other evidence discussed above, the inclusion of Halvorson’s affidavit stating her experiences and fear of McCary in
her own words had a “substantial and injurious effect
or influence in determining the jury’s verdict” and
therefore constituted reversible error. McCarley, 801
F.3d at 665-66 (quoting Brecht, 507 U.S. at 637).
In Claim 6, England argued that the trial court
erred by denying his motion to appoint a criminologist
in violation of his right to a fair trial and due process.
England has failed to make a substantial showing of a
constitutional violation because the Supreme Court
has not recognized a federal constitutional due-process
right to a state-paid expert witness other than for a
psychiatrist’s assistance in support of an insanity defense. See Caldwell v. Mississippi, 472 U.S. 320, 323 n.1
(1985); Ake v. Oklahoma, 470 U.S. 68, 86-87 (1985).
Moreover, the trial court refused to allow the appointment only of a particular criminologist due to the expert’s high fees. England, 2005 WL 1185204 at *6. The
court invited counsel to submit names of other experts,
but counsel instead requested, and received, leave to
purchase a forensic pathology treatise at the Commonwealth’s expense. Id.
In Claim 11, England asserted that he was prejudiced when the Commonwealth misstated part of the
jury instruction for murder during closing argument.
To wit, the jury was instructed by the court to find England guilty if it determined that England had killed
Halvorson by “striking her, running over her with a

App. 48
truck, and causing her death by strangulation.” England, 2005 WL 1185204, at *8 (emphasis added). However, in closing argument, the Commonwealth replaced
the “and” with an “or.” In his COA application, England
further argues that counsel rendered ineffective assistance by failing to object to the Commonwealth’s misstatement.
Jurists of reason would agree that the first part of
the claim is procedurally defaulted because counsel
failed to make a contemporaneous objection to the
Commonwealth’s comment. The Kentucky Supreme
Court applied the contemporaneous-objection rule on
direct appeal to foreclose review of the claim, the rule
was an adequate and independent ground for doing so,
and England did not demonstrate cause for not complying with the rule or prejudice therefrom. See Henderson v. Palmer, 730 F.3d 554, 559 (6th Cir. 2013); West
v. Seabold, 73 F.3d 81, 84 (6th Cir. 1996); England, 2005
WL 1185204, at *8-9. England did not previously argue
that counsel rendered ineffective assistance by failing
to object, and this court will not consider this part of
the claim because no exceptional circumstances exist
that merit its consideration for the first time on appeal.
See United States v. Ellison, 462 F.3d 557, 560 (6th Cir.
2006).
In Claim 15, England argued that the trial court
erred by denying his motion for a new trial despite
his showing that the Commonwealth withheld exculpatory evidence, i.e., evidence that sperm from Halvorson’s boyfriend (Shannon Jenkins) was in her
vagina, Caucasian head hair was in her panties, and

App. 49
Caucasian head hair was in her hands. England and
McCary are African-Americans.
The magistrate judge concluded, and the district
court adopted the conclusion, that “[e]ven if such evidence existed and would have linked other individuals
to Lisa’s murder, the evidence falls short of being exculpatory as it does not change the fact that competent
evidence supported Petitioner’s conviction of complicity to commit murder.” Case No. 06-91, R. 94 (Findings,
Conclusions, and Recommendation at 22) (Page ID
#778). This analysis misses the mark. Evidence may
still be exculpatory without fully exculpating a defendant. The question that matters in habeas review is
whether “there is a reasonable probability that, had
the evidence been disclosed to the defense, the result
of the proceeding would have been different.” LaMar v.
Houk, 798 F.3d 405, 415 (6th Cir. 2015) (quoting Kyles
v. Whitley, 514 U.S. 419, 433 (1995)).
The court finds some aspects of the Supreme Court
of Kentucky’s analysis of the Brady claim puzzling. See
Brady v. Maryland, 373 U.S. 83, 87 (1963). The Kentucky Supreme Court stated that England
contends that he was not informed that the
sperm found in Lisa’s vagina was from her
boyfriend, Shannon Jenkins, that there was a
Caucasian head hair found in Lisa’s panties,
and that there were Caucasian head hairs in
her hands. However, England was aware of
the crucial parts of this information prior to
trial. For instance, he was aware that the hair
in Lisa’s hand was probably from a cat. As to

App. 50
the sperm found, England argued that the
sperm taken from Lisa did not match either
England or McCary. Also, England was aware
that Jenkins stated that he recently had sexual intercourse with Lisa.
England, 2005 WL 1185204, at *10. It seems unresponsive to England’s claim that he was not made aware of
the presence of Caucasian head hairs on Lisa Halvorson’s hands to say that “he was aware that the hair in
Lisa’s hand was probably from a cat.” Id. It is also unresponsive to say that England “argued that the sperm
taken from Lisa did not match either England or
McCary” when his claim is that he “was not informed
that sperm found in Lisa’s vagina was from her boyfriend, Shannon Jenkins.” Id. It is one thing to make
an argument, and something entirely different to be
provided the evidence to support that argument.
Furthermore, these pieces of evidence could have
been used to challenge the government’s account of
Lisa Halvorson’s death or to bolster an alternative theory. England asserted that he left Lisa Halvorson still
alive, and significant time passed between when he
claims to have left her and the discovery of her body.
The presence of foreign Caucasian hairs, particularly
those in the victim’s hands, might have supported an
argument that another person had struck the final
blow against Lisa Halvorson after England left. Halvorson had a Caucasian boyfriend at the time of her
death and also had a Caucasian ex-husband, Pat Halvorson, who was originally investigated as a suspect in
her murder prior to the emergence of Woodfork, the

App. 51
informant who responded to a reward offer by alleging
England and McCary’s involvement. Case No. 06-91,
R. 94 (Findings, Conclusions, and Recommendation at
2 n.2 & 3, 3) (Page ID #758, 759). Pat Halvorson still
had a life insurance policy on Lisa at the time of her
death. Id. at 2 n.3 (Page ID #758). The court finds that
this claim deserves encouragement to proceed further
because jurists of reason could conclude that “there is
a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different.” LaMar, 798 F.3d at 415
(quoting Kyles, 514 U.S. at 433). The court grants England’s motion for a COA on this claim.
In Claim 17, England asserted that trial counsel
rendered ineffective assistance by failing to object to a
fatal variance and constructive amendment to the indictment. England complained about the addition of
the complicity charge and about jury instructions
that expanded the description of Halvorson’s murder.
Whereas the original indictment charged England
with murdering Halvorson by running over her and
strangling her, the jury instructions also referred to
England or McCary striking her. In Claim 18, England
contended that trial counsel rendered ineffective assistance by failing to object to the complicity instruction
on the ground that the Commonwealth did not present evidence that McCary had been convicted of murder.
These claims do not deserve encouragement to
proceed further. To establish a claim of ineffective assistance of trial counsel, “the defendant must show

App. 52
that counsel’s performance was deficient” and “that the
deficient performance prejudiced the defense.” Strickland v. Washington, 466 U.S. 668, 687 (1984). To show
prejudice, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id. at 694.
England has failed to make a substantial showing
that counsel rendered deficient performance by failing
to object to the change in language between the indictment and the jury instructions. A right to “indictment
by grand jury is not part of the due process of law guaranteed to state criminal defendants by the Fourteenth
Amendment.” Branzburg v. Hayes, 408 U.S. 665, 688
n.25 (1972). However, due process does require that a
state defendant “be informed of the nature of the accusations against him.” Lucas v. O’Dea, 179 F.3d 412,
417 (6th Cir. 1999). Here, the minor alteration in the
wording of the jury instructions (the addition of the allegation that the victim was struck by her assailants)
did not expose England to a new charge and deprive
him of an “opportunity to plan a defense.” Id. Thus,
England has not made a substantial showing that
the alteration deprived him of due process and that
counsel rendered deficient performance by failing to
object.
Likewise, England has failed to make a substantial showing that counsel rendered deficient performance by failing to object to the additional charge of
complicity and to the complicity instruction on the
ground that the Commonwealth did not present

App. 53
evidence that McCary had been convicted of murder.
Under Kentucky law, the amendment of the indictment to add an allegation of complicity did not expose
England to a new charge of “an additional or different offense,” and the Kentucky Supreme Court has
held that the addition of an allegation of complicity
is not a due-process problem when a defendant has
known from the beginning that “the Commonwealth
intended to present testimony alleging that [he] was,
at the very least, an accomplice in [the crime].” Commonwealth v. McKenzie, 214 S.W.3d 306, 307-08 (Ky.
2007); see also Halvorsen v. White, No. 15-5147, 2018
WL 3993716, at *3-4 (6th Cir. Aug. 20, 2018). Furthermore, Kentucky law did not require that McCary be
convicted of murder before England could be convicted
of complicity. See Ky. Rev. Stat. § 502.030(1); Tharp v.
Commonwealth, 40 S.W.3d 356, 366 (Ky. 2000); England, 2008 WL 4182027, at *2. Thus, counsel did not
render deficient performance by failing to raise these
objections. See Sutton v. Bell, 645 F.3d 752, 755 (6th
Cir. 2011).
In Claim 21, England asserted that trial counsel
rendered ineffective assistance by failing to object to
Poindexter’s testimony about Halvorson’s statements
during her telephone conversation with McCary. Among
other things, Halvorson told Poindexter that “McCary
had said if he could not have her, nobody would.” England, 2005 WL 1185204, at *6. England argued that he
was denied the right to confront McCary at trial in violation of the Sixth Amendment. Relying on Crawford
v. Washington, 541 U.S. 36, 61 (2004), the district court

App. 54
concluded instead that no violation of the Confrontation Clause occurred because McCary’s statement was
not testimonial. Consequently, counsel did not render
deficient performance by failing to object to Poindexter’s testimony.
Jurists of reason would agree with the district
court’s resolution of the claim. “[A] statement cannot
fall within the Confrontation Clause unless its primary purpose was testimonial,” i.e., the statement was
“not made with the primary purpose of creating evidence” for criminal prosecution. Ohio v. Clark, 135
S. Ct. 2173, 2180 (2015). McCary’s statements to Halvorson clearly were not made with this purpose. Thus,
counsel did not render deficient performance by failing
to raise a frivolous objection. See Sutton, 645 F.3d at
755.
In Claim 22, England argued that trial counsel
rendered ineffective assistance by failing to object to
the systematic exclusion of African-Americans from
the grand jury. The Kentucky Court of Appeals rejected
this claim because England had not presented any
facts to support his claim that African-Americans were
systematically excluded. England, 2008 WL 4182027,
at *7. Thus, England has failed to make a substantial
showing that trial counsel rendered deficient performance by not making an objection on this basis. See
Strickland, 466 U.S. at 687.
In Claim 25, England asserted that trial counsel
rendered ineffective assistance by failing to move for a
change of venue due to pre-trial publicity. England

App. 55
included a list of newspaper articles published before
and during the trial. England, however, has demonstrated neither presumptive prejudice by showing that
“an inflammatory, circus-like atmosphere pervade[d]
both the courthouse and the surrounding community”
nor actual prejudice by showing a failure to “carefully
question[ ] prospective jurors during voir dire concerning their knowledge of the case from news reports and
whether they could judge the case based solely on the
evidence that would be presented in court” or that any
seated juror “indicated an inability to set aside any
prior knowledge about the case or to judge the case
fairly and impartially.” Campbell v. Bradshaw, 674
F.3d 578, 593, 594 (6th Cir. 2012) (quoting Foley v. Parker,
488 F.3d 377, 387 (6th Cir. 2007) in first set of quotation marks). Thus, England has not made a substantial
showing that he suffered any prejudice from trial counsel’s failure to move for a change in venue. See Strickland, 466 U.S. at 687.
Finally, England does not reassert Claims 2, 3, 9,
16, 20, 23, and 26, and has thus abandoned them. See
Jackson v. United States, 45 F. App’x 382, 385 (6th
Cir. 2002). In any event, England has failed to make
a substantial showing of the denial of a constitutional right as to these claims due to the absence of
argument.
Accordingly, the court GRANTS England’s COA
application on claims 1, 4, and 15 as detailed in this
order, and DENIES the COA application on the remaining claims. The court GRANTS England’s motions to

App. 56
proceed in forma pauperis and his motion to appoint
counsel.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 57
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
PADUCAH DIVISION
CIVIL ACTION NO. 5:06-CV-00091-GNS-LLK
STEVIE LYN ENGLAND

PETITIONER

v.
THOMAS L. SIMPSON, Warden RESPONDENT
FINDINGS, CONCLUSIONS,
AND RECOMMENDATION
(Filed Mar. 6, 2017)
This matter is before the Court on Petitioner’s petition for writ of habeas corpus pursuant to 28 U.S.C.
§ 2254 (Claims 1 through 16) and amended petition
raising ten additional claims (Claims 17 through 26).
Dockets 1 and 47.1 The Court referred the matter to
the undersigned Magistrate Judge for report and recommendation (Docket 49), and it is ripe for determination.
Because all of Petitioner’s claims are meritless in
light of this Court’s standard of review, which is deferential to the state court’s prior determination of those

1

Respondent responded in opposition to the petition, and Petitioner replied. Dockets 62 and 81. Following Court-ordered expansion of the state-court record to include audio-video recordings
of his trial, Petitioner supplemented his petition and amended petition, and Respondent responded in opposition. Dockets 83, 91,
and 93.

App. 58
claims, the RECOMMENDATION will be to DENY the
petition and amended petition.
Background facts and procedural history
Petitioner and his co-defendant, Tyrone McCary,
were indicted on charges of capital murder and tried
separately. McCary pled guilty to complicity to murder
the victim, Lisa Halvorson (hereinafter “Lisa”), and
was sentenced, pursuant to the terms of a plea agreement, to life imprisonment without parole for 25 years.
A Graves Circuit Court jury convicted Petitioner
of complicity to commit murder and sentenced him to
life without parole after finding the aggravating circumstance of having committed the crime for profit. On
direct appeal, Petitioner raised the same claims that
correspond to Claims 1 through 16. Docket 1. The Kentucky Supreme Court affirmed. England v. Commonwealth, 2005 WL 1185204 (Ky.).
McCary was Lisa’s ex-boyfriend, and, at the time
of her murder, she was seeing Shannon Jenkins.2
At Petitioner’s trial, the Commonwealth introduced evidence that, shortly before her death, Lisa had
obtained an emergency protective order (EPO) against
McCary. Her affidavit in support of EPO indicated that
McCary threatened to kill her or have someone kill her
for him.

2

Petitioner and McCary are African-American, and Lisa and
Jenkins are Caucasian.

App. 59
The last person to see Lisa alive was her female
friend, Cori Poindexter. Poindexter was present with
Lisa when McCary called her on the phone and overhead Lisa’s side of the conversation. Poindexter testified that Lisa told her that, during the conversation,
McCary told her that, if he could not have her, nobody
would.
The Commonwealth’s theory of the case was that
Petitioner was present and assisted McCary commit
the murder. McCary and/or Petitioner devised a plan
to make it appear that Lisa was accidentally run over
by her own truck while exiting her garage. McCary
and/or Petitioner: drove to Lisa’s house; knocked her to
the ground in or near the garage; beat her severely; accelerated the truck backward out of the garage, causing Lisa’s face to be caught in the right bumper and
spinning her into the wheel well; got on top of her and
broke her windpipe, resulting in death by asphyxia.3
Audio-video of trial, Day 1 (January 8, 2003), 3:13:00.
McCary and Petitioner were implicated in the
crime by Karl Woodfork. Woodfork testified that, prior
to the murder, McCary discussed with him (Woodfork)
and Petitioner various scenarios for murdering Lisa
3

The body may or may not have been moved (after she died)
to a certain portion of Lisa’s driveway, where the body was discovered. Caucasian head hairs were found in Lisa’s hands, one
Caucasian hair in her panties, and sperm in her vagina, which
was determined not to be of African-American origin.
Jenkins admitted to relatively-recent sexual intercourse with
Lisa. Lisa’s Caucasian ex-husband, Pat Halvorson, who still had
a life insurance policy on Lisa, was initially a suspect.

App. 60
and making it appear like an accident. McCary paid
Petitioner and Woodfork a down payment of $1,000
(each), with an understanding was they would receive
an additional $10,000 (each) upon completion of the
murder. Day 4 (January 14, 2003), 11:07:00.
During the murder investigation, Woodfork, who
had been charged in an unrelated matter, heard of a
$10,000 reward for testimony leading to conviction.
Woodfork agreed to be wired for sound, and authorities
obtained secretly-recorded conversations with Petitioner in which Petitioner complained about McCary’s
not having paid him some owed money (the inference
being that it was the $10,000 owed for having assisted
McCary commit the murder).
After obtaining the Woodfork-Petitioner conversations, police investigators brought Petitioner to
the station for questioning and informed him of the
secretly-recorded conversations. Petitioner admitted
that he was present at the murder scene with McCary
but claimed that he only punched the Lisa the jaw once
to “soften her up,” knocking her to the ground. McCary
allegedly committed the other atrocities while Petitioner
was trying to dissuade him. According to Petitioner,
Lisa was still alive when he and McCary departed the
scene.
After the Kentucky Supreme Court affirmed Petitioner’s conviction on direct appeal, he filed a motion
to vacate pursuant to Kentucky Rules of Criminal
Procedure (RCr) 11.42 (hereinafter “11.42 motion”),
raising ten claims of ineffective assistance of trial

App. 61
counsel, which correspond to Claims 17 through 26
(Docket 47). The trial court denied the 11.42 motion,
and Petitioner appealed. The Kentucky Court of Appeals affirmed the trial court’s rejection of all claims
except that it remanded for an evidentiary hearing on
Claim 19. The appellate ordered the trial court to determine whether trial counsel’s decision not to present
mitigating evidence at sentencing (in a capital case)
was supported by reasonable investigation. England v.
Commonwealth, 2008 WL 4182027 (Ky.App.).
On remand, Petitioner agreed to a sentence of life
imprisonment. The Graves Circuit Court Agreed Order
Amendment Judgment states, in pertinent part, that:
The parties have agreed that the judgment
entered on April 15, 2003 should be amended
to reflect a sentence of life. As a result of this
agreement, the evidentiary hearing ordered
by the Court of Appeals is moot.
Court being fully advised, HEREBY ORDERS
that the judgment entered on April 15, 2003 is
AMENDED to reflect that Steven England is
guilty of complicity to murder and is hereby
sentenced to a life sentence. (Docket 47-1, p. 25).
Petitioner filed the present habeas corpus petition
and amended petition, which raise a total of 26 claims.
Dockets 1 and 47. Respondent responded in opposition
and submitted portions of the state-court record (18
CD/DVDs) in support of its position. Dockets 62 and
63.

App. 62
The Court entered an Order requiring Respondent
to expand the state-court record to include Petitioner’s
trial. Docket 83. Respondent submitted 7 audio-video
recordings of Petitioner’s 7-day trial. Docket 88.
The post-expansion briefs of Petitioner and Respondent are at Dockets 91 and 93. Petitioner’s 26
claims, presented in his petition and amended petition,
are ripe for ruling.4

4

This case has experienced some significant procedural delays.
The petition was filed in June 2006. Docket 1. In March 2007,
the Court held the petition in abeyance pending exhaustion of
state-court remedies with respect to Petitioner’s 11.42 motion
raising 10 claims of ineffective assistance of trial counsel. Docket
15. In September 2008, the Kentucky Court of Appeals remanded
for an evidentiary hearing on Claim 19.
From September 2008 until May 2015, a series of defense attorneys advised Petitioner to accept various offers of a new sentence in lieu of evidentiary hearing, which Petitioner rejected.
Docket 91-1, pp. 46-48. Finally, in May 2015, “realizing that [I]
was never going to have [my] evidentiary hearing and just wanting to get [my] case before this [federal habeas] Court, [I] agreed
to a life sentence which was entered on May 26, 2015.” Id. at p.
48.
In June 2015, Petitioner filed his notice of exhaustion of
state-court remedies and amended petition raising 10 claims of
ineffective assistance of trial counsel. Docket 47.
In October 2015, the Court lifted the stay and this matter
proceeded. Docket 48.
During most of 2016, after exhaustion of state-court remedies, additional procedural delays occurred in this Court due to
controversies surrounding Petitioner’s right to so-called “possessisonal access” to the state-court record (CDs and DVDs) in the
privacy of his cell as opposed to the prison law library and his

App. 63
Standard of review of claims
presented in a Section 2254 petition
The standard of review of claims presented in a
Section 2254 petition is generally defined by statute.
First, all claims must allege a violation of the
United States Constitution and not merely an error of
state law. See 28 U.S.C. § 2254(a) (Habeas courts entertain habeas petitions in behalf of persons in state custody “only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the
United States”).
Second, the constitutional violation must be clearlyestablished in light of United States Supreme Court
case-law and not merely interpretations of the Constitution by lower courts (as there may be differences of
opinion from circuit to circuit). Section 2254(d)(1) provides:
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits in State court proceedings unless the adjudication of the claim –
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States;

right to access to additional portions of the state-court record.
Those matters are now resolved.

App. 64
Third, the Court will generally defer to the state
court’s determination of facts. Section 2254(d)(2) provides that the writ shall not be granted unless the
state-court adjudication “resulted in a decision that
was based on an unreasonable determination of the
facts in light facts of the evidence presented in the
State court proceeding.”
Fourth, even if a constitutional violation is established in light of Supreme Court precedent, the error
is deemed harmless (and the writ shall not be granted)
unless it had a “substantial and injurious effect or influence in determining the jury’s verdict.” Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993).
Claim 1
Petitioner’s first claim is that the Fifth Amendment right to counsel required suppression of his
inculpatory police-station statement. The police allegedly erroneously continued to question Petitioner after
he invoked his right to counsel.
After being advised that he had the right to counsel, Detective John Saylor informed Petitioner that he
was being questioned because of his role in the murder.
Detective Saylor told Petitioner that he knew that Petitioner was present during the murder and that he
was paid money to do it. After denying any involvement, Petitioner responded: “I guess you’ll just have
to go on and lock me up then and call my lawyer, ‘cause
I don’t, I don’t know what you’re talking about. I’ll
be honest with you. Like I said, me and Tyrone are

App. 65
friends. I’ve never seen that woman. . . . I don’t want to
get in no trouble. I mean my lawyer. I don’t know.” 2005
WL 1185204, at *2.
Davis v. United States, 512 U.S. 452, 459 (1994)
held that the words “maybe I should talk to a lawyer”
are equivocal and do not invoke the Fifth Amendment
right to counsel. Even when (as here) the suspect refers
specifically to “my lawyer” as opposed to “a lawyer,” the
Eleventh Circuit held that a defendant’s assertion that
he has an attorney in another matter does not constitute a request for counsel in the present issue. Delap v.
Dugger, 890 F.2d 285 (11th Cir.1989).
The Kentucky Supreme Court’s adjudication of Petitioner’s first claim was not contrary to United States
Supreme Court precedent as required for this Court to
grant relief:
In essence, England merely said that I guess
you will have to call my lawyer and I don’t
know if I need my lawyer because I don’t want
to get into trouble. We hold that these statements do not rise to the level of impressing
upon the interrogator that the suspect has
requested an attorney before continuing the
questioning. The statements were properly
admitted at trial. (2005 WL 1185204, at *2).
Claim 2
Petitioner’s second claim is that Due Process was
violated when police interrogators coerced his incriminating statement.

App. 66
The interrogators allegedly falsely promised Petitioner that, if he cooperated, the death penalty would
be taken off the table and he might see his kids and
sick father again. Sergeant Steve Hendley’s presence
as an interrogator (along with Detective Saylor) allegedly rose to the level of a coercive false-friend police
technique because Petitioner and Hendley played ball
together in high school.
To determine whether a confession is the result of
coercion, one must look at the totality of the circumstances to assess whether police obtained evidence by
overbearing the suspect’s will through making credible
threats. Arizona v. Fulminante, 499 U.S. 279, 286-288
(1991). Kentucky considers the same three factors the
Sixth Circuit considers in evaluating the voluntariness
of a confession: 1) Whether the police activity was objectively coercive; 2) Whether the coercion overbore the
will of the defendant; and 3) Whether the defendant
showed that the coercive police activity was the crucial
motivating factor behind his confession. See England
v. Commonwealth, 2005 WL 1185204 citing Henson v.
Commonwealth, 20 S.W.3d 466 (Ky.2000) citing McCall
v. Dutton, 863 F.2d 454 (6th Cir.1988).
The Kentucky Supreme Court determined that, in
light of these three factors, Petitioner’s incriminating
statement was voluntary, and that determination was
not contrary to United States Supreme Court precedent as required for this Court to grant relief:
. . . The comments about the death penalty did
not tell England anything he did not already

App. 67
know. . . . In fact, England said that he knew
Lisa’s murder could be punished by the death
penalty when the police informed him of this
fact.
. . . [T]here was no evidence in the record that
[England and Hendley] had continued a friendly
relationship after high school. This is not the
type of relationship one would consider as inherently coercive. It is, rather, more akin to a
[permissible] good cop, bad cop routine. (2005
WL 1185204, at *3).
Claim 3
Petitioner’s third claim is that Due Process was violated when the Commonwealth sought the death penalty notwithstanding what he understood as an offer
from the Commonwealth, communicated through Sergeant Hendley, that, if he confessed to a minor (complicity) role in the murder and implicated McCary in
the major (principal) role, the death penalty would be
taken off the table.5

5

The following exchanges occurred during the interrogation:
Hendley: I’m telling you this as a friend, alright? Forget the badge. You need to tell them what happened.
You need to tell them about the deal with Ty, because,
now, this is punishable by death. . . . You can lawyer
up or whatever. But if you don’t cooperate and tell them
your side, because I keep saying when he picks up Ty,
Ty’s gonna say that you done every bit of it. I’m telling
you, Stevie, Ty’s gonna blame every bit of it on you. . . .
I’m telling you as a friend. I played ball with you. They
got you. You looking at the death penalty. I realize that

App. 68
The Kentucky Supreme Court held that the police
interrogator statements did not bind the Commonwealth and prohibit it from seeking the death penalty
because there never was a true plea offer and police
need not be absolutely honest when interrogating suspects:
England asserts that the death penalty
should have been taken out of the realm of potential penalties because he relied on an offer
by the Commonwealth when he confessed to
you got some other charges. Those are Mickey Mouse,
Stevie.
(p. 39 of 165).
...
Saylor: We have talked to the prosecutor, Stevie. You
can ask Bubba [Hendley]. We’ve talked to him. There’s,
there’s one deal. There’s one deal. Okay?
England: What is it?
...
Saylor: If you cooperate, one of these days you might
get to see your kids again.
...
Hendley: If you take this on your own, you know what
will happen? The County Attorney is going to seek the
death penalty on you, buddy.
(p. 40).
...
Saylor: As bad as it, as bad as what you did, Stevie.
As bad as what you did, Tyrone paying you to do it is
worse. Okay? He’s the one we want. You’re the one
we’re dealing with. You tell us the truth, you got the
deal. Okay?
Hendley: He’s not going to get a deal.
(p. 45).
Transcript of police-station interrogation, 1 of the 18 DVDs labeled “01-C8-68; Documents,” 1 of 10 pdf files containing 7,368
KB of data, pp. 39, 40, and 45 of 165.

App. 69
the crime. However, there never was an offer
to England. It is true that the interrogators
noted that the death penalty was an option,
and it is also true that the interrogators said
they had talked to the prosecutor and there
was only one deal. But England puts words
into the interrogators’ mouths when he states
that the deal was that the death penalty
would not be pursued. The prosecution is not
required to be absolutely honest with the suspect, and since there was no true offer upon
which England could rely, we affirm the trial
court’s ruling that the prosecution was
properly allowed to seek the death penalty in
England’s trial. (2005 WL 1185204, at *4).
The Court is unaware of any Supreme Court authority for the proposition that police, during interrogation of a suspect, has the authority to bind the
prosecution to specific charges or penalties. The Kentucky Supreme Court’s finding that there was no offer
was not an “unreasonable determination of the facts”
and did not result in a decision that was contrary to
“clearly established Federal law, as determined by the
Supreme Court of the United States” as required by 28
U.S.C. 2254(d)(1) and (2) to be entitled to habeas relief.
Therefore, in light of this standard of review, Petitioner’s claim is without merit. Alternatively, even if
Due Process did require that the death penalty be
taken off the table, the error was harmless because
Petitioner did not receive the death penalty. He is presently serving a life sentence. See Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (An error is harmless

App. 70
unless it had a “substantial and injurious effect or influence in determining the jury’s verdict”).
Claim 4: The Merits
Petitioner’s fourth claim is that his Sixth Amendment right “to be confronted with the witnesses
against him” (hereinafter “the Confrontation Clause”)
was violated when the Commonwealth admitted into
evidence the content of Lisa’s affidavit in support of
EPO. The affidavit informed the jury that McCary
threatened to kill Lisa or have someone kill her for
him.
The Kentucky Supreme Court acknowledged that
“[Petitioner] is correct insofar as he contends that this
evidence [from the affidavit] is inadmissible because it
does not meet any exceptions to the hearsay rule, is inherently unreliable, and violates his Sixth Amendment
right ‘to be confronted with the witnesses against him,”
but concluded that the error was harmless. 2005 WL
1185204, at *4-5.6
Crawford v. Washington, 541 U.S. 36 (2004) overruled Ohio v. Roberts, 448 U.S. 56 (1980) and thereby
initiated significant changes in Confrontation Clause

6

In finding a Sixth Amendment violation, the Kentucky Supreme Court cited (n.11) Crawford v. Washington, 541 U.S. 36
(2004).

App. 71
jurisprudence. McCarley v. Kelly, 801 F.3d 652, 662
(6th Cir. 2015).7
Respondent’s position is that, while admission of
the affidavit violated state evidence law (and perhaps
pre-Crawford Confrontation Clause jurisprudence8), it
did not violate Petitioner’s rights under the Confrontation Clause (as understood by Crawford).
The Court finds that Respondent’s position is unpersuasive and that the Kentucky Supreme Court correctly acknowledged that admission of the content of
the affidavit violated Petitioner’s rights under the Confrontation Clause as understood by Crawford.
Crawford held that the Confrontation Clause does
not allow the admission of testimonial statements of a
witness who did not appear at trial “unless he was unavailable to testify and the defendant had had a prior
opportunity for cross-examination.” U.S. pp. 53-54. The
“core class of testimonial statements” include “ex parte
7

Ohio v. Roberts held that hearsay can be admitted into evidence without violating the Confrontation Clause when the
statement: (1) falls within a firmly-rooted exception to the hearsay rule, or (2) contains particularized guarantees of trustworthiness such that adversarial testing would be expected to add little,
if anything, to the statement’s reliability.
Crawford v. Washington held that out-of-court statements
that are testimonial in nature are barred by the Confrontation
Clause unless the witness is unavailable and the defendant had
a prior opportunity to cross-examine the witness, regardless of
whether a reviewing court deems such statements reliable.
8
All of the case-law cited by the Kentucky Supreme Court in
support of a finding of erroneous admission of the affidavit predate Crawford.

App. 72
in-court testimony or its functional equivalent – that
is, material such as affidavits . . . which would lead an
objective witness reasonably to believe that the statement would be available for use at a later trial.” U.S.
pp. 51-52.
Davis v. Washington, 547 U.S. 813, 822 (2006) clarified what constitutes a “testimonial” statement:
Statements are nontestimonial when made in
the course of police interrogation under circumstances objectively indicating that the
primary purpose of the interrogation is to enable police assistance to meet an ongoing
emergency. They are testimonial when the circumstances objectively indicate that there is
no such ongoing emergency, and that the primary purpose of the interrogation is to establish or prove past events potentially relevant
to later criminal prosecution.
In concluding that the Kentucky Supreme Court
correctly recognized that admission of Lisa’s affidavit
violated the Confrontation Clause, the Court agrees
with the reasoning of a 2011 decision of the Virginia
Supreme Court. Crawford v. Commonwealth, 281 Va.
84 (Va.2011).
The murder victim in Crawford v. Commonwealth
executed an affidavit in support of a protective order
against her husband. Among other things, the affidavit
stated that the defendant “called me and told me that
I must want to die . . . I want him to stay away from
me.” The defendant filed a pre-trial motion to suppress

App. 73
the affidavit as inadmissible under Crawford v. Washington.
The Virginia Supreme Court held that the affiant
(i.e., the murder victim) would have “reason[ ] to believe that the statement would be available for use at
a later trial,” Crawford at U.S. pp. 51-52, and that the
affiant’s statements were given “to establish or prove
past events potentially relevant to later criminal prosecution,” Davis at U.S. p. 822. Therefore, the affidavit
was testimonial in nature and should not have been
admitted against the defendant at trial. Because the
victim was unavailable to testify at trial and the defendant did not have a prior opportunity to crossexamine her concerning her affidavit statements, the
Confrontation Clause was violated when the statements were admitted against the defendant.
The same logic and conclusion applies in this case.
The Kentucky Supreme Court correctly determined
that admission of Lisa’s affidavit in support of EPO violated Petitioner’s Confrontation Clause rights.9

9

The Kentucky Supreme Court also correctly determined
that, in light of the facts of this case, the fact that the “defendant
on trial [Petitioner] is [not] the person against whom the restraining order was sought [McCary]” is a “distinction without a difference.” The affidavit mentioned McCary’s threat to have someone
else (for example, Petitioner) do the killing. This, from a juror’s
perspective, may have made it simultaneously less likely that
McCary was innocently present at the murder scene with McCary
(i.e., the affidavit shows Petitioner’s intent to assist in the murder) and more likely that his presence was financially motivated.

App. 74
Claim 4: Harmless Error
Confrontation Clause violations are subject to
harmless-error analysis. McCarley v. Kelly, 801 F.3d
652, 665 (6th Cir.2015) citing Delaware v. Van Arsdall,
475 U.S. 673, 684 (1986). Therefore, Petitioner is entitled to habeas relief only if the erroneous admission of
the affidavit was harmful.
A habeas court assesses the harmfulness of constitutional error in a state-court criminal trial under
the standard set forth in Brecht v. Abrahamson, 507
U.S. 619, 637 (1993), i.e., whether the error had a “substantial and injurious effect or influence in determining the jury’s verdict.” The question is not whether the
error was harmless beyond a reasonable doubt, which
is too Petitioner favorable; nor is the question “merely
whether there was enough to support the result, apart
from the phase affected by the error,” which is too Respondent favorable. Id. quoting O’Neal v. McAninch,
513 U.S. 432 (1995). Rather, the Court is supposed “to
ask [itself ] directly, ‘Do I, the judge, think that the
error substantially influenced the jury’s decision?” Id.
quoting O’Neal. If so, or if [the Court] is left in grave
doubt, the conviction cannot stand.” Id.
Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986)
identifies factors to consider in determining whether
an error was harmful:
(1) the importance of the witness’ testimony
in the prosecution’s case;
(2)

whether the testimony was cumulative;

App. 75
(3) the presence or absence of evidence corroborating or contradicting the testimony of
the witness on material points;
(4) the extent of cross-examination otherwise permitted; and
(5) the overall strength of the prosecution’s
case.
In this case, the Kentucky Supreme Court found
that the erroneous admission of the affidavit was harmless in light of Petitioner’s police-station confession10
and the secretly-recorded WoodforkPetitioner conversations11:

10

Petitioner did not confess to murdering Lisa. He admitted
to striking Lisa and knocking her to the ground. According to Petitioner, McCary actually committed the murder. The admission,
however, constituted a sufficient bad act to be guilty of the crime
of conviction, which was complicity to murder. See Kentucky Revised Statutes (KRS) 502.020(1)(b) (“A person is guilty of an offense committed by another person when, with the intention of
promoting or facilitating the commission of the offense, he . . .
[a]ids, counsels, or attempts to aid such person in planning or
committing the offense”).
11
Due to poor sound quality of this Court’s copy of the audiovideo of the trial (in which the Woodfork-Petitioner conversations
were played to the jury), the Court is unable to verify whether the
conversations themselves evidence that Petitioner told Woodfork
that McCary had not paid money owed to him and considered
ways to get McCary to pay. See playing of Woodfork-Petitioner
conversations to jury, Day 4 (January 14, 2003), 11:52:00. However, Woodfork, who participated in the conversations, testified
that this is what Petitioner told him. See Woodfork testimony,
Day 4, 11:36:00. Additionally, the Commonwealth argued, during
closing argument, that this is what the conversations revealed.

App. 76
Simply put, had this [EPO affidavit] evidence
been excluded from the jury’s consideration
no different result could have logically been
reached. The prosecution had a taped confession with England admitting participation in
this crime. This evidence is corroborated by
both the circumstances of the murder and
the crime scene, and is enough to deem the admission of the affidavit against England’s coconspirator harmless. But there is more. The
prosecution also introduced competent evidence of a taped conversation between England and Karl Woodfork. In March 2000,
Woodfork contacted the police and informed it
that he had information regarding Lisa’s murder. After telling the police that McCary had
sought to hire him and England to murder
Lisa, Woodfork agreed to record conversations
with England. In those conversations, which
were played for the jury, England said McCary
had not paid money owed to him and considered ways to coerce McCary to pay him the
money. (2005 WL 1185204, at *5).
The Kentucky Supreme Court correctly determined that the erroneously-admitted affidavit was harmless in light of other properly-admitted evidence.12

Commonwealth’s closing argument, Day 6 (January 16, 2003),
11:17:00.
12
The state court’s determination is buttressed by a consideration of the first and second Van Arsdall factors:
(1) The importance of the witness’ testimony in the
prosecution’s case: The affidavit testimony was important to the Commonwealth’s case against Petitioner

App. 77
Claim 5
Petitioner’s fifth claim is that the trial court erroneously granted the Commonwealth’s motion to sever
the trials of Petitioner and McCary.
Under certain circumstances, granting a motion to
sever the trials of co-defendants is required by the
Confrontation Clause. See Bruton v. United States, 391
U.S. 123, 137 (1968) (The Confrontation Clause is violated when a non-testifying codefendant’s confession is
introduced into evidence at the defendants’ joint trial).
Petitioner’s motivation for a joint trial is clear
enough: If tried together and McCary exercised his
right not to testify, the Commonwealth would not have
been able to use portions of Petitioner’s confession that

primarily as background information showing that
McCary threatened to murder Lisa. However, in mentioning McCary’s threat to have someone else (for example, Petitioner) do the killing for him, the affidavit
may have (in the jury’s mind) made it less likely that
McCary was innocently present at the murder scene
(i.e., the affidavit suggests Petitioner’s intent to assist
the murder) and more likely that his presence was financially motivated.
(2) Whether the testimony was cumulative: To the extent the affidavit testimony suggested that the “someone else” McCary threatened to get to murder Lisa was
Petitioner, the testimony was cumulative in light of Petitioner’s police-station confession to striking Lisa to
the ground, Woodfork’s testimony that McCary paid
Petitioner $1,000 as down-payment for committing the
murder, and Woodfork’s testimony about Petitioner
complaining about McCary owing him money.

App. 78
referred to McCary and, therefore, plausibly Petitioner
would have been convicted only of assault.
The Court is unaware of any Supreme Court authority for the proposition that, under certain circumstances, granting a motion to sever rises to the level of
a constitutional error.
The Kentucky Supreme Court’s adjudication of Petitioner’s fifth claim was not contrary to Supreme
Court precedent as required for this Court to grant relief:
[Petitioner’s argument] only proves the Commonwealth’s argument that it would have
been prejudiced had its motion to sever the
trials not been granted. In fact, this is a picture-perfect case for the efficacy of severing
trials. Here there are two defendants who conspired to murder. Without severance, one’s
confession could not have been fully used
against him to avoid violating the constitutional rights of the other. (2005 WL 1185204,
at *5).
Claim 6
Petitioner’s sixth claim is that, in light of his indigent status, Due Process required the Commonwealth
to hire a criminologist on his behalf, who allegedly
would have testified that Lisa’s body was moved after
death.
In cases where a defendant’s sanity at the time of
the offense is a significant factor at trial, states must

App. 79
provide an indigent defendant with access to a competent psychiatrist to conduct an appropriate examination and to assist in the preparation and presentation
of a defense. Ake v. Oklahoma, 470 U.S. 68 (1985). The
Supreme Court has not, however, extended the right to
other expert witnesses. See Babick v. Berghuis, 620 F.3d
571, 579 (6th Cir.2010) (“[Babick] assumes that the
right recognized in Ake . . . extends to non-psychiatric
experts as well. But the Supreme Court has treated
that question as open”). Even the cases that extend
Ake beyond the mental health arena do not question
that a defendant’s right to expert funding is contingent
on the expert’s testimony being a major focus at the
trial. Bowling v. Haeberlin, 2013 WL 1182515 (E.D.Ky.).
Petitioner admitted to assaulting Lisa, and he and
McCary allegedly left while she was still alive.
Whether or not the body was moved after death does
not change the fact of Petitioner’s involvement. He has
not shown that the body’s having been moved (assuming it was) would have been a major focus at trial.
The Kentucky Supreme Court’s adjudication of Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief:
England next claims that his conviction
should be reversed because he was denied sufficient public funds to employ a criminologist.
The criminologist was purportedly going to
testify that the body was moved after death,
that Caucasian hairs were found in Lisa’s
hands and panties, and that the sperm found
in Lisa’s vagina did not come from either

App. 80
England or McCary. However, this evidence,
except for movement of the body, was presented at trial from other witnesses.13 The
only facts that the criminologist was to testify
to that could merit reversal is that the body
was moved after death. However, upon England’s motion for the Commonwealth to pay
for a criminologist, the trial judge disallowed
the employment of the criminologist because
the cost was an unreasonable $3,500 per day.
The judge stated that England could submit
other names, but England failed to do this. Instead, England requested that the state pay
for the purchase of a forensic pathology treatise, which was granted by the trial court.
There was no reversible error. (2005 WL
1185204, at *6).
Claim 7
Cori Poindexter was the last person to see Lisa
alive. Poindexter overhead Lisa’s side of a phone conversation with McCary. Poindexter testified that Lisa
told her that, during the conversation, McCary accused
her of having an affair and told her that, if he could not
have her, nobody would. Poindexter also testified that
Lisa cried and refused to eat. Petitioner’s seventh
claim is that this testimony violated the Confrontation
Clause.
13

Petitioner was aware that Jenkins had admitted to recent sexual intercourse with Lisa and that the hairs were not of
African-American origin, hence, they were not from Petitioner or
McCary.

App. 81
Crawford v. Washington, 541 U.S. 36 (2004) held
that out-of-court statements that are testimonial in
nature are barred by the Confrontation Clause unless
the witness is unavailable and the defendant had a
prior opportunity to cross-examine the witness. Lisa’s
statement was nontestimonial because Poindexter was
privy to it only as a friend and confidant who was present during a phone conversation. See Crawford at 51
(An accuser who makes a formal statement to government officers bears testimony in a sense that a person
who makes a casual remark to an acquaintance does
not; the same applies to “off-hand, overheard remark[s])”; see also United States v. Franklin, 415 F.3d
537, 545 (6th Cir.2005) (Statements to a friend or confidant are generally not testimonial because the witness “was privy to [declarant’s] statements only as his
friend and confidant”).
“Where [as here] nontestimonial hearsay is at issue, it is wholly consistent with the Framers’ design to
afford the States flexibility in their development of
hearsay law . . . as would an approach that exempted
such statements from Confrontation Clause scrutiny
altogether.” Crawford at 68.
The Kentucky Supreme Court’s adjudication of Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief:
[Lisa’s statement regarding the affair] is not
hearsay. The matter asserted was that Lisa
was having an affair, and it was not offered by
the Commonwealth to prove the truth of it.
It was ostensibly used, rather, to show the

App. 82
general belligerency McCary had toward Lisa
at a time near to her murder. . . . [The crying
and refusing to eat are not hearsay because]
there must be a statement. [The “if you can’t
have me, nobody will” statement] is hearsay.
The declarant was Lisa, and the matter asserted is that McCary said that nobody would
have her if he couldn’t. However, this statement is admissible under the spontaneous
statement exceptions to the hearsay rule, present sense impressions and excited utterances. (2005 WL 1185204, at *6).
Claim 8
Petitioner’s eighth claim is that his Sixth Amendment right to a jury composed of a fair cross-section of
the community was violated due to an insufficient
number of African-Americans on the jury panel.
The Sixth Amendment protects against the systematic exclusion of identifiable groups from the jury
selection process, but it does not guarantee a “jury of
any particular composition.” United States v. Miller,
562 Fed.Appx. 272 (6th Cir.2014) quoting Taylor v. Louisiana, 419 U.S. 522, 538 (1975).
The Kentucky Supreme Court’s adjudication of Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief:
England does not . . . assert any wrongdoing
on the part of the judicial system. His only assertion is that the courts are required to ensure that African-Americans are represented

App. 83
in the jury panel, regardless of the results of
the selection process, which is random. Here,
the jury panel was randomly selected by computer from registered voters who also had a
driver’s license. This process resulted in two
African-Americans being randomly selected
to be on the jury panel. One of two was dismissed for cause because of a familial relationship with the defendant. The other was
not dismissed for cause or peremptorily challenged, but was not seated on the jury because
of the draw. Because there is not even a scintilla of evidence that African-Americans were
systematically excluded from the jury panel,
England is not entitled to reversal of his conviction. (2005 WL 1185204, at *7).
Claim 9
Petitioner’s ninth claim is that his Sixth Amendment fair cross-section right was violated when all jurors who were opposed to the death penalty were
excluded from the jury panel.
The Sixth Amendment allows for-cause exclusion
of prospective jurors due to substantial impairment of
ability to impose the death penalty. White v. Wheeler,
136 S.Ct. 456 (2015).
The Kentucky Supreme Court’s adjudication of Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief:
It is well-settled law in this Commonwealth
that a juror may be stricken for cause if she is

App. 84
unable to consider the death penalty when
considering the sentence upon conviction of
the defendant. We hold that England’s constitutional rights were not violated by excusing
jurors who could not consider the death penalty as a sentence upon his conviction. (2005
WL 1185204, at *7).
Claim 10
Petitioner’s tenth claim is that the trial court
erred when it allowed the Commonwealth to utilize
certain transcripts during its case-in-chief and in closing argument. The transcripts consisted of enlarged,
typewritten interpretations or excepts of relativelyinaudible and allegedly-incriminating portions of the
secretly-recorded Woodfork-Petitioner conversations.
The trial court admitted the audio recordings
themselves into evidence, and Petitioner does not challenge the correctness of that ruling. The trial court,
however, disallowed admission of the excerpt transcripts. The court ruled that the transcripts would be
used only as a jury aid during the playing of the recordings and only for argument purposes during closing argument. See Day 4 (January 14, 2003), 1:21:00
(sustaining Petitioner’s objection to admission of transcripts) and Day 7 (January 16, 2003), 11:03:00 (rulings prior to closing arguments).
Petitioner’s claim lacks a constitutional basis and
concerns only the state court’s interpretation of its own
procedural rules concerning use of transcripts as a jury

App. 85
aid. This is not a case in which the trial court admitted
or excluded any particular evidence (the recording
were played in their entirety), thereby arguably denying Petitioner a meaningful opportunity to present a
complete defense in violation of Due Process. Petitioner was allowed to and did disagree with the Commonwealth’s transcripts/interpretations during his
closing argument. Nothing in the Kentucky Supreme
Court’s determination of the claim or the case-law citations14 reference any constitutional provision or decision. 2005 WL 1185204, at *8.
The Kentucky Supreme Court determined that
the trial court did not abuse its discretion in allowing
the transcripts as a jury aid. 2005 WL 1185204, at *8.
This was not contrary to Supreme Court precedent as
required for this Court to grant relief.
Claim 11
Petitioner’s eleventh claim is that Due Process
was violated when the Commonwealth misstated the
law in its closing argument. While the jury was
properly instructed that it could return a verdict of
guilty if it believed that England killed Lisa by “striking her, running over her with a truck, and causing her
death by strangulation,” during its closing, the Commonwealth stated that the jury could return a verdict

14

Sanborn v. Commonwealth, 754 S.W.2d 534 (Ky.1988) and
Norton v. Commonwealth, 890 S.W.2d 632 (Ky.App.1995).

App. 86
of guilty if it found that England engaged in one of
those actions.
A prosecutor’s improper comments violate a criminal defendant’s constitutional rights only if they “so
infected the trial with unfairness as to make the resulting conviction a denial of due process.” Kelly v.
McKee, 847 F.3d 316 (6th Cir.2017) quoting Darden v.
Wainwright, 477 U.S. 168, 181 (1986).
The Kentucky Supreme Court found that Petitioner’s claim was procedurally defaulted due to trial
counsel’s failure to raise a contemporaneous objection.
2005 WL 1185204, at *8. This finding of a procedural
default under state law bars this Court from considering the constitutional merits. See Coleman v. Thompson, 501 U.S. 722, 729 (1991) (“This Court will not
review a question of federal law decided by a state
court if the decision of that court rests on a state law
ground that is independent of the federal question and
adequate to support the judgment”).15
Alternatively, this Court finds that, even if it were
not procedurally defaulted, Petitioner’s claim is not of
15

Constitutionally-ineffective counsel may constitute cause
excusing a procedural default. Edwards v. Carpenter, 529 U.S.
446, 453 (2000). In order to constitute cause, however, the ineffectiveness claim generally must “be presented to the state courts as
an independent claim before it may be used to establish cause for
a procedural default.” Id. at 452. In his 11.42 motion, Petitioner
raised ten claims of ineffective assistance of trial counsel. England
v. Commonwealth, 2008 WL 4182027 (Ky.App.). This particular
ineffectiveness claim is not among them. Therefore, Petitioner’s
claim is procedurally barred.

App. 87
constitutional dimension. There was no Due Process
violation because, in light of its argument as a whole,
the Commonwealth’s statement was not unfairly prejudicial or misleading. The Commonwealth insisted
that it did not care whether the jury found Petitioner
guilty of murder or complicity to murder. Day 7 (January 16, 2003), 12:10:00. One need not commit every act
that resulted in the victim’s death (or even any act) to
be guilty of complicity. See KRS 502.020(1)(b) (“A person is guilty of an offense committed by another person
when, with the intention of promoting or facilitating
the commission of the offense, he . . . [a]ids, counsels,
or attempts to aid such person in planning or committing the offense”). The Commonwealth argued that Petitioner admitted that his role in assaulting Lisa was
to “soften her up,” which was enough to convict him of
complicity to murder.
Claim 12
Petitioner’s twelfth claim is that the Kentucky
Supreme Court erred in declining to overturn his conviction due to lack of written notice by the Commonwealth of the particular aggravating circumstances
that warranted the death penalty, i.e., committing the
offense for another for the purpose of receiving money
as contemplated by KRS 532.025(a)(4).16

16

The rationale for reversal of conviction as opposed to a new
sentence appears to be that the proof regarding profit was presented during the guilt-innocence phase of trial.

App. 88
The Kentucky Supreme Court held that Petitioner
was mistaken in assuming that the Commonwealth
had to provide him written notice of the aggravating
circumstances. KRS 532.025 does not mention any “notice” (as such) but states simply that, at the presentence hearing, “only such evidence in aggravation as
the state has made known to the defendant prior to his
trial shall be admissible.” KRS 532.025(1)(a). According to the Supreme Court, “[Petitioner] was certainly
made known of the aggravating evidence, which was
that England participated in the murder of Lisa for
profit.” 2005 WL 1185204, at *9.
The Court may not grant relief on Petitioner’s
claim because: 1) The claim is not of constitutional dimension as it involves only interpretation of a state
statutory sentencing scheme. 2) The Kentucky Supreme Court’s finding that Petitioner was aware of
the aggravating evidence before trial was not an unreasonable determination of the facts. 3) The Kentucky
Supreme Court’s adjudication of the claim was not

Notice of aggravating circumstances remains relevant notwithstanding the fact that Petitioner did not receive the death
penalty because it is part of a larger sentencing scheme when the
death penalty is sought. During the penalty phase, the jury was
instructed that, if and only if it found, beyond a reasonable doubt,
that Petitioner committed complicity to murder for profit, could it
fix the sentence at: death, life without parole, or life without parole for 25 years. The jury found the aggravator to be present and
sentenced Petitioner to life without parole. See Instruction No. 3,
1 of the 18 DVDs labeled “01-C8-68; Documents,” 1 of 10 pdf files
containing 11,372 KB of data, p. 133 of 168.

App. 89
contrary to any Supreme Court precedent of which the
Court is aware.
Claim 13
Petitioner’s thirteenth claim is that the Kentucky
Supreme Court erred in declining to overturn his conviction because the aggravating circumstances were
not included in the indictment.
The Kentucky Supreme Court held that the claim
is procedurally defaulted because it was “not preserved
for review by a pre-trial motion as required by Kentucky Rules of Criminal Procedure (RCr) 8.18” and is
without merit for the same reasons Petitioner’s twelfth
claim is without merit, i.e., “England was made known
of the specific evidence upon which it intended to seek
capital punishment.” 2005 WL 1185204, at *9.
Petitioner’s twelfth claim is procedurally defaulted as the state procedural rule invoked by the
state court constitutes an independent and adequate
reason for this Court’s declining to reach the merits.
See Coleman v. Thompson, 501 U.S. 722, 729 (1991)
(“This Court will not review a question of federal law
decided by a state court if the decision of that court
rests on a state law ground that is independent of the
federal question and adequate to support the judgment”). Alternatively, this Court finds that the claim is
not of constitutional dimension and that the Kentucky
Supreme Court’s adjudication of the claim was not contrary to Supreme Court precedent.

App. 90
Claim 14
Petitioner’s fourteenth claim is that his Fourth
Amendment rights were violated when the trial court
refused to suppress the secretly-recorded WoodforkPetitioner conversations in the absence of a search
warrant.
The Kentucky Supreme Court found that there
was no Fourth Amendment violation because the informant (Woodfork) was legally in the place where the
taped conversations took place and every conversation
used by the prosecution was either directly with the
informant or carried on with the defendant’s knowledge of his presence. 2005 WL 1185204, at *10 citing
Hoffa v. United States, 385 U.S. 293 (1966).
The Kentucky Supreme Court’s adjudication of Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief.
Claim 15
Petitioner’s fifteenth claim is that Due Process
was violated when the Commonwealth failed to disclose exculpatory physical evidence. Petitioner and
McCary are African-American, and Lisa’s boyfriend,
Shannon Jenkins, who admitted to recent sexual intercourse with Lisa, is Caucasian. Petitioner claims that
the Commonwealth wrongly withheld evidence that
the sperm found in Lisa’s vagina was consist with being from Jenkins, that the head hairs found in her

App. 91
hands were Caucasian, and the head hair found in her
panties was Caucasian.
Due Process requires that the prosecution disclose
exculpatory and impeachment evidence that is “material either to guilt or to punishment.” Strickler v.
Greene, 527 U.S. 263, 280 (1999) quoting Brady v.
Maryland, 373 U.S. 83, 87 (1963). A Brady violation includes three elements: (1) The evidence “must be favorable to the accused, either because it is exculpatory, or
because it is impeaching”; (2) The “evidence must have
been suppressed by the State, either willfully or inadvertently”; and (3) “[P]rejudice must have ensued.” Id.
at 281-82. Prejudice ensued “if there is a reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different,” i.e., due to the failure to disclose, the “verdict
[was not] worthy of confidence.” Id. at 289-90.
This Court finds that Petitioner has not shown
that any physical evidence favorable to the accused existed, was exculpatory, and was suppressed as required
to support a Brady claim. See Strickler, supra. Even if
such evidence existed and would have linked other individuals to Lisa’s murder, the evidence falls short of
being exculpatory as it does not change the fact that
competent evidence supported Petitioner’s conviction
of complicity to commit murder.
Additionally, the Kentucky Supreme Court’s finding of lack of prejudice resulting from any suppression
of evidence was not contrary to Supreme Court precedent as required for this Court to grant relief:

App. 92
. . . England was aware of the crucial parts of
this information prior to trial. For instance, he
was aware that the hair in Lisa’s hand was
probably from a cat. As to the sperm found,
England argued that the sperm taken from
Lisa did not match either England or McCary.
Also, England was aware that Jenkins stated
that he recently had sexual intercourse with
Lisa. In fact, the additional test taken with
Jenkins’ sample was done so the prosecutor
could rebut a claim that the sperm could have
come from Lisa’s killer.
Therefore, all the evidence England claims
could have given the jury a reasonable doubt
was available to England: that the hairs and
sperm did not match England or McCary. . . .
Had the evidence been as England wishes, the
result would not have changed. He was
properly convicted on the competent evidence,
and we see no reason to overturn that conviction. (2005 WL 1185204, at *10).
Claim 16
Petitioner’s sixteenth claim is that Due Process
was violated “when the trial court refused to order
DNA testing on the Brady evidence found on Lisa’s
body, which were not of African-American origin.” Petition, Docket 1, p. 10. The DNA testing to which Petitioner refers is testing on the hairs found in Lisa’s
hands and in her panties. While authorities determined that the hairs were Caucasian, they apparently
did not do DNA testing to determine whether the hair

App. 93
matched that of two Caucasian suspects, Jenkins and
Lisa’s ex-husband, Pat Halvorson. According to Petitioner, if such testing did occur, the results were not
disclosed to him. Petitioner’s reply brief, Docket 81,
p. 12.
Whether or not Jenkins and/or Pat Halvorson
were also involved in Lisa’s murder, this does not
change the fact that competent evidence supported Petitioner’s conviction of complicity to commit murder.
Petitioner has not shown that DNA hair testing and
disclosure of the results to Petitioner would have likely
resulted in a different verdict. Additionally, Petitioner
has not shown that any evidence favorable to the accused existed, was exculpatory, and was suppressed as
required to support a Brady claim. See Strickler v.
Greene, 527 U.S. 263, 281-82 (1999) (A Brady violation
requires a showing that the evidence was favorable to
the accused, suppressed by the prosecution, and prejudicial).
Claim 17
Petitioner’s seventeenth claim is that his trial
counsel was constitutionally ineffective for failing to
object to the jury instruction on complicity to commit
murder on the ground that there was a fatal variance
between the instruction and the indictment, or an impermissible constructive amendment to the indictment.
Petitioner was indicted for capital murder. The
trial court granted the Commonwealth’s pretrial motion

App. 94
to amend the indictment to include a charge of complicity to commit murder. Petitioner’s claim that counsel was ineffective for objecting to the jury instructions
on fatal variance grounds lacks a factual basis because
there was no variance – fatal or otherwise – at the time
the instructions were given.
The Kentucky Court of Appeals held that “[b]ecause the Commonwealth sought and received permission from the trial court to amend the indictment to
include complicity to commit murder, this instruction
did not ‘fatally vary’ from the indictment nor did it operate as a ‘constructive amendment.’ Consequently, all
[ineffectiveness] claims brought under this theory lack
merit.” 2008 WL 4182027, at *3. This adjudication of
Petitioner’s claim was not contrary to Supreme Court
precedent as required for this Court to grant relief.
Additionally, Petitioner is not entitled to relief on
this claim because it is procedurally defaulted and
without merit. It is procedurally defaulted because, to
the extent the underlying substance is that the trial
court erred in granting the Commonwealth’s motion,
the claim could and should have been presented on
direct appeal. See Simmons v. Commonwealth, 191
S.W.3d 557, 561 (Ky.2006) (A criminal defendant may
not use an 11.42 motion to relitigate an issue that was
addressed or should have been addressed on direct appeal by claiming that it constituted ineffective assistance of counsel). The claim is without merit because
“[t]he Sixth Circuit has routinely rejected claims that
a defendant indicted as a principal cannot be convicted

App. 95
as an accomplice.” Halverson v. Simpson, 2014 WL
5419373 (E.D.Ky.) (collecting authorities).
Claim 18
Petitioner’s eighteenth claim is that his trial counsel was constitutionally ineffective for failing to object
to the jury instructions on the ground that, under Kentucky law, accomplice liability requires that another
defendant first be convicted of principal liability (i.e.,
murder). Petitioner’s co-defendant, McCary, was convicted (pled guilty) to complicity to murder.
The Kentucky Court of Appeals held that the ineffectiveness claim is without merit because Petitioner’s
underlying assumption about Kentucky law is false:
According to Kentucky Revised Statute (KRS)
502.030(1), it is not a defense to a complicity
charge that the principal actor, “has not been
prosecuted for or convicted of any offense
based on the conduct in question, or has previously been acquitted thereof, or has been
convicted of a different offense, or has an immunity to prosecution or conviction for such
conduct[.]” See also Tharp v. Commonwealth,
40 S.W.3d 356, 366 (Ky.2000) (“[I]t is immaterial to Appellant’s criminal liability or the degree thereof whether [the principal actor] is
ever convicted of criminal homicide for causing the death of [the victim], or, if so, of which
degree of homicide he is convicted.”). Consequently, both the relevant caselaw and statute contradict England’s assertion that the

App. 96
Commonwealth had to prove that McCary
had been previously found guilty of murdering Halvorson.17 (2008 WL 4182027, at *2).
The state court’s adjudication of Petitioner’s claim
was not contrary to Supreme Court precedent as required for this Court to grant relief.
Claim 19
Petitioner’s nineteenth claim is that his trial
counsel was ineffective for deciding not to present
mitigating evidence at sentencing (in a capital case).
This is the claim that the Kentucky Court of Appeals
remanded for an evidentiary hearing to determine if
counsel’s decision was supported by reasonable investigation. England v. Commonwealth, 2008 WL
4182027 (Ky.App.).
On remand, Petitioner agreed to a sentence of
life imprisonment in lieu of evidentiary hearing. See
Agreed Order Amending Judgment, Docket 47-1, p. 25.
Petitioner is equivocal on whether he has abandoned his nineteenth claim in light of the Agreed Order
Amending Judgment or whether the claim remains viable. On one hand, Petitioner states that he “does not
pursue Ground 19 here.” Docket 47, p. 11. On the other
hand, he recounts that, from September 2008 until
17

See also Halverson v. Simpson, 2014 WL 5419373 (E.D.Ky.)
(collecting authorities for the proposition that “[t]he Sixth Circuit
has routinely rejected claims that a defendant indicted as a principal cannot be convicted as an accomplice”).

App. 97
May 2015, a series of defense attorneys advised him to
accept various offers of a new sentence in lieu of evidentiary hearing, which he rejected. Finally, in May
2015, “realizing that [I] was never going to have the
evidentiary hearing [I] agreed to a life sentence which
was entered on May 26, 2015.” Id.
The Court concludes that Petitioner has abandoned his nineteenth claim.18
Claim 20
Petitioner’s twentieth claim is that trial counsel
was ineffective for failing to object to the Commonwealth’s comment during closing argument: “What do
you think Tyrone [McCary] would have said? I bet he
would have said Steven England did it all.”
A prosecutor’s improper comments violate a criminal defendant’s constitutional rights only if they “so
infected the trial with unfairness as to make the resulting conviction a denial of due process.” Kelly v.
McKee, 847 F.3d 316 (6th Cir.2017) quoting Darden v.
Wainwright, 477 U.S. 168, 181 (1986).
18

To the extent a viable constitutional claim remains in light
of the allegedly-involuntary character of the so-called Agreed Order, Petitioner has failed to exhaust his state-court remedies. Either no state-court remedy remains (at this point), in which case
the claim is procedurally defaulted; or alternatively, in insisting
that the present habeas petition proceed, Petitioner has implicitly
agreed to dismiss his unexhausted claim (Claim 19), thereby converting his mixed petition (containing both exhausted and unexhausted claims) into a fully-exhausted petition, as is required for
the petition to proceed.

App. 98
The Kentucky Court of Appeals held that counsel
was effective for choosing not to object to the comment
because it was not improper. The state court’s adjudication of Petitioner’s claim was not contrary to Supreme Court precedent as required for this Court to
grant relief:
It has long been recognized in the Commonwealth that counsel has great leeway in making
closing arguments. Brewer v. Commonwealth,
206 S.W.3d 343, 350 (Ky.2006). In addition to
having great leeway during closing, a prosecutor may also comment on the evidence
during closing. Slaughter v. Commonwealth,
744 S.W.2d 407, 412 (Ky.1987). After reviewing the prosecutor’s closing argument in context, it is clear that he was not testifying.
Rather, he was commenting on the evidence
adduced at trial. Because the prosecutor’s remarks were permissible, England’s counsel’s
performance did not fall below the objective
standard of reasonableness for failing to object. (2008 WL 4182027, at *7).
Claim 21
Petitioner’s twenty-first claim is that trial counsel
was ineffective for failing to object to Cori Poindexter’s
testimony under the correct legal theory. Poindexter
was Lisa’s friend and the last person to see her alive.
Poindexter overhead Lisa’s side of a phone conversation with McCary. Poindexter testified that Lisa told
her that, during the conversation, McCary told her
that, if he could not have her, nobody would.

App. 99
Petitioner’s twenty-first claim is a variation on his
seventh claim. Whereas the seventh claim focuses on
Lisa as the hearsay declarant (and argues that the
trial court admitted her statements in violation of the
Confrontation Clause), the present claim focuses on
McCary as declarant and argues that trial counsel ineffectively failed to object to the statements on that
theory.
The Kentucky Court of Appeals held that the two
theories are sufficiently related that Petitioner could
and should have presented both theories on direct appeal in conjunction with his seventh claim; hence, his
twenty-first claim is procedurally barred:
In England’s direct appeal to the Supreme
Court of Kentucky, he complained about the
same testimony from Poindexter but ascribed
the hearsay statements to the victim, Halvorson. The Supreme Court determined that the
statements were hearsay but fell under the
present sense impression and the excited utterance exceptions to the hearsay rule. As we
previously stated, a criminal defendant cannot use a RCr 11.42 motion to relitigate issues
that were addressed or should have been addressed by direct appeal. [Simmons v. Commonwealth, 191 S.W.3d 557, 561 (Ky.2006).]
Whether England ascribes the hearsay statements to Halvorson or McCary, these statements were addressed by direct appeal; thus,
England was prohibited from raising the issue
again in his RCr 11.42 motion. Consequently,
this claim is without merit. (2008 WL 4182027,
at *7).

App. 100
Petitioner’s claim is procedurally defaulted as the
state procedural rule invoked by the state court constitutes an independent and adequate reason for this
Court’s declining to reach the merits. See Coleman v.
Thompson, 501 U.S. 722, 729 (1991) (“This Court will
not review a question of federal law decided by a state
court if the decision of that court rests on a state law
ground that is independent of the federal question and
adequate to support the judgment”).
Alternatively, counsel was effective despite not objecting to Poindexter’s testimony under the theory that
the declarant was McCary because McCary’s statements were nontestimonial and, hence, constitutionally admissible. The analysis is essentially the same as
for Claim 7, supra.
Claim 22
Petitioner’s twenty-second claim is that trial counsel was ineffective for failing to object to systematic exclusion of African-Americans from the grand jury.
Petitioner’s twenty-second claim is a variation on
his eighth claim, which was that his conviction should
be overturned because there were not a sufficient number of African-Americans on the jury panel. As stated
above, Claim 8 is without merit because the Sixth
Amendment protects against the systematic exclusion
of identifiable groups from the jury selection process,
but it does not guarantee a “jury of any particular composition.” United States v. Miller, 562 Fed.Appx. 272
(6th Cir.2014) quoting Taylor v. Louisiana, 419 U.S.

App. 101
522, 538 (1975). Now, Petitioner alleges that there was
a systematic exclusion and claims that counsel was ineffective for failing to raise the matter.
The Kentucky Court of Appeals held that Petitioner failed to allege any facts from which counsel
could have argued that there was systematic exclusion:
As we noted earlier, a criminal defendant
must set forth in his RCr 11.42 motion all the
facts necessary to demonstrate the existence
of a constitutional violation. While England
claims that African-Americans were systematically excluded from the grand jury, he has
not alleged any facts to support this assertion.
He also claims African-Americans have been
systematically excluded from grand juries in
Graves County for the past fifteen years; however, he has not set forth a single fact to support that claim. Accordingly, England has
failed to cast any doubt on his attorney’s performance regarding this issue. (2008 WL
4182027, at *7).
Petitioner’s claim is without merit because it lacks
a supporting factual basis and because the Kentucky
Court of Appeals’ adjudication of the claim was not
contrary to Supreme Court precedent as required for
this Court to grant relief.
Claim 23
Petitioner’s twenty-third claim is that trial counsel
was ineffective during closing argument for not backing
up his argument regarding the proper interpretation

App. 102
of the Woodfork-Petitioner conversations with transcript excerpts (as did the Commonwealth).
Where the question is the effectiveness of trial
counsel’s strategy, the standard of review is doubly
deferential: The first level of deference is based on
Strickland v. Washington, 466 U.S. 668, 689 (1984)
(“Judicial scrutiny of counsel’s performance must be
highly deferential”); the second level of deference is
based on 28 U.S.C. 2254(d)(1) (When the state court
rules that counsel’s performance was effective, a habeas court cannot upset that ruling unless the statecourt decision was “contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United
States”). See Leonard v. Warden, Ohio State Penitentiary, 846 F.3d 832, 848 (6th Cir.2017) quoting Harrington v. Richter, 562 U.S. 86, 89 (2011) (“[B]ecause
the state court correctly identified and attempted
to apply the Strickland standard, under [Section
2254(d)(1)], we apply a doubly deferential standard. . . . ‘The question is whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard’”).
The Kentucky Court of Appeals held that:
England’s trial counsel did not use a similar
transcript prepared by the defense; however,
England’s trial attorney commented extensively on the audiotape and commented extensively on the prosecution’s interpretation
of the tape giving his own opinion regarding the content of the audiotape. In this

App. 103
particular claim, England is merely disagreeing with his attorney’s strategy regarding
closing argument. However, “[t]rial strategy
will not be second guessed in an RCr 11.42
proceeding.” Hodge v. Commonwealth, 116
S.W.3d 463, 473 (Ky.2003) (citation omitted).
Thus, England has failed to demonstrate that
his counsel’s performance fell below the objective standard of reasonableness. (2008 WL
4182027, at *8).
Petitioner’s claim is without merit because the
Kentucky Court of Appeals articulated a “reasonable
argument that counsel satisfied Strickland’s deferential standard” as contemplated by Harrington v. Richter, 562 U.S. 86, 89 (2011).
Claim 24
Petitioner’s twenty-fourth claim is that trial counsel was ineffective for failing to file a pre-trial motion
pursuant to RCr 8.18 objecting to the indictment because the aggravating circumstances were not included.
Petitioner’s twenty-fourth claim is a variation on
his thirteenth claim, which was that his conviction
should be overturned because the aggravating circumstances were not included in the indictment. The Kentucky Supreme Court held that the thirteenth claim is
procedurally defaulted for lack of a RCr 8.18 motion
and, alternatively, the claim is without merit because
it was legally sufficient that “England was made known

App. 104
of the specific evidence upon which it intended to seek
capital punishment.” 2005 WL 1185204, at *9.
The Kentucky Court of Appeals held that Petitioner is not entitled to relief on his twenty-fourth
claim because: 1) It runs afoul of the Kentucky’s procedural rule that RCr 11.42 may not be used to relitigate an issue that was addressed on direct appeal by
claiming that it constituted ineffective assistance of
counsel; and 2) The underlying assumption that counsel had a legal basis (under state law) for objecting is
false:
On direct appeal, the Supreme Court addressed the issue of the lack of aggravating
circumstances in the indictment. While the
Court noted that the issue was not preserved
for appeal because RCr 8.18 required the issue to be raised by pretrial motion, the Supreme Court still addressed the merits of the
argument. So, despite his trial counsel’s error
in failing to address the issue pretrial, England suffered no prejudice. Furthermore, England is trying to relitigate an issue that was
addressed on direct appeal by claiming it
constituted ineffective assistance of counsel,
which is prohibited. [Simmons v. Commonwealth, 191 S.W.3d 557, 561 (Ky.2006).] Accordingly, England is prohibited from raising
this issue via his RCr 11.42 motion. (2008 WL
4182027, at *8).
Petitioner’s claim is procedurally defaulted as the
state procedural rule invoked by the state court constitutes an independent and adequate reason for this

App. 105
Court’s declining to reach the merits. See Coleman v.
Thompson, 501 U.S. 722, 729 (1991) (“This Court will
not review a question of federal law decided by a state
court if the decision of that court rests on a state law
ground that is independent of the federal question and
adequate to support the judgment”). Alternative, the
claim is not of constitutional dimension, and the Kentucky Supreme Court’s adjudication thereof was not
contrary to Supreme Court precedent as required for
this Court to grant relief.
Claim 25
Petitioner’s twenty-fifth claim is that trial counsel
was ineffective for failing to move for a change of venue
due to pre-trial publicity.
To prevail on an ineffective assistance of counsel
claim based on counsel’s failure to move for a change
of venue, Petitioner must show, at minimum, that the
trial court would have, or should have, granted the motion. Gordon v. Taylor, 2012 WL 462916 (E.D.Ky.) citing
Dell v. Straub, 194 F.Supp.2d 629, 649 (E.D.Mich.2002).
This, in turn, requires Petitioner to show that the publicity was prejudicial, i.e., it jeopardized his right to a
fair trial by an impartial jury. Irvin v. Dowd, 366 U.S.
717 (1961).
Although the Sixth Circuit has developed various
tests to assist courts in determining whether pre-trial

App. 106
publicity was prejudicial,19 the Supreme Court has yet
to articulate a precise standard. Hodge v. White, 2016
WL 4425094 (E.D.Ky.). Because Supreme Court law is
not “clearly established” in this respect, the Kentucky
Court of Appeals’ finding that any publicity was nonprejudicial was not “unreasonable” as contemplated by
28 U.S.C. 2254(d)(1):
According to McKinney v. Commonwealth,
445 S.W.2d 874, 877 (Ky.1969), the decision
whether or not to request a change of venue
falls within trial counsel’s discretion. Furthermore, upon appeal, in determining whether
trial counsel was ineffective, we must give
deference to the attorney’s performance. Harper v. Commonwealth, 978 S.W.2d 311, 315
(Ky.1998). In the present case, England does
not explain how he was prejudiced by his
counsel’s decision not to seek a change of
venue; moreover, he does not claim that he did
not receive a fair trial in Graves County.
Given the lack of supporting facts and given
the strong presumption that the performance
of England’s counsel fell within the wide
range of reasonable professional assistance,
19

Prejudice is presumed when “an inflammatory circus-like
atmosphere pervades both the courthouse and the surrounding
community.” Foley v. Parker, 488 F.3d 377, 387 (6th Cir.2007).
Actual prejudice (falling short of presumed prejudice) also warrants
a change of venue. The “primary tool” for determining whether
actual prejudice arose is a “searching voir dire of the prospective
jurors.” Ritchie v. Rogers, 313 F.3d 948, 962 (6th Cir.2002). Petitioner has not alleged that a circus-like atmosphere contaminated
his trial, nor has he identified any voir dire responses indicative
of actual prejudice.

App. 107
we find that this claim did not establish
ineffective assistance of counsel. (2008 WL
4182027, at *9).
Claim 26
Petitioner’s twenty-sixth claim is that trial counsel was ineffective for failing to move to suppress the
Woodfork-Petitioner conversations pursuant to 18
U.S.C. § 2511 (the federal wiretapping statute). The
claim is a variation on Petitioner’s fourteenth claim,
which was that the conversations should have been
suppressed under the Fourth Amendment because authorities failed to obtain a search warrant.
For present purposes, there is no substantial difference between the requirements of Section 2511 and
the Fourth Amendment. Both allow for secret recordings when one party to the conversation (i.e., the informant, Woodfork) was legally in the place where the
taped conversations took place and every conversation
used by the prosecution was either directly with the
informant or carried on with the target’s (i.e., Petitioner’s) knowledge of his presence. No warrant or
wiretap order was necessary.
The Kentucky Court of Appeals rejected Petitioner’s
claim because it amounted to an improper attempt to
resurrect a losing argument under a slightly-revised
theory, via an allegation of ineffectiveness:
. . . Despite this [Fourth Amendment versus
Section 2511] difference, this current issue is
the same as the one previously raised and

App. 108
rejected on direct appeal. As a result, England
was and is barred from raising it again.
Second, even if this claim is not barred, England has failed to show error on the part of his
trial counsel. If the government acquires the
consent to record from one person involved
in a conversation, then the government has
no need to obtain a court order under 18
U.S.C. § 2511. United States v. Barone, 913
F.2d 46, 49 (2d Cir.1990). . . . England’s attorney, therefore, did not render ineffective assistance of counsel by failing to suppress the
audiotape pursuant to 18 U.S.C. § 2511, because that statute simply did not apply. (2008
WL 4182027, at *9).
Petitioner’s claim is procedurally defaulted as the
state procedural rule invoked by the state court constitutes an independent and adequate reason for this
Court’s declining to reach the merits. See Coleman v.
Thompson, 501 U.S. 722, 729 (1991) (“This Court will
not review a question of federal law decided by a state
court if the decision of that court rests on a state law
ground that is independent of the federal question and
adequate to support the judgment”). Alternatively, the
state court’s adjudication of the claim was not contrary
to Supreme Court precedent as required for this Court
to grant relief.

App. 109
RECOMMENDATION
The Magistrate Judge RECOMMENDS that the
Court DENY the petition and amended petition for
writ of habeas corpus pursuant to 28 U.S.C. § 2254
(Dockets 1 and 47) and DENY a certificate of appealability.20
[Notice Omitted]

20

The Court should deny a certificate of appealability unless
it is persuaded that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).

App. 110
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
AT PADUCAH
CIVIL ACTION NO. 5:06-CV-091-TBR-LLK
STEVIE LYN ENGLAND,

PETITIONER

v.
RANDY WHITE, WARDEN,

RESPONDENT

MEMORANDUM OPINION
(Filed Sep. 11, 2018)
This matter is before the Court on Petitioner
Stevie Lynn England’s Petition for Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2254, [R. 1], and
Amended Petition, [R. 47]. The Magistrate Judge filed
Findings of Fact and Conclusions of Law and Recommendation. [R. 94.] England filed objections thereto.
[R. 95.] Having conducted a de novo review of the portions of the Magistrate Judge’s report to which Potter
objected,1 the Court ADOPTS the Findings of Fact and
Conclusions of Law as set forth in the report submitted
by the Magistrate Judge, [R. 94]. For the reasons stated
herein, England’s objections, [R.95], are DENIED. The
1

It is well-established that the failure to object to any portion of a magistrate judge’s report results in a waiver of both district-court and appellate review of that portion. See Smith v.
Detroit Fed’n of Teachers, Local 231, 829 F.2d 1370, 1373 (6th Cir.
1987) (“[O]nly those specific objections to the magistrate’s report
made to the district court will be preserved for appellate review;
making some objections but failing to raise others will not preserve all the objections a party may have.”).

App. 111
Court will enter a separate Order and Judgment consistent with this Memorandum Opinion.
BACKGROUND
On May 19, 2005, the Kentucky Supreme Court
affirmed the conviction of Stevie Lyn England of
complicity to murder Lisa Halvorson. See England
v. Commonwealth, No. 2003-SC-0328-MR, 2005 WL
1185204, at *1 (Ky. May 19, 2005). England and his codefendant, Tyrone McCary, were originally indicted of
capital murder and tried separately. [R. 94 at 1 (Findings of Fact and Conclusions of Law and Recommendation).] McCary was Halvorson’s ex-boyfriend. [Id. at 2.]
At England’s trial before the Graves Circuit Court,
the Commonwealth introduced evidence showing that
Halvorson obtained an emergency protective order
(EPO) against McCary shortly before her death, and
her affidavit in support of the EPO claimed that
McCary threatened to kill her or have someone kill her
for him. [Id.] Also, Cori Poindexter, Halvorson’s friend
and the last person to see her alive, testified at trial
that she was present when McCary called Halvorson
and heard Halvorson’s side of the conversation. [Id.]
Poindexter testified that, while Halvorson was on the
phone with McCary, Halvorson told Poindexter that
McCary said that if he could not have her, nobody
would. [Id.]
During the trial, the Commonwealth’s theory of
the case was that England was present at the scene
and assisted McCary in committing the murder. [Id.]

App. 112
The Magistrate Judge summarized the Commonwealth’s theory as follows:
McCary and/or Petitioner devised a plan to
make it appear that Lisa was accidentally run
over by her own truck while exiting her garage. McCary and/or Petitioner: drove to Lisa’s
house; knocked her to the ground in or near
the garage; beat her severely; accelerated the
truck backward out of the garage, causing
Lisa’s face to be caught in the right bumper
and spinning her into the wheel well; got on
top of her and broke her windpipe, resulting
in death by asphyxia.
[Id. (citing Audio-video of trial, Day 1 (January 8,
2003), 3:13:00).] England and McCary were originally
implicated in the crime by the testimony of Karl Woodfork. According to Woodfork, McCary described various
plots to him and England for murdering Halvorson and
making it appear like an accident. [Id. (citing Audiovideo of trial, Day 4 (January 14, 2003), 11:07:00).] Furthermore, Woodfork testified that McCary paid both
him and England an initial payment of $1,000.00, with
a promise of an additional payment of $10,000.00
(each) after the murder. [Id.]
Before the trial, Woodfork agreed to be wired for
sound, and the police secretly recorded conversations
between Woodfork and England, in which England
complained about McCary owing him money. After
informing England of these recordings during an interrogation at the police station, England admitted to
being present at the murder scene with McCary but

App. 113
insisted that he only punched Halvorson in the jaw one
time—to “soften her up”—causing her to fall to the
ground. [Id. at 3.] Furthermore, England claimed that
he attempted to dissuade McCary from committing the
other terrible acts, and he also claimed Halvorson was
alive when he and McCary left the scene. [Id.]
After the Kentucky Supreme Court affirmed England’s conviction, England filed a Motion to Vacate pursuant to Kentucky Rules of Criminal Procedure (RCr)
11.42, containing ten claims of ineffective assistance
of counsel. [Id.] It was denied by the trial court. [Id.]
Upon appeal, the Kentucky Court of Appeals affirmed
the rejection of all claims except for one, which was remanded for an evidentiary hearing. [Id.] However, this
evidentiary hearing was rendered moot when England
agreed to a sentence of life imprisonment. [Id. at 3-4
(citing R. 47-1 at 25).]
Subsequently, England filed a Habeas Corpus Petition, [R. 1], and an Amended Petition, [R. 47], consisting of twenty-six claims. On March 6, 2017, the
Magistrate Judge entered a Findings, Conclusions, and
Recommendation, recommending that the Habeas Corpus Petition and the Amended Petition be denied. [R.
94 at 1.] On March 24, 2017, England filed an Objection
to the Magistrate Judge’s Recommendation, [R. 95],
which involved seventeen of the twenty-six previous
claims. The matter came before the undersigned when
this case was reassigned to this Court on April 25,
2018, [R. 96].

App. 114
LEGAL STANDARD
“Under the 1996 Antiterrorism and Effective
Death Penalty Act (AEDPA), 28 U.S.C. § 2254(d), federal habeas relief may not be granted unless the state
court decision at issue: (1) resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established Federal law as determined
by the Supreme Court of the United States; or (2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.” Coleman v.
Bergh, 804 F.3d 816, 819 n. 1 (6th Cir. 2015).
“Under the ‘contrary to’ clause, a federal habeas
court may grant the writ if the state court arrives at a
conclusion opposite to that reached by the Supreme
Court on a question of law, or if the state court reaches
a decision different from that of the Supreme Court on
a set of materially indistinguishable facts.” Trimble v.
Bobby, 804 F.3d 767, 773 (6th Cir. 2015). “Under the
‘unreasonable application’ clause, a federal habeas
court may grant the writ if the state court identifies
the correct governing legal principle from the Supreme
Court’s decisions but unreasonably applies that principle to the facts of the petitioner’s case.” Id. “For factual matters, a district court may not grant a habeas
petition unless the state court’s adjudication “resulted
in a decision that was based on an unreasonable determination of the facts in light of the evidence presented
in the State court proceeding.” Id. (quoting 28 U.S.C.
§ 2254(d)(2)).

App. 115
“To obtain habeas relief, ‘a state prisoner must
show that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.’ ” Id. (quoting Harrington v.
Richter, 562 U.S. 86, 103 (2011)). This standard is “difficult to meet.” White v. Woodall, 134 S. Ct. 1697, 1702
(2014) (citation omitted).
DISCUSSION
In his Objection, England lists many arguments
regarding seventeen of the claims from his Petition
for Writ of Habeas Corpus and Amended Petition. The
Court will address each in turn.
A. Claims 1-3
The first ground raised under England’s Petition
for Writ of Habeas Corpus was that England’s Fifth
Amendment right to counsel during custodial interrogation was violated when England’s alleged request for
an attorney was ignored by police. [R. 95 at 38 (England Objection).] Specifically, England argues that the
following statement qualified as an unequivocal request for an attorney: “I guess you’ll just have to go on
and lock me up then and call my lawyer, ‘cause I don’t,
I don’t know what you’re talking about. I’ll be honest
with you. Like I said, me and Tyrone are friends. I’ve
never seen that woman.” [R. 94 at 5-6 (quoting England, Nos. 2003-SC-0328-MR, 2005 WL 1185204, at *2;

App. 116
R. 95 at 38.] After further questioning, England said,
“I don’t want to get in no trouble. I mean my lawyer. I
don’t know.” [R. 94 at 5-6 (quoting England, Nos. 2003SC-0328-MR, 2005 WL 1185204, at *2).] The Magistrate Judge held that this statement did not invoke the
Fifth Amendment right to counsel, citing the finding
of the Supreme Court in Davis v. United States, in
which the Supreme Court found that the words “maybe
I should talk to a lawyer” are equivocal. [Id. at 6 (citing
Davis, 512 U.S. 452, 459 (1994).]2 Furthermore, the
Magistrate Judge found that the Kentucky Supreme
Court’s holding that England’s statement did not
amount to a request for an attorney was not contrary
to the United States Supreme Court’s precedent. [R. 94
at 6.]
In his Objection to the Magistrate Judge’s findings, England argues that his statement was an “unequivocal request for an attorney” under Supreme
Court precedent3 and questioning by police should
have ceased at that time. [R. 95 at 38-39.] Furthermore, England contends that the Kentucky Supreme
Court, which the Magistrate Judge quoted in his findings, cited to inapplicable case law in its opinion. [R.
Id. at 39.]

2

The Magistrate Judge also cited Delap v. Dugger, 890 F.2d
285 (11th Cir. 1989), for the notion that “a defendant’s assertion
that he has an attorney in another matter does not constitute a
request for counsel in the present issue.” [R. 94 at 6.]
3
Specifically, England cites to Miranda v. Arizona, 384 U.S.
436 (1966), Edwards v. Arizona, 451 U.S. 477 (1981), and Smith
v. Illinois, 469 U.S. 91, (1984).

App. 117
The Court agrees with the Magistrate Judge’s
findings and denies England’s objection. First, the
Court finds that England’s statements did not constitute an unambiguous request for counsel. The Sixth
Circuit has succinctly summarized the requirements of
the Supreme Court for such a situation as follows:
A suspect subject to custodial interrogation
has the right to consult with an attorney and
to have counsel present during questioning.
Miranda v. Arizona, 384 U.S. 436, 444, 86 S.Ct.
1602, 16 L.Ed.2d 694 (1966). If the suspect invokes that right, police must stop questioning
him until his attorney arrives or the suspect
reinitiates discussion. Edwards v. Arizona,
451 U.S. 477, 484–85, 101 S.Ct. 1880, 68
L.Ed.2d 378 (1981). In determining whether a
suspect has invoked his right to counsel, we
apply an objective standard, asking whether a
reasonable police officer would have understood the suspect to be asking for an attorney.
Davis v. United States, 512 U.S. 452, 458–59,
114 S.Ct. 2350, 129 L.Ed.2d 362 (1994). The
request must be unequivocal. Id. at 459, 114
S.Ct. 2350.
Perreault v. Smith, 874 F.3d 516, 519–20 (6th Cir.
2017), cert. denied sub nom. Perreault v. Stewart, 138
S. Ct. 1299, 200 L. Ed. 2d 473 (2018). In Perreault, the
Sixth Circuit found that the state court reasonably interpreted the defendant’s statement during the police
interview as being a negotiation tactic, not an unequivocal request for counsel. See 874 F.3d at 520. In detail,
after the police officer accused his story of being

App. 118
inconsistent, the defendant retorted: “Well, then let’s
call the lawyer then ‘cause I gave what I could.” Id. The
Court finds this statement to be extremely similar to
England’s response of “I guess you’ll just have to go on
and lock me up then and call my lawyer.” [R. 94 at 5-6
(quoting England, Nos. 2003-SC-0328-MR, 2005 WL
1185204, at *2; R. 95 at 38.] A reasonable police officer
could have interpreted this statement as a negotiation
tactic, rather than a request for counsel. Therefore, this
statement was not an “unequivocal request” for counsel as required by Supreme Court precedent. See Davis, 512 U.S. at 459 (“[I]f a suspect makes a reference
to an attorney that is ambiguous or equivocal in that a
reasonable officer in light of the circumstances would
have understood only that the suspect might be invoking the right to counsel, our precedents do not require
the cessation of questioning.”) (citing McNeil v. Wisconsin, 501 U.S. 171, 178 (1991); Edwards, 451 U.S. at
485).
Secondly, the Court fords that the case law cited
by the Kentucky Supreme Court is applicable to the
case at hand. England claims that the Kentucky Supreme Court should have cited to the Supreme Court’s
holding in Smith v. Illinois in analyzing his request for
counsel, rather than Colorado v. Spring, 479 U.S. 564
(1987). After examining the opinion of the Kentucky
Supreme Court, the Court finds that England mischaracterizes its findings. The Kentucky Supreme Court
did not cite to Colorado while analyzing England’s
right to counsel. It cited to Colorado in the section entitled “Coercion,” which was appropriate because the

App. 119
Supreme Court discusses police coercion of confessions
in detail in that case. See England, Nos. 2003-SC-0328MR, 2005 WL 1185204, at *3 (citing Colorado, 479 U.S.
at 574). Moreover, in evaluating England’s request for
counsel, the court appropriately cited to the Supreme
Court’s findings in Davis, which references Smith for
support. Id. at *2 (citing Davis, 512 U.S. at 459).
In sum, the Court agrees with the Magistrate
Judge’s findings regarding Claim 1, and England’s objections as to Claims 1, 2, and 3 are denied.4
B. Claim 4
Under Claim 4, England argued that his rights
under the Confrontation Clause were violated during
the trial when the Commonwealth admitted the affidavit of the deceased victim, Lisa Halvorson, into evidence. [R. 81 at 2 (England Partial Reply).] According
to the Magistrate Judge, “[t]he affidavit informed the
jury that McCrary threatened to kill Lisa or have
someone kill her for him.” [R. 94 at 9.] The Magistrate
Judge held that the Kentucky Supreme Court correctly
acknowledged that the admission of the affidavit violated England’s rights under the Confrontation
Clause, but the admission amounted to harmless error.
[Id. at 11-12.] In detail, the Magistrate Judge found
4

England contends that his arguments under Claim 1
should apply to Claims 2 and 3 because “Habeas Claims II-III
were direct prejudicial derivitives [sic] of Habeas Claim I. . . .” [R.
95 at 38.] As the Court has denied England’s objection to Claim
1, his objections to Claim 2 and Claim 3 are denied as well.

App. 120
that the erroneous admission of the affidavit was
harmless in light of England’s police station confession, in which the Magistrate Judge asserted that “he
admitted to striking Lisa and knocking her to the
ground,” and in light of the recorded conversation between England and Karl Woodfork, during which
Woodwork subsequently testified that England told
him that McCrary had not paid him the money owed
for the crime. [Id. at 12.]
England objects to these findings, stating that
“[t]hings cannot be looked at in a vacuum.” [R. 95 at
16.] England contends that the Magistrate Judge ignored the effect of the state court’s error on several of
his other claims, and he states that “the Magistrate circumvents his obligation to review each of these errors
in context to the Crawford error as required by Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986) and refuses to look at the error as a whole.” [Id. at 17.]
The Court agrees with the Magistrate Judge’s
findings and denies England’s objection. Despite England’s contention, the Magistrate Judge recited the
factors of Delaware and found the state court’s conclusions under the first and second factors to be satisfactory. [R. 94 at 12.] Furthermore, the court’s
consideration under those factors referenced the Commonwealth’s case as a whole, as well as the cumulative
nature of other evidence admitted in the case. [Id. at
13.]5 Thus, the Court agrees with the Magistrate

5

Explicitly, the Magistrate Judge stated:

App. 121
Judge’s findings regarding Claim 4, and England’s objection is denied.
C. Claim 6
In Claim 6, England argued that his due process
rights were violated when he was denied sufficient
public funds to hire a criminologist who could have testified that Ms. Halvorson’s body was moved after her
death. [R. 81 at 2; R. 94 at 14; R. 95 at 40.] The Magistrate Judge held that the Supreme Court’s holding in
Ake v. Oklahoma, which found that states must provide
The state court’s determination is buttressed by a consideration of the first and second Van Arsdall factors:
(1) The importance of the witness’ testimony in the
prosecution’s case: The affidavit testimony was important to the Commonwealth’s case against Petitioner
primarily as background information showing that
McCary threatened to murder Lisa. However, in mentioning McCary’s threat to have someone else (for example, Petitioner) do the killing for him, the affidavit
may have (in the jury’s mind) made it less likely that
McCary was innocently present at the murder scene
(i.e., the affidavit suggests Petitioner’s intent to assist
the murder) and more likely that his presence was financially motivated.
(2) Whether the testimony was cumulative: To the extent the affidavit testimony suggested that the “someone else” McCary threatened to get to murder Lisa was
Petitioner, the testimony was cumulative in light of
Petitioner’s police-station confession to striking Lisa to
the ground, Woodfork’s testimony that McCary paid
Petitioner $1,000 as down-payment for committing the
murder, and Woodfork’s testimony about Petitioner
complaining about McCary owing him money.
[R. 94 at 12-13n.12.]

App. 122
an indigent defendant with a psychiatric expert when
the defendant’s sanity is a significant factor at trial,
does not extend that right to other types of expert
witnesses. [R. 94 at 14 (citing Ake v. Oklahoma, 470
U.S. 68 (1985)).] Furthermore, the Magistrate Judge
observed that “Petitioner admitted to assaulting Lisa,
and he and McCary allegedly left while she was still
alive. Whether or not the body was moved after death
does not change the fact of Petitioner’s involvement.”
[Id.]
In his Objection, England contends that “the trial
court possessed no discretion to deny England funding
to retain an expert for investigation and preparation of
his defense.” [R. 95 at 40.] Furthermore, he concludes
that the assistance of an expert would have allowed
him to “fairly present at least enough forensic information to the jury, in a meaningful manner, as to permit it to have made a sensible determination.” [Id. at
41.] England explains that an expert could have examined the “veracity of the handling of the evidence” and
possibly compelled the testing of evidence for DNA before trial. [Id.]
The Court agrees with the Magistrate Judge’s
findings and denies England’s objection. First, the
Court finds that England’s claim that the trial court
did not have discretion to deny funding for an expert is
incorrect. In fact, in Kentucky, a trial court has discretion to decide whether funds should be provided under
KRS 31.110 based off the “specific information that
[the defense counsel] expects the expert to provide at
trial.” Davenport v. Commonwealth, 177 S.W.3d 763,

App. 123
774 (Ky. 2005). Secondly, the Court agrees with the
Magistrate Judge’s holding that any finding of a criminologist on this specific matter would not change
England’s admitted involvement in the murder of
Halvorson. Testing of the Caucasian hairs in Halvorson’s hands and underwear and the sperm in her
vagina could have proven or disproves Shannon Jenkins’s testimony that he had sexual intercourse with
Halvorson before her death. [R. 94 at 14- 15.] However,
this evidence would not change the fact that England
admitted to police that he was present at the murder
scene with McCrary and he punched Halvorson in the
jaw, knocking her to the ground. [R. 94 at 3.]
In sum, the Court agrees with the Magistrate
Judge’s findings regarding Claim 6 and denies England’s objections.
D. Claim 9
Under Claim 9, England argued that his rights
under the Sixth and Fourteenth Amendment were violated when the jurors opposed to the death penalty
were excluded from the jury panel. [R. 91 at 18; R. 95
at 42.] The Magistrate Judge held that “[t]he Sixth
Amendment allows for-cause exclusion of prospective
jurors due to substantial impairment of ability to impose the death penalty.” [R. 94 at 17 (citing White v.
Wheeler, 136 S.Ct. 456 (2015).] Thus, the Magistrate
Judge concluded that the Kentucky Supreme Court’s
holding that a juror may be stricken for cause if she is

App. 124
unable to consider the death penalty was not contrary
to United States Supreme Court precedent. [Id.]
In his Objection, England claims that he was denied the right to “life-qualify” the jury because “[n]o
where in the Kentucky Supreme Court decision can it
be found that it discharged this balancing test as required by Morgan at 728.” [R. 95 at 42.] In Morgan v.
Illinois, the Supreme Court reiterated that “the proper
standard for determining when a prospective juror
may be excluded for cause because of his or her views
on capital punishment . . . is whether the juror’s views
would ‘prevent or substantially impair the performance of his duties as a juror in accordance with his
instructions and his oath.’ ” 504 U.S. 719, 728 (1992).
Furthermore, the Court stated: “Under this standard,
. . . a juror who in no case would vote for capital punishment, regardless of his or her instructions, is not an
impartial juror and must be removed for cause.” Id.
Here, the Kentucky Supreme Court concluded: “It is
well-settled law in this Commonwealth that a juror
may be stricken for cause if she is unable to consider
the death penalty when considering the sentence upon
conviction of the defendant. We hold that England’s
constitutional rights were not violated by excusing
jurors who could not consider the death penalty as a
sentence upon his conviction.” England, No. 2003-SC0328-MR, 2005 WL 1185204, at *7. The Court finds
that the Kentucky Supreme Court’s holding aligns
with the United States Supreme Court’s holding regarding when an impartial juror must be removed for
cause. Thus, the Court agrees with the Magistrate

App. 125
Judge’s findings regarding Claim 9 and denies England’s objection.
E. Claim 11
In Claim 11, England argued that his rights under
the Fourteenth Amendment were violated when the attorney for the Commonwealth misstated the law during closing argument. [R. 91 at 23; R. 94 at 18.] At trial,
the jury instructions stated that the jury could return
a guilty verdict if it believed that England killed Ms.
Halvorson by “striking her, running over her with a
truck, and causing her death by strangulation.” [R. 94
at 18; R. 95 at 43; England, No. 2003-SC-0328-MR,
2005 WL 1185204, at *8.] However, during its closing
argument, the Commonwealth stated that the jury
could return a guilty verdict if it found that England
engaged in only one of those actions listed in the jury
instructions. [Id.] The Magistrate Judge held that the
Kentucky Supreme Court’s holding that England’s
claim was procedurally defaulted due to trial counsel’s
failure to raise a contemporaneous objection barred
the Magistrate Judge from considering the constitutional merits of the claim. [R. 94 at 18.]6 In his Objection, England states that by directing the jury to not
follow the jury instructions, the Commonwealth violated his rights “under the Fourteenth Amendment as

6

The Magistrate Judge also found that “[t]here was no Due
Process violation because, in light of its argument as a whole, the
Commonwealth’s statement was not unfairly prejudicial or misleading.” [R. 94 at 19.]

App. 126
held by In Re Winship.” [R. 95 at 43 (citing In Re Winship, 397 U.S. 358, 364 (1970)).]
The Court agrees with the Magistrate Judge’s
findings and denies England’s objection. First, the
Court agrees that the state court’s finding of procedural default bars this Court from considering the
constitutional merits of the claim. “A petitioner procedurally defaults claims for habeas relief if the petitioner has not presented those claims to the state
courts in accordance with the state’s procedural rules.”
Simpson v. Jones, 238 F.3d 399, 406 (6th Cir. 2000) (citing Wainwright v. Sykes, 433 U.S. 72, 87 (1977); Coe v.
Bell, 161 F.3d 320, 329 (6th Cir. 1998); Couch v. Jabe,
951 F.2d 94, 96 (6th Cir. 1991)). A federal claim brought
by a state prisoner in a habeas action may become procedurally defaulted in state court in two different
ways. See Williams v. Anderson, 460 F.3d 789, 806 (6th
Cir. 2006). A prisoner first may procedurally default a
given claim by failing to comply with an established
state procedural rule when presenting his claim at
trial or on appeal in the state courts. See Wainwright,
433 U.S. at 87. Additionally, procedural default can
occur when a petitioner completely “fail[s] to raise a
claim in state court, and pursue that claim through the
state’s ordinary appellate review procedures.” Carter v.
Mitchell, 693 F.3d 555, 563 (6th Cir. 2012) (quoting
Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006);
O’Sullivan v. Boerckel, 526 U.S. 838, 848 (1999)).
To determine whether a claim is procedurally defaulted, the Sixth Circuit applies the 4–prong test announced in Maupin v. Smith, 785 F.2d 135, 138 (6th

App. 127
Cir. 1986). The Sixth Circuit in Greer v. Mitchell, 264
F.3d 663, 672 (6th Cir. 2001) explained the Maupin test
as follows:
This court’s Maupin decision sets out four inquiries that a district court should make when
the state argues that a habeas claim has been
defaulted by petitioner’s failure to observe a
state procedural rule. First, the court must determine whether there is such a procedural
rule that is applicable to the claim at issue
and whether the petitioner did, in fact, fail to
follow it. Maupin, 785 F.2d at 138. Second, the
court must decide whether the state courts actually enforced its procedural sanction. Id.
Third, the court must decide whether the
state’s procedural forfeiture is an “adequate
and independent” ground on which the state
can rely to foreclose review of a federal constitutional claim. “This question will usually involve an examination of the legitimate state
interests behind the procedural rule in light
of the federal interest in considering federal
claims.” Id. And, fourth, the petitioner must
demonstrate, consistent with Wainwright v.
Sykes, 433 U.S. 72, 97 S.Ct. 2497, 53 L.Ed.2d
594 (1977), that there was “cause” for him to
neglect the procedural rule and that he was
actually prejudiced by the alleged constitutional error. Id.; see also Scott v. Mitchell, 209
F.3d 854, 864 (6th Cir.), cert. denied, 531 U.S.
1021, 121 S.Ct. 588, 148 L.Ed.2d 503 (2000).
Id. Here, the Kentucky Supreme Court found that
counsel failed to object to the Commonwealth’s

App. 128
comment during closing as required under RCr 9.22,
and the Commonwealth’s comment was not “palpable
error,” thus not reversible under RCr 10.26. See England, No. 2003-SC-0328-MR, 2005 WL 1185204, at *89. England has not demonstrated that there was cause
to neglect RCr 9.22’s requirement of a contemporaneous objection. Furthermore, he does not explain how
this error prejudiced him when he was not convicted of
murder by the jury but complicity to murder.
Even if there was not an issue of procedural default present, England’s Fourteenth Amendment argument under In re Winship fails because that case is
inapplicable to the matter at hand. In In re Winship,
the Supreme Court held that juveniles are entitled to
the standard of proof beyond a reasonable doubt when
charged with the violation of a criminal law. See 397
U.S. at 365. This does not support England’s contention
that “[t]he jury was required to find all three of these
shared elements in order to find him guilty under In
Re Winship.” [R. 95 at 43.]
In sum, the Court agrees with the Magistrate
Judge’s findings regarding Claim 11 and denies England’s objection.
F. Claim 15
Under Claim 15, England argued that his rights
under the Sixth and Fourteenth Amendments were violated when “the trial court refused to grant a new
trial when presented with Brady evidence and DNA.”
[R. 95 at 3; R. 91 at 27.] Specifically, this was the

App. 129
previously mentioned evidence of the Caucasian hairs
in Ms. Halvorson’s hands and underwear and the
sperm in her vagina. [Id.] The Magistrate Judge held
that a Brady violation did not occur because England
did not show that “any physical evidence favorable to
the accused existed, was exculpatory, and was suppressed as required to support a Brady claim.” [R. 94
at 22.] Furthermore, the Magistrate Judge found that
“[e]ven if such evidence existed and would have linked
other individuals to Lisa’s murder, the evidence falls
short of being exculpatory as it does not change the fact
that competent evidence supported Petitioner’s conviction of complicity to commit murder.” [Id.] England objects to the Magistrate Judge’s holding, stating that he
had a right to place this evidence before a jury in order
to demonstrate that “the last person Lisa saw when
she was alive was her killer and his name is in those
hairs that were clenched in her fists that has never
been tested.” [R. 95 at 4-5.]
The Court agrees with the Magistrate Judge’s
findings and denies England’s objection. England has
provided no further evidence or explanation in support
of a Brady claim.7 Moreover, the evidence England
speaks of does not affect the evidence that was before
the trial court supporting his conviction of complicity
7

“There are three components of a true Brady violation: The
evidence at issue must be favorable to the accused, either because
it is exculpatory, or because it is impeaching; that evidence must
have been suppressed by the State, either willfully or inadvertently; and prejudice must have ensued.” Strickler v. Greene, 527
U.S. 263, 281–82 (1999).

App. 130
to commit murder. Thus, England’s objection to the
Magistrate Judge’s findings under Claim 15 is denied.
G. Claim 16
Claim 16 is a continuation of the arguments in
Claim 15. Specifically, England argued that his Sixth
and Fourteenth Amendment rights were violated
“when the trial court refused to order DNA testing on
the Brady evidence found on Lisa’s body, which were
not of African-American origin.” [R. 1 at 10.]8 The Magistrate Judge held that revealing the identity of another person possibly involved in the murder of Ms.
Halvorson would not change the fact that “competent
evidence supported Petitioner’s conviction of complicity to commit murder.” [R. 94 at 23.] Moreover, the
Magistrate Judge concluded that England did not
show that “DNA hair testing and disclosure of the results to Petitioner would have likely resulted in a different verdict.” [Id.]
England objects to this finding under several arguments. First, England contends:
[U]nder the charge of complicity, only McCray
[sic] was named, neither Jenkins nor Pat
Halvorson were named, thus, if the last person who Lisa saw alive was her killer attested
forensically by the Caucasion [sic] hairs found
in her clenched fists, then there is no competent evidence to support a conviction for
8

The Court notes that England and McCary are African
American.

App. 131
complicity to murder, for there was no evidence to suggest that England was complicit
with anyone to Lisa’s murder.
[R. 95 at 5.] Second, England argues that, under Kentucky law, if he was acquitted as the principle, he could
not be convicted as complicit to the murder. [Id.] Lastly,
England claims that he has met the burden required
under Stopher v. Simpson, No. 3:08-CV-9-DJH-CHL,
2017 WL 957423 (W.D. Ky. Mar. 10, 2017), to conduct
an evidentiary hearing regarding the testing of DNA.
[Id. at 6.]
The Court agrees with the Magistrate Judge’s
findings and denies England’s objections. As an initial
matter, the Court finds that England’s first and second
arguments depend on an incorrect interpretation of
Kentucky law. Kentucky Revised Statute (KRS)
§ 502.030 states:
In any prosecution for an offense in which the
criminal liability of the accused is based upon
the conduct of another person pursuant to
KRS 502.010 and 502.020, it is no defense
that:
(1) Such other person has not been prosecuted for or convicted of any offense based on
the conduct in question, or has previously
been acquitted thereof, or has been convicted
of a different offense, or has an immunity to
prosecution or conviction for such conduct
Ky. Rev. Stat. Ann. § 502.030(1). Moreover, as cited by
the Kentucky Court of Appeals, the Kentucky Supreme

App. 132
Court stated: “The principal actor’s mental state with
respect to his own conduct, or the degree of his criminal liability, is largely immaterial to the criminal liability of an accomplice or the degree thereof.” Tharp v.
Commonwealth, 40 S.W.3d 356, 365 (Ky. 2000); Moore
v. Commonwealth, No. 2006-SC-000315-MR, 2008 WL
3890039, at *3 (Ky. Aug. 21, 2008) (“In this case, Appellant argues that his conviction of Complicity to
Murder requires a finding by the jury that the principals (Reece and Overbee) were guilty of Murder. We
disagree.”). Thus, England’s liability for complicity to
murder does not depend on the liability of the principle. Also, murder, like other offenses, is capable of being committed as a principal actor or a complicitor.
Therefore, just because England was acquitted of murder as the principal actor does not mean he could not
be convicted as complicitor to the murder. K.R. v. Commonwealth, 360 S.W.3d 179, 186 (Ky. 2012) (“Rather
than being a separate crime, complicity is simply the
means of committing another crime.”).
Regarding England’s final argument, the Court
finds that England has not met the burden required to
entitle one to an evidentiary hearing. Ultimately, “the
decision of whether to hold an evidentiary hearing is
within the discretion of this Court.” Stopher, No. 3:08CV-9-DJH-CHL, 2017 WL 957423, at *2 (citing Schriro
v. Landrigan, 550 U.S. 465, 474 (2007)). Furthermore,
“if the record refutes the applicant’s factual allegations
or otherwise precludes habeas relief, a district court is
not required to hold an evidentiary hearing.” Id. Here,
England requests habeas relief from his conviction of

App. 133
complicity to commit murder, but there is evidence in
the record, including England’s confession, that England is guilty of that charge. This evidence precludes
habeas relief; thus, the Court is not required to hold an
evidentiary hearing. See id.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 16 are denied.
H. Claim 17
Under Claim 17, England argued that his rights
under the Sixth and Fourteenth Amendment were denied when his counsel failed to “contemporaneously object to the fatal variance and constructive amendment
to the indictment.” [R. 47 at 2.] The Magistrate Judge
held that the finding of the Kentucky Court of Appeals
was not contrary to Supreme Court Precedent. [R. 94
at 23.] Specifically, the Kentucky Court of Appeals
stated:
Because the Commonwealth sought and received permission from the trial court to
amend the indictment to include complicity
to commit murder, this instruction did not “fatally vary” from the indictment nor did it
operate as a “constructive amendment.” Consequently, all [ineffectiveness] claims brought
under this theory lack merit.
[Id. (citing England v. Commonwealth, No. 2007-CA000935-MR, 2008 WL 4182027, at *3 (Ky. Ct. App. Sept.
12, 2008)).] The Magistrate Judge also concluded in the

App. 134
alternative that England’s claim is procedurally defaulted. [R. 94 at 24.]
England objects to the findings of the Magistrate
Judge, arguing that Supreme Court precedent prohibits a trial court from amending an indictment after its
returned by a grand jury. [R. 95 at 8 (citing Stirone v.
United States, 361 U.S. 212, 217-19 (1960); Russell v.
United States, 369 U.S. 749, 770 (1962)).] True, the Supreme Court held in Stirone that “it has been the rule
that after an indictment has been returned its charges
may not be broadened through amendment except by
the grand jury itself ” 361 U.S. at 215–16. However, in
the matter at hand, the indictment was not broadened
nor were new charges added because, under Kentucky
law, “amending the indictment to include an allegation
that the defendant is guilty of the underlying charge
by complicity does not constitute charging an additional or different offense.” Commonwealth v. Combs,
316 S.W.3d 877, 880 (Ky. 2010).
Also, England argues that his counsel was ineffective for failing to object to the jury instructions that
contained this alleged constitutional error. [R. 95 at 8.]
As the Court already explained, the trial court did not
violate the Supreme Court precedent of Stirone by
amending the indictment to include complicity to the
underlying charge. Thus, this omission of counsel is
“the result of reasonable professional judgment,” and
falls short of the standard required for ineffective assistance of counsel, as described in Strickland v. Washington. 466 U.S. 668, 690 (1984).

App. 135
Finally, England argues, once again, that his acquittal of murder as the principal actor precluded the
jury from finding him guilty of complicity to the murder. [R. 95 at 9.] As the Court previously explained, this
is an incorrect interpretation of Kentucky law.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 17 are denied.
I.

Claim 18

Claim 18 derives from the error claimed in Claim
17. England argues that in addition to what was stated
in Claim 17, his counsel rendered ineffective assistance of counsel when he failed to object to the jury instruction that allegedly required the jury to find
McCary guilty of murder as the principle actor in order
to find England guilty as complicitor. [R. 95 at 13.] In
support, England cites to the United States Supreme
Court’s findings in Sandstrom v. Montana, 442 U.S. 510
(1979), and the findings of the Kentucky Supreme
Court in Fields v. Commonwealth, 219 S.W. 3d 742, 759
(Ky. 2007). [R. 95 at 12-13.]
Although the jury instructions have not been provided in the record before the Court, the Court finds
that even if the instructions did assume McCary’s guilt
as principle actor in the murder, the error was harmless. As previously discussed, McCary’s liability as
principle has no effect on England’s liability under
complicity to the murder. Tharp, 40 S.W.3d at 365;
Moore, No. 2006-SC-000315-MR, 2008 WL 3890039, at
*3. Thus, the Court finds that such an error would not

App. 136
have been prejudicial. McKinney v. Heisel, 947 S.W.2d
32, 35 (Ky. 1997) (quoting Trevillian v. Boswell, 241 Ky.
237, 43 S.W.2d 715, 18-19 (1931) (“It is a general rule
that an error in the instructions is ground for reversal,
unless it affirmatively appears that it was not prejudicial.”).
Furthermore, after examining the cases cited by
England, i.e., Sandstrom and Fields, the Court finds
neither case is on point. In Sandstrom, the Supreme
Court found a jury instruction to be unconstitutional
when the jury may have interpreted it as allowing
them to presume there was intent upon finding that
the petitioner’s act was voluntary. 442 U.S. at 517-24.
Whereas, in the matter at hand, England claims the
jury instructions allowed the jury to presume a separate defendant, McCary, had committed murder, relieving the Commonwealth of its responsibility of proving
McCary committed the crime before England’s trial.
[R. 95 at 12.] Beyond the fact that it was never necessary for McCary to be convicted of murder before the
commencement of England’s trial, Sandstrom can be
distinguished in that the alleged error did not affect
England’s conviction of complicity as it did the petitioner in Sandstrom.
In Fields, the Kentucky Supreme Court found that
the defendant was not entitled to a jury instruction for
assault in the fourth degree as a lesser included offense to complicity to assault in the second degree because they constituted two separate offenses. Fields,
219 S.W.3d at 750. In contrast, as the Court previously
explained, complicity to murder is not considered a

App. 137
separate offense from murder under Kentucky law.
Combs, 316 S.W.3d at 880.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 18 are denied.
J. Claim 20
In Claim 20, England claimed that his rights under the Sixth Amendment, Fourteenth Amendment,
and the Confrontation Clause were violated when his
counsel failed to object when the Commonwealth
stated in his closing argument: “What do you think
Tyrone [McCary] would have said? I bet he would have
said Steven England did it all.” [R. 94 at 26.] The Magistrate Judge held that the state court’s adjudication of
England’s claim was not contrary to Supreme Court
precedent when it held that counsel was effective for
choosing not to object to the comment because the
comment was not improper. [Id.]
England first objects to the Magistrate Judge’s
findings on the grounds that the statement constituted
inadmissible hearsay and, moreover, “the Commonwealth’s statements to the jury equated to the Commonwealth testifying to facts it alluded to that it alone
knew of. . . .” [R. 95 at 14-15.] The Commonwealth’s
comment consisted of the Commonwealth attorney
guessing what McCary “would have said.” Thus, this
was not an actual statement from McCary, and it cannot be considered hearsay or a “fact” that the attorney
“alone knew of.”

App. 138
England also objects on the grounds that his counsel was ineffective when he failed to object to the Commonwealth’s statement during closing. [R. 95 at 15.]
As an initial matter, the Court notes that, in Kentucky,
attorneys have “great leeway in making closing arguments.” Brewer v. Commonwealth, 206 S.W. 3d 343, 350
(Ky. 2006). Furthermore, as the Court has found that
the statement at issue did not amount to hearsay or
testimony by the attorney, it was objectively reasonable for the attorney to refrain from objecting to the
Commonwealth’s statement.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 20 are denied.
K. Claim 21
Under Claim 21, England claimed that his rights
under the Sixth Amendment, Fourteenth Amendment,
and the Confrontation Clause were violated when his
counsel failed to object to the introduction of statements made by Halvorson, who did not testify, to Poindexter. [R. 91-1 at 10.] Specifically, Poindexter testified
that Lisa told her, as she spoke on the phone with
McCary, that McCary told her that if he could not have
her, nobody would. [R. 94 at 26.] The Magistrate Judge
held that this claim was procedurally defaulted because the state court’s holding by way of procedural
rule was an independent and adequate reason for the
Magistrate Judge not to reach the merits. [R. 94 at 27.]9
9

In detail, the Magistrate Judge quoted the Kentucky Court
of Appeals’s finding that the statements, whether ascribed to

App. 139
Alternatively, the Magistrate Judge held that “counsel
was effective despite not objecting to Poindexter’s testimony under the theory that the declarant was
McCary because McCary’s statements were nontestimonial and, hence, constitutionally admissible.” [Id.]
As the Court understands it, England’s objection
consists of the argument that his ineffective assistance
of counsel claim should survive procedural default under Leonard v. Commonwealth, 279 S.W. 3d 151 (Ky.
2009). [R. 95 at 20-22.] Furthermore, he asserts that
his counsel was ineffective when he failed to object to
Poindexter’s testimony as a violation of the Confrontation Clause under Crawford.
In Crawford, the Supreme Court imposed an “absolute bar to statements that are testimonial, absent a
prior opportunity to cross-examine. . . .” 541 U.S. 36, 61
(2004). However, the Supreme Court stated that an
“off-hand, overheard remark,” such as the one at issue,
“bears little resemblance to the civil-law abuses the
Confrontation Clause targeted.” Crawford, 541 U.S. at
51 (2004). Moreover, the examples of “testimony” given
by the Court in Crawford, such as ex parte testimony
at a preliminary hearing or statements taken by a police officer during an interrogation, are quite unlike
the statement at issue. Id. at 51-52. Thus, even if the
claim were to survive procedural default, the Court
finds that the Confrontation Clause does not apply to
Halvorson or McCary, were addressed by direct appeal and, thus,
England was prohibited from raising the issue again. [R. 94 at
27.]

App. 140
McCary’s statement as it was nontestimonial. As there
was no violation of the Confrontation Clause, counsel’s
decision not to object was “the result of reasonable professional judgment,” and falls short of the standard
required for ineffective assistance of counsel, as described in Strickland. 466 U.S. at 690.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 21 are denied.
L. Claim 22
Under Claim 22, England argued his rights under
the Sixth and Fourteenth Amendment were violated
when his counsel was ineffective by failing to object to
the systematic exclusion of African Americans from
the grand jury. [R. 91-1 at 16; R. 95 at 23.] The Magistrate Judge held that England’s claim “is without merit
because it lacks a supporting factual basis” and the
Kentucky Court of Appeals’s adjudication was not
contrary to Supreme Court precedent. [R. 94 at 28.]
England objects on two different grounds. First, England claims that he is entitled to an RCr 11.42 evidentiary hearing on this issue. Secondly, England contends
that the Magistrate Judge erred by citing to Taylor v.
Louisiana, 419 U.S. 522 (1975), in considering England’s claim, rather than the ineffective assistance of
counsel analysis required by Strickland. [R. 95 at 26.]
Regarding England’s first argument, the Court
finds that England has not provided what is required
for the Court to grant an evidentiary hearing: “a material issue of fact that cannot be conclusively resolved,

App. 141
i.e., conclusively proved or disproved, by an examination of the record.” Fraser v. Commonwealth, 59 S.W.3d
448, 452 (Ky. 2001). England states that “he alleged
sufficient facts that required further inquiry by an
evidentiary hearing . . . ,” [R. 95 at 25], but he never
actually provides these allegations of fact, nor can the
Court find any such allegations in the record before it.
As for England’s second argument, the Court finds
that England mischaracterizes the Magistrate Judge’s
reference to Taylor. The Magistrate Judge properly
cited a quotation from Taylor in the context of recalling
his reasoning under Claim 8 of England’s petition—not
in support of the Magistrate Judge’s conclusion regarding Claim 22. [R. 94 at 28.] As for England’s claim of
ineffective assistance of counsel under Strickland, the
Court finds that defense counsel’s decision not to object
to the jury panel was reasonable in that there was no
evidence of systemic exclusion of African Americans.
Furthermore, England fails to analyze counsel’s actions under the analysis required under Strickland.
See Strickland, 466 U.S. at 690.10

10

Strickland requires:
[A] court deciding an actual ineffectiveness claim must
judge the reasonableness of counsel’s challenged conduct on the facts of the particular case, viewed as of
the time of counsel’s conduct. A convicted defendant
making a claim of ineffective assistance must identify
the acts or omissions of counsel that are alleged not to
have been the result of reasonable professional judgment. The court must then determine whether, in light
of all the circumstances, the identified acts or omissions were outside the wide range of professionally

App. 142
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 22 are denied.
M. Claim 23
In Claim 23, England contended that his rights
under the Sixth and Fourteenth Amendment were violated when his counsel failed to present a “defense
version” of transcripts from England’s conversation
with Woodfork during closing argument. [R. 91-1 at 24;
R. 95 at 29]. The Magistrate Judge held that England’s
claim “is without merit because the Kentucky Court of
Appeals articulated a ‘reasonable argument that counsel satisfied Strickland’s deferential standard’ as contemplated by Harrington v. Richter, 562 U.S. 86, 89
(2011).” [R. 94 at 29.] Specifically, the Magistrate Judge
quoted the portion of the Kentucky Court of Appeals’s
opinion in which the court held that England was
“merely disagreeing with his attorney’s strategy regarding closing argument” when his attorney “commented extensively on the audiotape and commented
extensively on the prosecution’s interpretation of the
tape giving his own opinion regarding the content of
the audiotape” instead of preparing a separate transcript from that presented by the Commonwealth. [Id.

competent assistance. In making that determination,
the court should keep in mind that counsel’s function,
as elaborated in prevailing professional norms, is to
make the adversarial testing process work in the particular case.
466 U.S. 668, 690 (1984).

App. 143
(quoting England, No. 2007-CA-000935-MR, 2008 WL
4182027, at *8).]
In his Objection, England argues that his counsel
was ineffective when he failed to “utilize a defense
version” of the transcript during his closing argument.
[R. 95 at 29.] England claims that under the precedent
of United States v. Robinson, 707 F.2d 872 (6th Cir.
1983), and Sanborn v. Commonwealth, 754 S.W.2d 534
(Ky. 1988), “[s]imply commenting extensively is not
sufficient to meet Strickland.” [R. 95 at 29.] The Court
disagrees.
In Sanborn, the Supreme Court of Kentucky found
that although “[i]t is within the discretion of a trial
judge to decide whether because portions of a tape
are inaudible or indistinct, the entire tape must be excluded. It is not, however, within the discretion of the
court to provide the jury with the prosecutor’s version
of the inaudible or indistinct portions.” Sanborn, 754
S.W.2d at 540 (citing Robinson, 707 F.2d at 876). However, Sanborn is distinguishable from the case at hand
in that Sanborn involved a transcript that was given
to the jury during the proof stage of trial, whereas,
here, the transcript was presented to the jury as a
theory of the case during closing argument. Id. Furthermore, England does not allege specific errors in
the Commonwealth’s transcript, unlike in Sanborn
where there were allegedly twenty-five specific instances of alleged error in the transcript. Id. As cited
by the Kentucky Court of Appeals, a similar situation
to the one at hand occurred in Norton v. Commonwealth, 890 S.W.2d 632, 637 (Ky. Ct. App. 1994), when

App. 144
the court distinguished the matter from Sanborn because there was no argument of inaccuracies in the
transcript and the transcript at issue was not made an
exhibit and taken to the jury room during deliberations. Thus, England’s objection to the Magistrate
Judge’s findings under Claim 23 is denied.
N. Claim 25
In Claim 25, England argued that his rights were
violated under the Sixth and Fourteenth Amendment
when his counsel failed to move for a change of venue
due to pre-trial publicity. [R. 91-1 at 30; R. 95 at 29.]
The Magistrate Judge held that “[b]ecause Supreme
Court law is not ‘clearly established’ in this respect, the
Kentucky Court of Appeals’ finding that any publicity
was non-prejudicial was not ‘unreasonable’ as contemplated by 28 U.S.C. 2254(d)(1). . . .” [R. 94 at 31.] The
Magistrate Judge quoted the Kentucky Court of Appeals where it stated:
According to McKinney v. Commonwealth,
445 S.W.2d 874, 877 (Ky.1969), the decision
whether or not to request a change of venue
falls within trial counsel’s discretion. Furthermore, upon appeal, in determining whether
trial counsel was ineffective, we must give
deference to the attorney’s performance.
Harper v. Commonwealth, 978 S.W.2d 311,
315 (Ky.1998). In the present case, England
does not explain how he was prejudiced by
his counsel’s decision not to seek a change of
venue; moreover, he does not claim that he
did not receive a fair trial in Graves County.

App. 145
Given the lack of supporting facts and given
the strong presumption that the performance
of England’s counsel fell within the wide
range of reasonable professional assistance,
we find that this claim did not establish ineffective assistance of counsel. (2008 WL
4182027, at *9).
[R. 94 at 31 (citing England, No. 2007-CA-000935-MR,
2008 WL 4182027, at *9).]
England objects to this finding on a few different
grounds. He contends that his attorney failed to investigate the possibility of making a motion to change the
venue in the face of bad press, such as newspapers allegedly “stating that England had confessed to murdering Lisa,” and failed to “preserve for appeal for a
determination of whether the trial court abused its discretion.” [R. 95 at 31.] He argues that prejudice was
apparent “if the community for which potential jurors
were to be selected to sit on England’s trial had it in
their minds, premised on the repeated newspaper articles claiming that England ‘had confessed to the murder,’ there was simply no need for them to even
impartially consider any other evidence presented during the trial.” [Id. at 32.] England also claims “[a]lways
was there the reminder that the victim was white
and the accused were black. This is still the South and
prejudice runs strong in the veins of Kentucky.” [Id. at
30.]
The Court agrees that England fails to explain
how he was prejudiced by his counsel’s decision not to
seek a change of venue. As explained by the Magistrate

App. 146
Judge, the state court’s finding cannot be found as “unreasonable” because the Supreme Court has yet to
provide a precise standard from determining when a
change of venue is appropriate. See Yarborough v.
Alvarado, 541 U.S. 652, 666 (2004) (explaining that
“[s]ection 2254(d)(1) would be undermined if habeas
courts introduced rules not clearly established under
the guise of extensions to existing law”). The Supreme
Court of Kentucky has stated:
A corollary to the right to an impartial jury is
that a change of venue may be constitutionally required where the jurors’ “minds [are]
ineradicably poisoned” by prejudicial publicity. In order to justify a change of venue on
these grounds, a defendant must show that
“there is a reasonable likelihood that the accounts or descriptions of the investigation and
judicial proceedings have prejudiced” him,
though it is not enough “that jurors may have
heard, talked, or read about a case.”
Watkins v. Commonwealth, No. 2008-SC-000798-MR,
2011 WL 1641764, at *13 (Ky. Apr. 21, 2011) (citations
omitted). Furthermore, “[g]reat weight is given to the
trial court’s decision because the judge is present in
the county and is presumed to know the situation.”
Stopher v. Commonwealth, 57 S.W.3d 787, 795 (Ky.
2001).
England provides no specific examples of how he
was prejudiced that would have made it objectively unreasonable for his attorney not to move for a change in
venue. For instance, England never claims that a juror

App. 147
had to be excused due to any fixed opinions of guilt or
that the trial court failed to excuse any biased jurors.
See, e.g., Watkins, No. 2008-SC-000798-MR, 2011 WL
1641764, at *14 (considering the percentage of excused
jurors due to bias and the absence of any alleged error
by the court in failing to excuse biased jurors in finding
that the trial setting was not prejudicial). Mainly, England claims that the local newspapers suggested that
he had confessed to murder. However, after examining
the newspaper clipping exhibits cited by England, [R.
95 at 30 (citing Memorandum of Law and Fact in Support of RCr 11.42 Motion, Exhibits 1-29).], the Court
found no such article.11 England also claims that the
newspaper articles provoked racism in the area, but he
does not provide evidence or an explanation of how this
affected the jury pool. Thus, England fails to prove that
he was prejudiced by the publicity of the trial to the
extent that his counsel’s failure to move for a change
of venue due to such publicity was objectively unreasonable.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 25 are denied.

11

In one article, Detective John Saylor was quoted as claiming that England confessed to “taking part in the murder” during
a taped interview. [See Memorandum of Law and Fact in Support
of RCr 11.42 Motion, Exhibits 3.] However, none of the articles in
the record claim that England confessed to murdering Halvorson.

App. 148
O. Claim 26
In England’s final claim, he argued that his rights
under the Sixth and Fourteenth Amendment were violated when his counsel failed to move for suppression
of the recorded conversations between England and
Woodfork under 18 U.S.C. § 2511. [R. 95 at 34; R. 91 at
86-96.] The Magistrate Judge held that the claim is
procedurally defaulted due to the state court barring
the claim based on a state procedural rule. [R. 94 at
32.] Alternatively, the Magistrate Judge held that the
state court’s holding that there was no need for a court
order under § 2511 was not contrary to Supreme Court
precedent. [Id.]
In his Objection, England argues that his counsel
was ineffective when he failed to move to suppress the
recorded conversation between England and Woodfork.
[R. 95 at 36.] England contends that “[a]cting as a KSP
under cover and the color of law, Woodfork was not
authorized to be in England’s residence. . . .” [Id. at 34
(citing United States v. Kam, 468 U.S. 705, 706 (1984).]
Furthermore, England asserts that the police were required to seek judicial approval before sending Woodfork to record conversations with England [Id. at 35-36
(citing Gelbard v. United States, 408 U.S. 41, 46 (1972).]
Also, in response to the Magistrate Judge’s finding of
procedural default, England argues that he is authorized to present this claim in the context of an ineffective assistance of counsel claim. [Id. at 37 (citing
Martin v. Commonwealth, 207 S.W.3d 1 (Ky. 2006)).]

App. 149
Even without considering the issue of procedural
default, the Court agrees that the state court’s finding
was not contrary to Supreme Court precedent. The
Supreme Court has stated: “Neither the Constitution
nor any Act of Congress requires that official approval
be secured before conversations are overheard or
recorded by Government agents with the consent of
one of the conversants.” United States v. Caceres, 440
U.S. 741, 744 (1979) (citing United States v. White, 401
U.S. 745, 752 (1971) (finding that a police agent who
conceals his police connections may record a conversation with electronic equipment without violating the
other party’s Fourth Amendment rights) (plurality
opinion); Lopez v. United States, 373 U.S. 427, 437
(1963) (holding that an agent, who entered defendant’s
office with defendant’s consent, did not violate defendant’s Fourth Amendment’s rights when he recorded
their conversation); 18 U.S.C. § 2511(2)(c)). Moreover,
§2511(2)(c) provides: “It shall not be unlawful under
this chapter for a person acting under color of law to
intercept a wire, oral, or electronic communication,
where such person is a party to the communication or
one of the parties to the communication has given prior
consent to such interception.”18 U.S.C. § 2511 (emphasis added). As it is undisputed that Woodfork was a
party to the conversation, [See R. 95 at 34, 36; R. 94 at
32], the recording of Woodfork and England’s conversation was lawful. See 18 U.S.C. § 2511. Despite England’s contention, the fact that England was unaware
that he was being recorded has no effect on the legality
of the recording. See White, 401 U.S. at 752; Lopez, 373
U.S. at 437.

App. 150
Furthermore, the Court finds that the Supreme
Court cases cited by England to support his arguments
are distinguishable from the matter at hand. First,
England cites to United States v. Karo as support for
the contention that “[a]cting as a KSP under cover and
the color of law, Woodfork was not authorized to be in
England’s residence. . . .” [R. 95 at 34.] In Karo, the
Supreme Court held that the warrantless installation
of a monitoring beeper did not violate any one’s Fourth
Amendment rights; however, the monitoring of the
beeper did violate privacy interests under the Fourth
Amendment. Karo, 468 U.S. at 716. Here, no device was
secretly installed in England’s home and monitored by
the police.
Also, England cites Gelbard v. United States, to
support his argument that the police were required
to seek judicial approval before sending Woodfork to
record conversations with England [Id. at 35-36.] In
Gelbard, the Supreme Court held that § 2515 is an
available defense to a contempt charge when the defendants refused to testify about their conversations
recorded via an allegedly illegal wiretap on the telephone. 408 U.S. at 51. However, unlike this case, the
agent who intercepted the communication in Gelbard
was not a party to the conversation, as required under
§ 2511(2)(c). Thus, both cases are distinguishable from
the situation before the Court.
In sum, England’s objections to the Magistrate
Judge’s findings under Claim 26 are denied.

App. 151
P. Certificate of Appealability (COA)
Before England may appeal this Court’s decision,
a certificate of appealability must issue. 28 U.S.C.
§ 2253(c)(1)(A); Fed. R. App. P. 22(b). A certificate of appealability may issue “only if the applicant has made a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529
U.S. 473, 483 (2000). “Where a district court has rejected the constitutional claims on the merits, the
showing required to satisfy § 2253(c) is straightforward: The petitioner must demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Slack,
529 U.S. at 484.
At the end of each of the seventeen claims listed,
England requests that a COA be issued. However, in
accordance with the Court’s analysis under each claim
above, the Court finds that reasonable jurists would
not find the district court’s assessment of the constitutional claims to be debatable or wrong. Thus, a COA for
these claims is DENIED.
CONCLUSION
In sum, the Court has “ma[d]e a de novo determination of those portions of the report or specified proposed findings or recommendations to which objection
is made.” 28 U.S.C. § 636(b)(1). For the reasons set
forth above, the Court ADOPTS the Magistrate
Judge’s Findings of Fact and Conclusions of Law, [R.
94], consistent with the analysis set forth in this

App. 152
Memorandum Opinion. Therefore, England’s Objections to the Magistrate Judge’s Recommendations, [R.
95], are DENIED. England’s request for a Certificate
of Appealability on each of these claims listed herein is
DENIED.
[SEAL]
cc: Counsel of Record
Stevie Lyn England, Pro Se
165894
Kentucky State Penitentiary
266 Water St.
Eddyville, KY 42038

/s/ Thomas B. Russell
Thomas B. Russell,
Senior Judge
United States
District Court
September 11, 2018

App. 153
COMMONWEALTH OF KENTUCKY
GRAVES CIRCUIT COURT
Indictment No. 01-CR-00068
COMMONWEALTH OF KENTUCKY

PLAINTIFF

VS.
STEVE ENGLAND

DEFENDANT

TRANSCRIPT OF AUDIO TAPE TITLED
“STEVE ENGLAND INTERVIEW 3-30-01”
Detective John Saylor
Detective Eric Walker
Kentucky State Police
Post 1
Hickory, Kentucky
Sergeant Steve Hendley
Mayfield Police Department
Mayfield, Kentucky
Stevie England
March 30, 2001
Kentucky State Police
Post 1 Headquarters
Hickory, Kentucky,

[1] SAYLOR: This is John Saylor with the
Kentucky State Police. The date is March 30th of 2001.
The time is 1710 hours. We are in the conference room
of Post 1 Mayfield, and I’m speaking to Mr. Steve

App. 154
England. Steve, like I said I am required to read you
your rights. You do have the right to remain silent. Anything you say can be used against you in court. You
have the right to an attorney. If you can’t afford one,
one will be appointed for you. Do you understand those
rights.
ENGLAND:

Yes, sir.

SAYLOR: Just, just coming in the room is
Sgt. Steve Hendley with the Mayfield Police Department, who will be sitting in on the interview with Mr.
England. Is it England or English?
ENGLAND:

England.

SAYLOR: England. Okay. Alright. Lets see
here. Are those loose enough?
ENGLAND:

Yeah, they’re fine.

SAYLOR: Let me get some information from
you real quick, Steve. Is it Steve, Steven or?
ENGLAND:
SAYLOR:

Stevie?

ENGLAND:
SAYLOR:

Yeah.

Oh, okay. S T E V I E?

ENGLAND:
SAYLOR:

Stevie. S T E V I E.

Um hmm.

And what’s your middle initial

Steve?
ENGLAND:

L.

App. 155
SAYLOR:

E N G L A N D?

ENGLAND:
SAYLOR:
dress we . . .

And I don’t even know what ad-

ENGLAND:
SAYLOR:

Um hmm.

701 West Water.

What’s your date of birth, Stevie?

[2] ENGLAND: 11, 15, 60.
SAYLOR:

That makes you . . .

ENGLAND:

40 years old.

SAYLOR: Yeah. Okay. And can I get your social security number please.
ENGLAND:
SAYLOR:

XXX-XX-XXX.

How are tall are you, Steve?

ENGLAND: About six two and a half.
Weight about two thirty-five.
SAYLOR: Now, do you have any scars,
marks, tattoos or mutation?
ENGLAND: I got a tattoo.
SAYLOR:

What kind of tattoo?

ENGLAND: Tribal with an E in the middle
of it. Its called a Tribal and its just got my middle, my
last intial. And scars, I got scars all over me.

App. 156
SAYLOR: Alright. And you want anything to
drink or anything before we start.
ENGLAND:
SAYLOR:

Yeah, what do you want?

ENGLAND:
SAYLOR:
or something.

Oh, just, water’d be fine.

Just water? I can get you a Coke

ENGLAND:
SAYLOR:

Yeah, I am kind of thirsty.

Coke.

Coke?

ENGLAND:

Yeah, Coke’d be fine.

HENDLEY:

Don’t want no Diet Coke.

ENGLAND:

Un umm.

HENDLEY:

Can’t have that.

SAYLOR: You said you got a lot of scars. Any
that really stand out?
[3] ENGLAND: No. No, I got a, I ruptured
my Achilles tendon. I think it was on this leg.
SAYLOR:
didn’t you?

You played football with Bubba

ENGLAND: Yep. Little bit of everything.
Baseball, basketball. Little bit of everything.
SAYLOR:

He said he – you play at Mayfield?

App. 157
ENGLAND: I played at Mayfield for like two
years. Well, all through school. I went to Sedalia my
last two years.
SAYLOR: Oh yeah, yeah. Okay. Lets see. You
said you had three kids?
ENGLAND:
SAYLOR:

Yeah.

How old are your kids?

ENGLAND: My oldest son is 15. My youngest – my daughter’s 14. I got one that’s like 12, 11.
SAYLOR:

15, 14, 11.

ENGLAND: Yeah, my oldest son, he’s playing, he’s playing basketball. He’s starting for Mayfield
right now.
SAYLOR:

Oh, is that right?

ENGLAND:
preciate that.
SAYLOR:

Yeah. Thank you, Bubba. I ap-

Hang on just a second.

HENDLEY: Always wipe my tops off, man. I
don’t never know who’s handling . . .
ENGLAND:

Ain’t that the truth.

HENDLEY:
they found Aubrey?

You see, uh, you heard where

ENGLAND:
ing, yeah. Man.

Yeah, I heard that this morn-

App. 158
HENDLEY:

Man it was ugly.

ENGLAND:

Was it? You seen it?

HENDLEY: I was out there. That body was
bloated. I bet, I bet – as far as looking at him, he looked
like he weighed three and a half.
[4] ENGLAND: God, man.
HENDLEY: I tell you how big it was. You
could sit, you could stand on the bridge, and I could
have showed it to you. He was hung up on a tree, and
it looked like a sand barge.
ENGLAND:
rible, man.

Unh unh unh, nasty. That’s ter-

HENDLEY:

Yeah, it is.

ENGLAND:

Terrible stuff like that, man.

HENDLEY:

Yep.

ENGLAND: I don’t know what the motive
was, I mean, whatever it was, its not worth taking nobody’s life. That’s all I’m gonna say about that.
HENDLEY: You know, course, I don’t know,
they, they probably had a good (inaudible), but that
pretty much aired.
ENGLAND:

That done it right there, didn’t

it?
HENDLEY: Yeah, pretty much. But see they
got, we had people calling up saying “oh man, did he

App. 159
get” – we had one guy call on Crimestoppers and said
Aubrey was in, had flown to Las Vegas and was getting
plastic surgery to change his identity. Let me tell you.
ENGLAND: Boy, I tell you what. I hate to
say this, but, man, what happened to your buddy?
HENDLEY:

Which one?

ENGLAND:

Ronnie.

HENDLEY:

Hey, man.

ENGLAND: I’m gonna tell you something.
This is, is me and you talking. The night that they arrested me, we’s standing out there in front of my
house? If I’d known about that about that VCR you
know what I would have said? Yell would have probably got mad. I’d have said “please don’t let man take
that VCR.”
HENDLEY: Hey, when you’re dirty man you
got to, and you know.
ENGLAND:
make sense.
HENDLEY:

Man, that’ don’t, but it don’t
No.

[5] ENGLAND: Nothing like that. That’s
just pity. I mean it don’t, that don’t make no. That was
pity.
HENDLEY: Well, see, as far as that, that
wasn’t nothing compared to what the damn (inaudible)
investigation got on him. And then (inaudible)

App. 160
ENGLAND: Yeah, but Bubba what I’m saying is, I mean know ya’ll got a job to do, I understand
that, you know what I’m saying?
HENDLEY:

Right.

ENGLAND: But don’t do something, don’t
be dirty and then turn and punish somebody else.
HENDLEY:

Exactly.

ENGLAND: You know what I’m saying? I
mean I don’t have no problem with you doing your job,
you know what I’m saying.
HENDLEY:

But I . . .

ENGLAND: And I’ll cooperate with you, but
don’t go out and do something, you know what I’m saying, and then turn around and, and.
HENDLEY: And then me be out here selling
stolen stereos. I want to tell you, man, I told, I told
some dudes before it ever happened, I said you, you
can’t treat people the way he treats people and it not
come back and hit you.
ENGLAND:

Um hmm.

HENDLEY:

And it sure did. Sure did.

SAYLOR: Okay, joining, joining us on the interview is Sergeant Eric Walker out of Unit 186 for the
Kentucky State Police. Um, lets see, Stevie I think I’ve
got all your personal information. I’m going to get right
to why you’re out here.

App. 161
ENGLAND:

Okay.

SAYLOR: Okay. I’m going to tell you what
we know. We know that you were present when Lisa
Halvorson was killed. We know you were paid money
to do it. Um, we know how it happened. We know it was
staged to make it look like she was run over by her own
vehicle. We know that Ty also promised you some [6]
more money after it was done and you’ve not been paid
yet, which may be good for you.
ENGLAND: Well, I’ll be honest with you. I’ll
be honest with you. I don’t know what you’re talking
about. I’ve never seen that woman. I don’t know that
woman. Me and Tyrone, we worked at the fire department together. We worked at Martin Marietta together.
If Tyrone had paid me money wouldn’t I have made
bond? My bond was fifteen thousand dollars. Don’t you
think I would have made bond if he’d paid me fifteen
thousand dollars or paid me what, anything.
SAYLOR: Well, you can’t pay a fifteen thousand bond with one thousand dollars, which is what he
paid you.
ENGLAND: No, I didn’t receive any money
from Tyrone. Like I said, Tyrone just come to my house
in the summer time. We’re friends and all that. And
that’s just, I mean that’s the way it is.
SAYLOR:

Well . . .

ENGLAND: Whatever somebody told you or
whatever information you got, I don’t know where you
got it from.

App. 162
SAYLOR: We know you have. We know you
have. As a matter of fact, um, now, now is the time to
be, to be straight with us. We’ve already talked to the
prosecutor, David Hargrove, on this.
ENGLAND:

Um hmm.

SAYLOR: And there’s, there’s room open for
some leeway on it There’s, if, if you want to cooperate
with us, now i the time, but I, I’m not bluffing. I’m not.
I’m telling you the truth. We’ve got you.
ENGLAND: Well, I mean you know, I guess
you’ll just have to go on and lock me up then and call
my lawyer, cause I don’t, I don’t know what you’re talking about. I’ll just be honest with you. Like I said, me
and Tyrone are friends. I’ve never seen that woman in
my life.
(Taped conversation is played)
SAYLOR:

That’s enough.

ENGLAND: I don’t have no shoes. I don’t
know, you what I’m saying. I don’t know. I don’t know.
You know what I’m saying.
[7] SAYLOR: Here’s what’s going to happen.
We’re, we’re looking for Tyrone right now, and he’s going to say its all you.
ENGLAND: I don’t know nothing about kill,
I don’t know, like said I ain’t gonna do nothing to nobody. I’ve not killed anybody. I don’t know that woman.
I wasn’t there in on that. You know what I’m saying? I
don’t nothing about it. I will say this, and this is all I’m

App. 163
gonna say. Yeah, he approached me with that, but I
didn’t. I didn’t do nothing about it.
SAYLOR:
proached you?

What did he say when he ap-

ENGLAND: Basically right there, but I
didn’t, you know what I saying.
SAYLOR:

Well, what did he say exactly?

ENGLAND: I, I ain’t gonna say nothing
about it. I ain’t gonna say nothing about it. I mean . . .
SAYLOR:

Then you’re going to go down for

Tyrone?
ENGLAND:
I, like I said I . . .
SAYLOR:
rest of this tape?

I’m not going down for nobody.

Do you want to hear what’s on the

ENGLAND: No, I’m not gonna go down for
nobody. I don’t know nothing about killing nobody. I haven’t done anything I’m just gonna tell you I don’t
know nothing about this.
SAYLOR: Well, Steve, the reason that we
brought you out here and the reason we didn’t just immediately tell you you were under arrest and take you
straight to jail is because we thought you might be
smart enough to try to work your way out of this instead of pulling this crap about “I don’t know”.
ENGLAND:

Well, what I’m saying is . . .

App. 164
SAYLOR:

Because we know you do know.

ENGLAND:

What I . . .

SAYLOR: You want me to pull out the pile of
tapes we got on you? Okay? We’ve been watching your
every move for about the past week, listening to every
word that you been saying. Okay? And if you’re going
to sit here and deny it, then we’re just going to go
ahead and take you and lock you up and let the Court
sort it out.
[8] You want to work something out, let’s work
something out. Now, this man right here, you’ve known
for how long?
ENGLAND:

For years.

SAYLOR: Okay. Ask him if we don’t have
you over a barrell. Ask him if we don’t have you by the
short hairs?
ENGLAND: So what do I need to do. I don’t
want to go to jail again tonight. Man, I can’t take no
more.
HENDLEY:

Stevie, listen to me. Listen to

ENGLAND:
man. Go ahead.

I can’t take no more of this,

me.

HENDLEY: I’m telling you this as a friend,
alright? Forget the badge. You need to tell them what
happened. You need to tell them about the deal with
Ty, because, now, this is punishable by death. Okay?

App. 165
ENGLAND:
HENDLEY:
straight in the face.
ENGLAND:

Um hmm, I know.
Now, and I’m gonna, I’m looking
Right.

HENDLEY: We know. Okay? They got it on
tape, you know, how it happened, what your part was.
This is your chance. Now, these boys ain’t like me. They
don’t give you but one chance to talk, and that’s what
they’re giving you right here. You can lawyer up or
whatever. But if you don’t cooperate and tell them your
side, because I keep saying when he picks up Ty, Ty’s
gonna say that you done every bit of it. I’m telling you,
Stevie, Ty’s gonna blame every bit of it on you. And this
is, this gonna be the only chance that you got to take
up yourself. Man, we got, we got six, seven, ten tapes of
people how it happened, where you was at. I’m telling
you as a friend. I played ball with you. They got you
You looking at the death penalty. I realize that you got
some other charges. Those are Mickey Mouse, Stevie.
This ain’t Mickey Mouse, buddy. The reason I’m here,
because I told them I said, “hey, I grew up with the boy.
He’s a, he’s a friend of mine. We’re on a different side
of the law, so to speak, but that, that to me, that don’t
draw a line. I still consider you a friend. I’m telling you
as a friend, you need to talk to them, buddy. You need
to talk.
ENGLAND: Okay, I’ll talk. I just, I’ll just tell
you what I know. You know, I, excuse me a minute.

App. 166
[9] HENDLEY: Take your time. But now listen to me, when you start, like I said, tell them the
truth, cause they, they can tell you. I, I'll tell you this,
and I promise you this, give you my word, they can tell
you everything that happened and what you did and
what he did, the whole story. so, that's why I want you
to tell the truth. Don't, they're not going to sit here all
night and listen to you make up a story. When you start
talking, I want you to tell them the gospel truth, cause
I'm telling you, Stevie, this is gonna be the only shot
you got.
SAYLOR: We have talked to the prosecutor,
Stevie. You can ask Bubba. We’ve talked to him. There’s,
there’s one deal. There’s one deal. Okay?
ENGLAND:

What is it?

HENDLEY:

And you cooperate.

SAYLOR: If you cooperate, one of these days
you might get to see your kids again.
ENGLAND:

Oh, man. Oh, man.

HENDLEY: Listen to him, Stevie. Here’s
what he’s telling you.
ENGLAND:

Oh, man.

HENDLEY: If you take this on your own,
you know what will happen? The County Attorney is
going to seek the death penalty on you, buddy.
ENGLAND:

Man.

App. 167
HENDLEY: I’m telling you this as a friend.
I ain’t telling you this . . .
ENGLAND: Am I going back to jail tonight?
I want to see my daddy one more time.
HENDLEY:

We’ll work, we’ll work on that.

Okay?
SAYLOR:
thing out.

We might be able to work some-

HENDLEY:
SAYLOR:

Is your dad sick?

ENGLAND:
SAYLOR:
something out.

We’ll work on that.

My dad is sick, man.

Okay, we might be able to work

[10] ENGLAND: I don’t want to go back to
jail again. Man, I’m just. Man. I, I, I mean I’ll come, I’ll
tell you what you want to know.
HENDLEY:
SAYLOR:

Start from the beginning.

Start from the beginning.

HENDLEY:

And tell everything, Stevie.

ENGLAND: And then I’m going to tell you, I
mean, I don’t want See, I don’t want to get in no trouble. I mean my lawyer. I don’t know. I don’t know if I
should be talking or not. I don’t know. I don’t know
what to do.

App. 168
HENDLEY: I’m telling you as a friend, and
you can talk to your lawyer, but I’m telling you as
friend, you need to cut a break. You’re not in the position to lawyer up and say “I ain’t saying nothing” because they’ve got enough to take you on your own. And
you know as good and well as I do, the minute you
drove off in that cruiser and people seen you, now if
Tyrone gets word that you got picked up again, if he
thinks for one minute its got to do with this, we’ll be
getting post-cards from Tyrone in Tiajuana. You know
that as well as I do.
ENGLAND:

All I’m going to say is, well.

HENDLEY:

Start from the. start.

ENGLAND: I’ll tell you. I’ll tell you. This is
what happened. He picked me up. I rode with him to the
house. Okay. They were arguing. I know that much.
They started, they got into it, they started fighting,
whatever. I tried to pull him off her. I didn’t know he
was going out there for that reason. I’ll be honest with,
cause he said he had to go pick his little girl up or something is what he told me. You know? And after that I’m
going to tell you what I done. After I tried to pull him off
of her I got back in the truck. And then evidently he did
what he had to do. I didn’t want no part of it cause I
didn’t know he was going to do that. Then I came back,
we came back home. He took a shower at my house and
that, and got rid of his clothes and stuff.
*

*

*

App. 169
RENDERED: MAY 19, 2005
NOT TO BE PUBLISHED
Supreme Court of Kentucky
2003-SC-0328-MR
AND
2004-SC-0506-TG
STEVIE LYN ENGLAND

APPELLANT

APPEAL FROM GRAVES CIRCUIT COURT
V. HONORABLE JOHN T. DAUGHADAY, JUDGE
01-CR-00068
COMMONWEALTH
OF KENTUCKY

APPELLEE

MEMORANDUM OPINION OF THE COURT
AFFIRMING
Steven England was convicted of complicity to
murder Lisa Halvorson. The jury sentenced him to life
without parole after finding the aggravating circumstance of committing the crime for profit.1 England appeals to this Court as a matter of right.2

1

KRS 532.025(2)(a)(4). The aggravating factors located in
KRS 532.025(2) act to enhance a convict’s sentence when the conviction was for an offense that authorizes the death penalty. In
this case, England was convicted of complicity to commit murder,
which is a capital offense. When one is convicted of complicity she
is sentenced as if she had committed the crime herself. KRS
502.020. Murder is a capital offense. KRS 507.020(2).
2
KY CONST. § 110(2)(b).

App. 170
On or about July 7, 2000, England ended the life
of Lisa Halvorson in her front yard. Lisa died from
blunt-force trauma to the neck, and her body was
bloodied and bruised from being strangled and run
over by a car, among other things. England raises fifteen claims that this Court should grant him a new
trial. Discerning no reversible error, we affirm the conviction.
I.

Facts

Lisa Halvorson was found dead on July 10, 2000,
by her mother and her sister. She was found in the
gravel portion of her driveway, and had been lying
there for about three days when she was found. It was
later determined that Lisa died of asphyxia. The Kentucky State Police identified Cori Poindexter, a friend
of the victim, as being the last person to see Lisa alive
late on the night of July 7.
The police searched the home of Lisa’s boyfriend,
Tyrone McCary, and collected evidence from his body.
That search did not lead to any evidence that merited
his arrest. The police then focused the investigation on
Lisa’s former husband, Pat Halvorson. Halvorson’s employees were interviewed in late 2000, and Halvorson
himself was questioned in February 2001. The KSP
also attempted to obtain more information regarding
the life insurance policy Halvorson had on Lisa. However, while the KSP was conducting this investigation,
Karl Woodfork contacted the KSP and informed a detective that he had information about Lisa’s murder.

App. 171
After meeting with Woodfork, the KSP wired him for
sound and sent him to England’s house with instructions to record discussions about the murder. During
those taped conversations, England made statements
that were sufficient to warrant further questioning.
England was brought in for questioning on March
30, 2001. During the interrogation England asked
whether he should be talking and asked whether he
should talk to his lawyer. His lawyer was not called,
and England gave an inculpatory statement about the
incident. He said that he and McCary went to Lisa’s
home at dusk where McCary repeatedly choked, beat,
and ran over Lisa with a car. England admits that he
punched Lisa in the jaw, knocking her to the ground.
But he insists that he did not participate in the murder, and that he even tried to persuade McCary to stop.
When McCary disregarded his entreaty, England went
to the truck to wait for McCary. England claimed that
they left her alive at the end of her driveway. Incidentally, Lisa was found dead where England said they
left her. England was tried separately from McCary on
November 6, 2002. He was convicted of complicity to
murder, and sentenced to life in prison without parole.
Additional relevant facts will be discussed below.

App. 172
I.

Analysis
A. The statement

England asserts that the inculpatory statement he
gave to the police while being interrogated should not
have been admitted into evidence because his Sixth
Amendment rights were violated or because his statement was a result of coercion on the part of the police.
Either of his two theories would suffice to exclude this
evidence. However, we find that the statement was
properly admitted by the trial judge.
1. Right to counsel
England asserts that his Sixth Amendment rights
were violated by the police when they continued to
question him after he invoked his right to counsel. But
England’s Sixth Amendment right to counsel had not
attached at the time England confessed to the crime
because adversarial judicial proceedings had not commenced.3 Therefore, his Sixth Amendment rights were
not violated. However, even if England had claimed
that it was his Fifth Amendment right to counsel that
was violated, rather than his Sixth Amendment right
to counsel, he still would not prevail. This is not a pedantic distinction. Though both the Fifth and Sixth
amendments contain a right to counsel, the effect of
those rights is very different.

3

Brewer v. Williams, 430 U.S. 387, 97 S. Ct. 1232, 51 L. Ed. 2d
424 (1977); Commonwealth v. Burge, 947 S.W.2d 805 (Ky. 1996).

App. 173
In any event, England had not unambiguously invoked his Fifth Amendment right to counsel. His confession was properly admitted at trial. Indeed, even
cases cited by England do not support his contention. For instance, England cites to this Court Dean v.
Commonwealth4 wherein we held that the statement
“[s]hould, should I, should I have somebody here? I
don’t know” insufficient to invoke his Fifth Amendment rights.5 This was a response to the police-interrogator ensuring that Dean understood his Miranda6
rights. In Dean the Court noted that this statement
was ineffectual to invoke the right to counsel because
it was not “unambiguous and unequivocal.”7 The same
is true here. After being advised that he had the right
to counsel, Detective John Saylor informed England
that he was being questioned because of his role in the
murder of Lisa. Detective Saylor told England that he
knew that England was there when Lisa was killed
and that England was paid money to do it. England
responded that he did not know what Detective Saylor
was talking about and that he did not know Lisa.
Therefore, it was clear that England understood the
reasons for which he was being interrogated. A little
later, England responded: “I guess you’ll just have to go
on and lock me up then and call my lawyer, cause I
don’t, I don’t know what you’re talking about. I’ll be
4

844 S.W.2d 417 (Ky. 1992).
Id. at 420.
6
Miranda v. Arizona, 384 U.S. 436, 86 S. Ct. 1602, 16
L. Ed. 2d 694 (1966).
7
Dean, 844 S.W.2d at 420.
5

App. 174
honest with you. Like I said, me and Tyrone are
friends. I’ve never seen that woman.” After further
questioning England said, “I don’t want to get in no
trouble. I mean my lawyer. I don’t know.”
These are not unambiguous and unequivocal invocations of the right to counsel. The United States Supreme Court held in Davis v. United States8 that the
words “maybe I should talk to a lawyer” are insufficient
to invoke the right to counsel because the statement is
equivocal. And contrary to England’s assertion that
mentioning that he had an attorney to Detective Saylor – “my lawyer” – was sufficient to invoke the right to
counsel, the mere hint that a defendant has an attorney in another matter does not constitute a request for
counsel in the present issue.9 In essence, England
merely said that I guess you will have to call my lawyer
and I don’t know if I need my lawyer because I don’t
want to get into trouble. We hold that these statements
do not rise to the level of impressing upon the interrogator that the suspect has requested an attorney before continuing the questioning. The statements were
properly admitted at trial.
2. Coercion
Second, England also argues that his confession to
the police was involuntary because he was coerced.
Consequently, he argues, his conviction should be
overturned because the evidence should have been
8
9

512 U.S. 452, 459, 114 S. Ct. 2350, 129 L. Ed. 2d 362 (1994).
See, e.g., Delap v. Duager, 890 F.2d 285 (11th Cir. 1989).

App. 175
excluded at trial. There are three criteria that must be
present for a confession to be deemed involuntary such
that it should be inadmissible as evidence. First, the
police activity should be objectively coercive. Second,
the defendant’s free will must be overwhelmed by the
coercive activity. Finally, the coercive activity must be
the crucial motivating factor behind the defendant’s
confession.10
To show that his confession was coerced England
argues that the police promised him that if he cooperated the death penalty would be taken off the table and
that he might see his kids and sick father again. He
also claims that use of a false-friend during the interrogation constituted coercion.
First, we do not agree that the statements made
by the interrogators with regard to the death penalty
and England’s family constitute coercion. The comments about the death penalty did not tell England anything he did not already know. The police had already
informed England of the reason for his being questioned, and had already played a tape of England talking with Woodfork making inculpatory responses. This
would lead anyone to understand the gravity of the
situation. In fact, England said that he knew Lisa’s
murder could be punished by the death penalty when
the police informed him of this fact. And the police
were not telling England anything that was illegal or
10

Henson v. Commonwealth, 20 S.W.3d 466, 469 (Ky. 2000).
See also Colorado v. Spring, 479 U.S. 564, 574, 107 S. Ct. 851, 93
L. Ed. 2d 954 (1987).

App. 176
untrue. The death penalty could legally have been
sought upon a conviction for the murder. Therefore, we
do not agree that these comments amounted to objective coercion on behalf of the police such that England’s
confession should have been excluded.
Second, the false-friend technique is often used to
make the suspect feel more at ease so that he will not
feel intimidated by the situation. This technique does
not amount to coercion in most circumstances. While
there are situations when using a false-friend could
amount to coercion, such a situation is not present
here. Sergeant Hendley and England played on the
same athletics teams in high school, which was more
than twenty-five years earlier. Furthermore, there was
no evidence in the record that the two had continued a
friendly relationship after high school. This is not the
type of relationship one would consider as inherently
coercive. It is, rather, more akin to a good cop, bad cop
routine. And there is nothing in the record that would
show that Hendley’s role in the interrogation was objectively coercive.
Additionally, England’s will was never overcome
by any allegedly objectively coercive actions on the
part of the police. He made a reasoned determination
to cooperate with the police after being presented with
the evidence already compiled against him. In sum, we
affirm the trial court’s ruling to admit the confession
because it was not coercively obtained.

App. 177
B. Death penalty as an option
England asserts that the death penalty should
have been taken out of the realm of potential penalties
because he relied on an offer by the Commonwealth
when he confessed to the crime. However, there never
was an offer to England. It is true that the interrogators noted that the death penalty was an option, and it
is also true that the interrogators said they had talked
to the prosecutor and there was only one deal. But England puts words into the interrogators’ mouths when
he states that the deal was that the death penalty
would not be pursued. The prosecution is not required
to be absolutely honest with the suspect, and since
there was no true offer upon which England could rely,
we affirm the trial court’s ruling that the prosecution
was properly allowed to seek the death penalty in England’s trial.
C. The restraining order affidavit
England further asserts that information contained in an affidavit in support of an Emergency Protective Order against his co-conspirator should have
been excluded, and its admission was reversible error.
England is correct insofar as he contends that this evidence is inadmissible because it does not meet any exceptions to the hearsay rule, is inherently unreliable,
and violates his Sixth Amendment right “to be confronted with the witnesses against him.”11 This Court
11

U.S. CONST. amend. VI. See also Crawford v. Washington,
541 U.S. 36, 124 S. Ct. 1354, 158 L. Ed. 2d 177 (2004).

App. 178
has made it abundantly clear that statements made for
the purpose of obtaining a restraining order are not admissible at trial.
In both Bray v. Commonwealth12 and Barnes v.
Commonwealth13 we said that affidavits for restraining orders were inadmissible hearsay because they
were offered to prove the truth of the matter asserted
– that the defendant had made a threat against the
victim’s life. And the facts of this case present distinctions without a difference. For example, the statement
in Barnes, given by the victim, stated that the defendant had assaulted and threatened to kill her. The same
is true here, except that it was against a co-conspirator
of the defendant rather than the defendant himself.
Lisa’s statement was that McCary threatened to kill
her or get someone to do it for him. Additionally, neither statement was subject to cross-examination. The
distinction here is that the evidence regarding the restraining order was not against the defendant, but rather against the defendant’s co-conspirator, Tyrone
McCary. We see no meaningful difference in using this
hearsay evidence against the defendant and in using it
against a co-conspirator of the defendant. In both cases
the evidence was used to establish intent by proving a
threat had been made. This violates the hearsay rule
regardless of whether the matter asserted was about
the defendant or a co-conspirator. The Commonwealth’s
contention that the evidence was not against the
12
13

68 S.W.3d 375 (Ky. 2002).
794 S.W.2d 165 (Ky. 1990).

App. 179
defendant may be germane as to relevance, but not as
to hearsay. As England was being prosecuted for complicity with McCary in the murder of Lisa Halvorson,
and proof of McCary’s intent was an element,14 hearsay
evidence that would have been error against McCary
is also error against England.
Therefore, we reaffirm and extend the Barnes doctrine,15 which is that an affidavit in support of a motion
for a restraining order is not admissible at trial regardless of whether the defendant on trial is the person
against whom the restraining order was sought.16
Of course, to overturn England’s conviction, the
improperly admitted evidence must have been prejudicial to his case. The Kentucky Rules of Evidence state
that “[e]rror may not be predicated upon a ruling
which admits or excludes evidence unless a substantial right of the party has been affected.”17 And in
Crane v. Commonwealth we noted that one’s substantial rights are affected when there is a “reasonable possibility that absent error the verdict would have been
different.”18 We now turn to the harmless error inquiry.

14

KRS 502.020.
Id.
16
Obviously, this evidence may be admitted for other reasons provided that the hearsay and relevance rules are satisfied.
For instance, it may be used under KRE 801A as a prior statement of a witness.
17
KRE 103(a).
18
726 S.W.2d 302, 307 (Ky. 1987).
15

App. 180
If ever there were evidence that (put into the context of the particular facts of the case) failed to satisfy
the “verdict would have been different” standard required for reversal, it is here. Simply put, had this evidence been excluded from the jury’s consideration no
different result could have logically been reached. The
prosecution had a taped confession with England admitting participation in this crime. This evidence is
corroborated by both the circumstances of the murder
and the crime scene, and is enough to deem the admission of the affidavit against England’s co-conspirator
harmless. But there is more. The prosecution also introduced competent evidence of a taped conversation
between England and Karl Woodfork. In March 2000,
Woodfork contacted the police and informed it that he
had information regarding Lisa’s murder. After telling
the police that McCary had sought to hire him and
England to murder Lisa, Woodfork agreed to record
conversations with England. In those conversations,
which were played for the jury, England said McCary
had not paid money owed to him and considered ways
to coerce McCary to pay him the money.
With this abundance of evidence, we hold that the
improper admission of the affidavit was harmless, as
the jury would not have returned a different verdict
had the evidence been excluded.
D. Motion to sever trials
England next asserts that granting the Commonwealth’s motion to sever the trials of England and

App. 181
McCary was reversible error. England argues that the
Commonwealth failed to meet its burden for severance,
and that he was prejudiced because had he and
McCary been tried jointly the most England could have
been convicted of was assault. This contention is based
on the fact that at a joint trial the Commonwealth
would not have been able to use any portions of England’s confession that referred to McCary.19 This only
proves the Commonwealth’s argument that it would
have been prejudiced had its motion to sever the trials
not been granted. In fact, this is a picture-perfect case
for the efficacy of severing trials. Here there are two
defendants who conspired to murder. Without severance, one’s confession could not have been fully used
against him to avoid violating the constitutional rights
of the other.
Furthermore, England made a motion to sever the
trials one week before the trial was scheduled to begin
on September 3, 2002, which shows that he must not
have seriously objected to severance. From the foregoing, the trial judge did not abuse his discretion in
granting the Commonwealth’s motion to sever the trials of England and McCary.20

19

Bruton v. United States, 391 U.S. 123, 88 S. Ct. 1620, 20
L. Ed. 2d 476 (1968).
20
See Boggs v. Commonwealth, 424 S.W.2d 806 (Ky. 1966)
(holding that there should be no reversal of a judge’s ruling to
sever in the absence of an abuse of discretion).

App. 182
E. Right to employ a criminologist
England next claims that his conviction should be
reversed because he was denied sufficient public funds
to employ a criminologist. The criminologist was purportedly going to testify that the body was moved after
death, that Caucasian hairs were found in Lisa’s hands
and panties, and that the sperm found in Lisa’s vagina
did not come from either England. or McCary. However,
this evidence, except for movement of the body, was
presented at trial from other witnesses. The only facts
that the criminologist was to testify to that could merit
reversal is that the body was moved after death. However, upon England’s motion for the Commonwealth to
pay for a criminologist, the trial judge disallowed the
employment of the criminologist because the cost was
an unreasonable $3,500 per day. The judge stated that
England could submit other names, but England failed
to do this. Instead, England requested that the state
pay for the purchase of a forensic pathology treatise,
which was granted by the trial court. There was no reversible error.
F. Statements of the victim
England next contends that it was improper to allow Cori Poindexter to testify about statements made
by Lisa during a telephone conversation she overheard
between Lisa and McCary. Poindexter testified that
during the conversation McCary accused Lisa of having an affair, that Lisa responded by crying and refusing to eat, and that Lisa told her that McCary had said

App. 183
if he could not have her, nobody would. England appeals from the admission of this evidence because it is
not relevant and violates the hearsay rule.
Hearsay is a statement by a declarant, other than
one made while testifying at trial or at a hearing, offered to prove the truth of the matter asserted.21 There
were three statements about which Poindexter testified. First, Poindexter testified that she overheard
McCary accuse Lisa of having an affair. This statement
is not hearsay. The matter asserted was that Lisa was
having an affair, and it was not offered by the Commonwealth to prove the truth of it. It was ostensibly
used, rather, to show the general belligerency McCary
had toward Lisa at a time near to her murder. Second,
Poindexter testified that Lisa cried and refused to eat
in response to the conversation with McCary. This, too,
is not hearsay. To be hearsay, there must be a statement. A statement is defined in KRE 801(a)(2), and it
requires that the statement be intended as an assertion. Crying is not an assertion. Rather, it is a physical
manifestation of an emotion or sensation. It is not a
statement for hearsay purposes. However, even if crying were intended as an assertion and offered to prove
the truth of whatever was asserted – thereby implicating the hearsay rule, it would still be subject to
admission into evidence as a statement of Lisa’s
then-existing emotional condition of mental feeling or
pain.22 Finally, Poindexter testified that Lisa told her
21
22

KRE 801(c).
KRE 803(3).

App. 184
that McCary told her that if he couldn’t have her, nobody would. This is hearsay. The declarant was Lisa,
and the matter asserted is that McCary said that nobody would have her if he couldn’t.23 However, this
statement is admissible under the spontaneous statement exceptions to the hearsay rule, present sense impressions24 and excited utterances.25 The underlying
premise behind these exceptions is that they are inherently reliable because they are contemporaneous with
the observation, safe from defects in memory, and unlikely to result from calculated thought. Lisa’s statement described what McCary said immediately after
their phone conversation ended. Thus it qualifies as
an exception under KRE 803(1). Furthermore, Lisa’s
statement was an excited utterance because McCary’s
statement that he would not let anybody else have
her if he couldn’t precipitated a startling event to Lisa,
and her statement to Poindexter relating to McCary’s
threat was made immediately after the phone conversation while she was crying. Therefore, the trial court

23

It is important to note that the matter asserted is not that
nobody would have Lisa if McCary couldn’t, but that McCary said
those words. Lisa is the declarant, not McCary. Had the declarant
been McCary, then this statement would not be hearsay because
the statement was not offered to prove that Lisa would not be had
by anyone but McCary. Rather, the statement was offered to
prove that McCary made that threat.
24
KRE 803(1).
25
KRE 803(2).

App. 185
did not abuse its discretion,26 and the statement was
properly admitted.
Second, this evidence meets the test of relevance.
The Commonwealth was charged with the burden of
proving that England conspired with McCary to kill
his ex-girlfriend, Lisa. The trial court allowed this
statement into evidence after considering its relevance, noting that evidence that McCary threatened
Lisa the day of the murder and that Lisa was scared of
McCary goes to the Commonwealth’s theory.
England further contends that the out of court
statements should have been excluded because their
probative value is substantially outweighed by the
prejudicial effect.27 We agree with the overwhelming
precedent on this issue, that we should not disturb a
trial court’s KRE 403 ruling to admit evidence unless
the trial judge has abused his discretion.28 This deference is bestowed upon the trial judge because she is in
a much better position to determine the prejudicial effect of particular evidence due to being infinitely more
familiar with the case than are appellate judges. In
light of the deference given to the trial court, we affirm
this ruling of the trial court.

26

See Souder v. Commonwealth, 719 S.W.2d 730 (Ky. 1986)
(trial court rulings regarding hearsay exceptions are entitled to
deference).
27
KRE 403.
28
See Robert G. Lawson, The Kentucky Evidence Law Handbook § 2.10 (3d ed. 1993) for a more thorough discussion of federal
decisions regarding FRE 403.

App. 186
However, even if we were to conclude that the trial
judge abused his discretion in admitting this evidence,
such an error would be harmless in light of the remaining competent evidence. As discussed above, the Commonwealth presented two audio tapes to the jury: in
one England confessed to the crime at the police station, and in the other England made inculpatory statements to Woodfork.
G. African-Americans on the jury panel
England further asserts that his conviction should
be overturned because there were not a sufficient number of African-Americans on the jury panel. England
does not, however, assert any wrongdoing on the part
of the judicial system. His only assertion is that the
courts are required to ensure that African-Americans
are represented in the jury panel, regardless of the results of the selection process, which is random. Here,
the jury panel was randomly selected by computer
from registered voters who also had a driver’s license.
This process resulted in two African-Americans being
randomly selected to be on the jury panel. One of
two was dismissed for cause because of a familial relationship with the defendant. The other was not dismissed for cause or peremptorily challenged, but was
not seated on the jury because of the draw. Because
there is not even a scintilla of evidence that AfricanAmericans were systematically excluded from the jury
panel, England is not entitled to reversal of his conviction. Simply put, one is entitled to a fair process
whereby there is no systematic exclusion of qualified

App. 187
candidates for the jury panel; but one is not entitled to
a jury composed of a certain number of persons of a
given race.29
H. Death-qualified jury
Similarly, England argues that his conviction
should be reversed because jurors who were opposed to
the death penalty should have been allowed to remain
on the jury. It is well-settled law in this Commonwealth that a juror may be stricken for cause if she is
unable to consider the death penalty when considering
the sentence upon conviction of the defendant.30 We
hold that England’s constitutional rights were not violated by excusing jurors who could not consider the
death penalty as a sentence upon his conviction.
I.

Tape transcripts used during closing
argument

England’s next assertion is that he is entitled to a
new trial because the Commonwealth used enlarged,
typewritten transcripts of portions of the audio tapes
between England and Woodfork. The Commonwealth
attempted to introduce this evidence as an exhibit during the proof phase of the trial, but the trial court
29

See Patterson v. Commonwealth, 555 S.W.2d 607 (Ky.
App. 1977) (disproportionate number of young people on the jury
panel did not establish systematic exclusion).
30
E.g., Mabe v. Commonwealth, 884 S.W.2d 668 (Ky. 1994).
See also 9 Leslie W. Abramson, Kentucky Practice § 25.49 (4th ed.
2003).

App. 188
sustained England’s objection because it was difficult
to conclude what was said on the tapes and the interpretation was properly left to the jury. However, the
trial court allowed this evidence to be used during the
Commonwealth’s closing argument because the prosecutor’s closing remarks were the Commonwealth’s theory of the case rather than evidence.
This was the proper ruling by the trial court. A
party has the right to present his theory of the case to
the jury as long as the evidence supports such a theory.31 Appellant cites Sanborn v. Commonwealth32 as
support for his argument that giving the jury a transcript of an unclear tape recording is reversible error.
However, the issue in Sanborn was whether it was reversible error to give the jury a transcript of such a
tape recording during the proof stage of trial. Here the
issue is whether a transcript is improperly presented
to the jury during closing argument, not as proof but
as a theory of the case. But this evidence is more akin
to the transcript in Norton v. Commonwealth33 than it
is to Sanborn. The Court of Appeals, in affirming Judge
(now Justice) Graves’ decision to admit the transcript,
noted in Norton that there is a difference in a transcript offered as evidence and one offered as guidance.34 Also, there is no allegation of particularized
errors in the Commonwealth’s transcript. Such was
31

Slaughter v. Commonwealth, 744 S.W.2d 407, 412 (Ky.

1987).
32
33
34

754 S.W.2d 534 (1988).
890 S.W.2d 632 (Ky. App. 1995).
Id. at 637.

App. 189
not the case in Sanborn, where there were discrepancies even between the court reporter’s transcript of the
trial and the Commonwealth’s transcript. We find that
the trial judge did not abuse his discretion, and decline
to extend Sanborn to include all instances where a
transcript is presented to the jury when the tape is unclear.
J. Commonwealth’s closing argument
about instructions
England claims that his conviction should be reversed because he was prejudiced by the Commonwealth’s improper closing argument. England argues
that the Commonwealth’s argument was in contradiction to the instructions given to the jury. The instructions stated that the jury could return a verdict of
guilty if it believed that England killed her by “striking
her, running over her with a truck, and causing her
death by strangulation.” During its closing the Commonwealth stated that the jury could return a verdict
of guilty if it found that England engaged in one of
those actions. The Commonwealth concedes that the
prosecutor made the alleged statement. However, England did not make a proper objection to this statement.
Pursuant to RCr 9.22, counsel must make a contemporaneous objection to any improper comment during
closing argument. If counsel fails to so object, then a
reviewing court will not reverse a conviction unless the
comment rises to the level of palpable error, as enunciated in RCr 10.26.

App. 190
The only question respecting this issue is whether
there was palpable error, which exists when a reviewing court concludes that a substantial possibility exists
that the result would have been different.35 When
taken as a whole, we find that the Commonwealth’s
closing argument was not palpable error. Had England
properly objected to the comment he may have been
entitled to some form of relief, such as an admonition.
However, he did not, and we do not find palpable error.
K. Notice of aggravating circumstances
Furthermore, England claims that his conviction
should be reversed because he did not receive notice of
the Commonwealth’s evidence of aggravation, which
triggered the death penalty. However, KRS 532.025
does not require written notice to the defendant of the
Commonwealth’s evidence. It only requires that the
defendant be made known of such evidence. Here, England was certainly made known of the aggravating evidence, which was that England participated in the
murder of Lisa for profit. This was dealt with at the
pre-trial suppression hearing, where England claimed
that he had not received notice that the Commonwealth was seeking the death penalty. However, England had such notice. For example, England received
the revised notice dated August 12, 2002, of aggravating circumstances sent to both him and McCary (his
co-conspirator). England’s argument that it does not
35

1986).

E.g., Jackson v. Commonwealth, 717 S.W.2d 511 (Ky. App.

App. 191
reference him in the body of the notice is unpersuasive,
as he was mentioned in the heading and the notice was
sent to his attorney. In fact, England attached the notice to his motion and argued that such notice was not
contained in the indictment.
This is not a novel proposition. In Francis v. Commonwealth36 we held that it was not necessary for the
defendant to receive written notice. What was important was that the defendant be apprised of the aggravating evidence and have the ability to prepare to
meet it.37 The same is true here. It is clear that England understood that the Commonwealth was seeking
the death penalty, he understood the evidence upon
which the Commonwealth was seeking the death penalty, and he had the opportunity to prepare to meet
that evidence. In short, England had the type of notice
KRS 532.025 contemplated. We decline this invitation
to overturn his conviction.
L. Aggravating circumstances in the
indictment
Closely akin to England’s most previous argument, England asserts that because the aggravating
circumstances were not included in the indictment the
Commonwealth was prohibited from seeking the death
penalty. However, this issue has been recently decided
by this Court in Furnish v. Commonwealth,38 a case in
36
37
38

752 S.W.2d 309 (Ky. 1988).
Id. at 311.
95 S.W.3d 34 (Ky. 2003).

App. 192
which three opinions were written, but all agreeing to
the pertinent issue in this case: aggravating circumstances need not be included in the indictment for the
Commonwealth to seek the death penalty.39 Like in
Furnish, the indictment here clearly noted that England was being charged with “Murder, A Capital Offense”
for “running over and strangling Lisa Halvorson.”
Moreover, England was made known of the specific evidence upon which it intended to seek capital punishment. Additionally, this was not preserved for review
by a pre-trial motion as required by RCr 8.18, which
was also the case in Furnish.40
M. Recorded conversations
England further contends (apparently without the
agreement of his counsel) that the trial court should
not have allowed the Commonwealth to introduce the
taped conversation between himself and Woodfork. He
claims that this is a violation of his Fourth Amendment rights, as applied to the states by the Fourteenth
Amendment, and that he is entitled to a new trial.
However, use of this type of evidence does not violate a
defendant’s Fourth Amendment rights. A defendant’s
conversations with a police informant do not violate
the defendant’s constitutional rights where the informant was legally in the place where the taped conversations took place and every conversation used by the
prosecution was either directly with the informant or
39
40

Id. at 41.
Id.

App. 193
carried on with the defendant’s knowledge of his presence.41
N. Exculpatory evidence
England’s last claim for reversal of his conviction
is that he was not given exculpatory evidence by the
Commonwealth. Specifically, he contends that he was
not informed that the sperm found in Lisa’s vagina was
from her boyfriend, Shannon Jenkins, that there was a
Caucasian head hair found in Lisa’s panties, and that
there were Caucasian head hairs in her hands. However, England was aware of the crucial parts of this information prior to trial. For instance, he was aware
that the hair in Lisa’s hand was probably from a cat.
As to the sperm found, England argued that the sperm
taken from Lisa did not match either England or
McCary. Also, England was aware that Jenkins stated
that he recently had sexual intercourse with Lisa. In
fact, the additional test taken with Jenkins’ sample
was done so the prosecutor could rebut a claim that the
sperm could have come from Lisa’s killer.
Therefore, all the evidence England claims could
have given the jury a reasonable doubt was available
to England: that the hairs and sperm did not match
England or McCary. The trial judge’s ruling is not to be
disturbed absent an abuse of discretion,42 and we hold
41

See e.g., Hoffa v. United States, 385 U.S. 293, 87 S. Ct.
408, 17 L. Ed. 2d 374 (1966).
42
E.g., Anderson v. Commonwealth, 63 S.W.3d 135. 141 (Ky.
2001).

App. 194
that it was not an abuse of discretion to deny a new
trial. This is true especially in light of the competent
evidence that England and McCary left Lisa to die in
the exact location in which she was found. “It is clear
that in order to warrant a new trial, the defendant
must make a showing of reasonable certainty that a
different verdict would have been reached had the evidence been presented.”43 Had the evidence been as
England wishes, the result would not have changed.
He was properly convicted on the competent evidence,
and we see no reason to overturn that conviction.
Lambert, C.J., and Graves, Johnstone, Keller,
Scott, and Wintersheimer, JJ., concur. Cooper, J., concurs in result only.

43
Id. (citing Carwile v. Commonwealth, 694 S.W.2d 469, 470
(1985)).

